<html>
<title> - JOINT OVERSIGHT FIELD HEARING ON NATIONAL PARK OVERFLIGHTS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
       JOINT OVERSIGHT FIELD HEARING ON NATIONAL PARK OVERFLIGHTS

=======================================================================

                        JOINT OVERSIGHT HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES

                                  and

                        SUBCOMMITTEE ON AVIATION

                                 of the

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                  NOVEMBER 17, 1997, ST. GEORGE, UTAH

                               __________

                Committee on Resources Serial No. 105-67
    Committee on Transportation and Infrastructure Serial No. 105-48

                               __________

         Printed for the use of the Committee on Resources and
           the Committee on Transportation and Infrastructure



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 46-701 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         BRUCE F. VENTO, Minnesota
RICHARD W. POMBO, California         DALE E. KILDEE, Michigan
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CARLOS A. ROMERO-BARCELO, Puerto 
GEORGE P. RADANOVICH, California         Rico
WALTER B. JONES, Jr., North          MAURICE D. HINCHEY, New York
    Carolina                         ROBERT A. UNDERWOOD, Guam
JOHN B. SHADEGG, Arizona             PATRICK J. KENNEDY, Rhode Island
JOHN E. ENSIGN, Nevada               WILLIAM D. DELAHUNT, Massachusetts
ROBERT F. SMITH, Oregon              DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
             COMMITTEE ON TRANSPORTATION AND INFRASTUCTURE

                  BUD SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    JAMES L. OBERSTAR, Minnesota
THOMAS E. PETRI, Wisconsin           NICK J. RAHALL II, West Virginia
SHERWOOD L. BOEHLERT, New York       ROBERT A. BORSKI, Pennsylvania
HERBERT H. BATEMAN, Virginia         WILLIAM O. LIPINSKI, Illinois
HOWARD COBLE, North Carolina         ROBERT E. WISE, Jr., West Virginia
JOHN J. DUNCAN, Jr., Tennessee       JAMES A. TRAFICANT, Jr., Ohio
THOMAS W. EWING, Illinois            PETER A. DeFAZIO, Oregon
WAYNE T. GILCHREST, Maryland         BOB CLEMENT, Tennessee
JAY KIM, California                  JERRY F. COSTELLO, Illinois
STEPHEN HORN, California             GLENN POSHARD, Illinois
BOB FRANKS, New Jersey               ELEANOR HOLMES NORTON, District of 
JOHN L. MICA, Florida                Columbia
JACK QUINN, New York                 JERROLD NADLER, New York
TILLIE K. FOWLER, Florida            PAT DANNER, Missouri
VERNON J. EHLERS, Michigan           ROBERT MENENDEZ, New Jersey
SPENCER BACHUS, Alabama              JAMES E. CLYBURN, South Carolina
STEVEN C. LaTOURETTE, Ohio           CORRINE BROWN, Florida
SUE W. KELLY, New York               JAMES A. BARCIA, Michigan
RAY LaHOOD, Illinois                 BOB FILNER, California
RICHARD H. BAKER, Louisiana          EDDIE BERNICE JOHNSON, Texas
FRANK RIGGS, California              FRANK MASCARA, Pennsylvania
CHARLES F. BASS, New Hampshire       GENE TAYLOR, Mississippi
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
JACK METCALF, Washington             California
JO ANN EMERSON, Missouri             ELIJAH E. CUMMINGS, Maryland
EDWARD A. PEASE, Indiana             EARL BLUMENAUER, Oregon
ROY BLUNT, Missouri                  MAX SANDLIN, Texas
JOSEPH R. PITTS, Pennsylvania        ELLEN O. TAUSCHER, California
ASA HUTCHINSON, Arkansas             BILL PASCRELL, Jr., New Jersey
MERRILL COOK, Utah                   JAY W. JOHNSON, Wisconsin
JOHN COOKSEY, Louisiana              LEONARD L. BOSWELL, Iowa
JOHN R. THUNE, South Dakota          JAMES P. McGOVERN, Massachusetts
CHARLES W. ``CHIP'' PICKERING, Jr.,  TIM HOLDEN, Pennsylvania
Mississippi                          NICK LAMPSON, Texas
KAY GRANGER, Texas
JON D. FOX, Pennsylvania
THOMAS M. DAVIS, Virginia
FRANK A. LoBIONDO, New Jersey
J.C. WATTS, Jr., Oklahoma
JERRY MORAN, Kansas
VITO FOSSELLA, New York

                                 ______

                        Subcommittee on Aviation

                JOHN J. DUNCAN, Jr., Tennessee, Chairman

ROY BLUNT, Missouri Vice Chairman    WILLIAM O. LIPINSKI, Illinois
THOMAS W. EWING, Illinois            LEONARD L. BOSWELL, Iowa
VERNON J. EHLERS, Michigan           GLENN POSHARD, Illinois
RAY LaHOOD, Illinois                 NICK J. RAHALL II, West Virginia
CHARLES F. BASS, New Hampshire       JAMES A. TRAFICANT, Jr., Ohio
JACK METCALF, Washington             PETER A. DeFAZIO, Oregon
EDWARD A. PEASE, Indiana             JERRY F. COSTELLO, Illinois
JOSEPH R. PITTS, Pennsylvania        PAT DANNER, Missouri
ASA HUTCHINSON, Arkansas             JAMES E. CLYBURN, South Carolina
MERRILL COOK, Utah                   CORRINE BROWN, Florida
JOHN COOKSEY, Louisiana              EDDIE BERNICE JOHNSON, Texas
CHARLES W. ``CHIP'' PICKERING, Jr.,  JUANITA MILLENDER-McDONALD, 
Mississippi                          California
KAY GRANGER, Texas                   ELIJAH E. CUMMINGS, Maryland
JON D. FOX, Pennsylvania             JAMES L. OBERSTAR, Minnesota
THOMAS M. DAVIS, Virginia              (Ex Officio)
J.C. WATTS, Jr., Oklahoma
BUD SHUSTER, Pennsylvania
  (Ex Officio)

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held November 17, 1997...................................     1

Statements of Members:
    Duncan, Hon. John J., Jr., a Representative in Congress from 
      the State of Tennessee.....................................     3
        Prepared statement of....................................     4
    Ensign, Hon. John E., a Representative in Congress from the 
      State of Nevada............................................     5
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     3

Statements of witnesses:
    Atkin, Jerry, President/CEO, Skywest Airline.................    26
        Prepared statement of....................................    82
    Bassett, Steve, President, United States Air Tour Association    35
        Prepared statement of....................................    99
    Bimstein, Phillip, Mayor, Springdale, Utah...................    49
        Prepared statement of....................................   120
    Gardner, Alan, Commissioner, Washington County, Utah.........    72
        Prepared statement of....................................    80
    Giles, Deloy, Rigby, Idaho...................................    71
    Harrison, Robin T., P.E., President, Murphy & Harrison, Inc..    61
        Prepared statement of....................................   123
    Jensen, Frank L., Jr., President, Helicopter Association 
      International..............................................    65
        Prepared statement of....................................   134
    Keller, Lynn, President, Western River Expeditions...........    73
    Ledbetter, Jeri, Southwest Field Office, Sierra Club.........    51
        Prepared statement of....................................    79
    Lindgren, Bonnie, Owner/Operator, Redtail Aviation...........    29
        Prepared statement of....................................    86
    Lowey, Jacqueline, Deputy Director, National Park Service 
      accompanied by Robert Arnbarger............................     9
        Prepared statement of Jacqueline Lowey...................    77
    Snow, Steven E., Board Member, Grand Canyon Trust............    47
        Prepared statement of....................................   117
    Stocker, Voneta, Las Vegas...................................    64
        Prepared statement of....................................   128
    Sullivan, John, Chairman, Grand Canyon Air Tour Council......    69
        Prepared statement of....................................   160
    Swanda, Ron, Vice President of Operations, General Aviation 
      Manufacturers Association..................................    67
        Prepared statement of....................................   156
    Valentine, Barry E., Acting Deputy Administrator, Federal 
      Aviation Administration....................................     7
        Prepared statement of....................................    76
    Voorhees, Philip H., Associate Director for Policy 
      Development, National Parks and Conservation Association...    44
        Prepared statement of....................................   110
    Walker, Randy, Director, McCarran International Airport......    32
        Prepared statement of....................................    89

Additional material submitted:
    Fidell, Dr. Sanford, BBN Acoustic Technologies, BBN 
      Technologies, prepared statement of........................   177
    Hingson, Dick, Conservation Coordinator, Sierra Club Angeles 
      Chapter, prepared statement of.............................   166



       JOINT OVERSIGHT FIELD HEARING ON NATIONAL PARK OVERFLIGHTS

                              ----------                              


                       MONDAY, NOVEMBER 17, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources 
            joint with the Subcommittee on Aviation, 
            Committee on Transportation and Infrastructure, 
            St. George, Utah.
    The joint Subcommittees met, pursuant to notice, at 9 a.m., 
in the Gardiner Center Ballroom, Dixie College, St. George, 
Utah, Hon. James V. Hansen [chairman of the Subcommittee on 
National Parks and Public Lands] presiding.
    Members present: Representatives Hansen, Ensign, and 
Duncan.
    Staff present: Allen Freemyer, Subcommittee Staff Director; 
Richard Healy, Legislative Staff; Windsor Laing, Legislative 
Assistant; Jim Coon, Professional Staff Member; and Nancy 
Laheeb, Clerk.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. The meeting will come to order.
    Good morning and welcome to the joint oversight hearing 
today, this joint hearing of the Subcommittee on National Parks 
and Public Lands, which I chair, and the Subcommittee on 
Aviation, chaired by my colleague, Congressman John Duncan of 
Tennessee.
    We will address many of the issues surrounding air tour 
flights conducted over national parks.
    We are also very grateful that John Ensign from Nevada is 
with us, and we also have with us Lisa Jackson, Chief of Staff 
of Congressman Bob Stump, and we are grateful that Lisa could 
be with us at this time.
    Perceived problems with safety and the natural quiet caused 
by air tour overflights above national parks, especially the 
Grand Canyon National Park, has been a recurrent issue since at 
least 1975, when Congress first addressed these issues and 
passed Public Law 93-620. This law gave the Secretary of the 
Interior authority to develop regulations to protect the park 
from actions causing significant adverse effects on the natural 
quiet and experience of the park.
    Before these regulations were promulgated, a tragic 
accident occurred in the Grand Canyon compelling Congress in 
1987 to pass another law, Public Law 100-19, which addressed 
park safety and required the Park Service to do a study on 
noise associated with all aircraft on the natural quiet of this 
and a number of other national parks.
    This law also requested the Park Service and FAA to provide 
recommendations which would substantially restore natural quiet 
in the park. These recommendations became Special Federal 
Aviation Regulations 50-1 and 50-2 and set up flight free zones 
and confined the tour aircraft to flight corridors and imposed 
flight altitude restrictions.
    Since implementation of 50-2, complaints from Grand Canyon 
Park visitors concerned about aircraft noise have dropped to 
extremely low levels. This would indicate that 50-2 has been 
successful.
    For example, in 1993, there were 56 complaints, and in 
1995, there was only 26 complaints, with approximately five 
million visitors in both years.
    Despite this data, however, the Park Service and 
environmental groups still question the effectiveness of the 
SFARs, that is, did they substantially restore natural quiet to 
the park. This disagreement, along with the difference of 
opinion over the definition of natural quiet remains the center 
of much of the debate today.
    In April 1996, President Clinton issued a policy direction 
to the Federal Aviation Administration, which promulgated a 
notice of proposed rulemaking, which significantly altered the 
flight rules over the Grand Canyon. Specifically, the new rules 
would double the size of the existing flight free zones, narrow 
flight corridors, cap the total number of flights, and 
establish curfews for flight activities.
    These rules, with one exception, became effective on May 
1997. Since then, President Clinton has ordered an additional 
action which imposes a ban on air tours in Rocky Mountain 
National Park even though incredibly there are no air tours 
operating in that park.
    The Presidential directives have also resulted in the 
formation of the Aviation Rulemaking Advisory Council, which 
now has the task of developing recommendations addressing 
overflights in national parks. These recommendations are due 
very soon and may help in the development of national policy on 
park overflights.
    With that as a background, I want to welcome our witnesses. 
I recognize, of course, the Members of Congress whom I 
mentioned before.
    We have a lot of witnesses today, and I would like to ask 
that each of them try to stay within the rules of the 
Committee, which is 5 minutes or less. However, because we have 
assembled you here, if you have just got a burning in your 
bosom that you have just got to do a few more minutes, go ahead 
and do it. If it gets too bad though, I will gavel you down, 
and I will be very lenient though on that because I want to 
hear the testimony from all of you if we could.
    I am very honored, of course, as I mentioned before, that 
John Duncan of Tennessee, the Chairman of the FAA Subcommittee, 
could be with us. Congressman Duncan also sits on the Park 
Committee, as does Congressman Ensign. So we have got a double 
barrel shot at you today, and this is one of the most 
distinguished Members of Congress, and we are always honored to 
have him here, especially with his great legal mind. We used to 
call him Judge Duncan before he came to Congress.
    [The prepared statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good morning everyone and welcome to the joint oversight 
hearing today. This joint hearing of the Subcommittee on 
National Parks and Public Lands, which I chair, and the 
Subcommittee on Aviation, chaired by my colleague, Congressman 
John Duncan, will address many of the issues surrounding air 
tour overflights conducted over national parks.
    Perceived problems with safety and the ``natural quiet'' 
caused by air tour overflights above national parks, especially 
the Grand Canyon National Park, have been recurrent issues 
since at least 1975 when Congress first addressed these issues 
and passed Public Law 93-620. This law gave the Secretary of 
the Interior authority to develop regulations to protect the 
park from actions causing significant adverse effect on the 
natural quiet and experience of the park.
    Before these regulations were promulgated a tragic accident 
occurred in the Grand Canyon compelling Congress, in 1987, to 
pass another law, Public Law 100-91 which addressed park safety 
and required the Park Service to do a study on noise associated 
with all aircraft on the ``natural quiet'' of this and a number 
of other national parks. This law also requested the Park 
Service and FAA to provide recommendations which would 
substantially restore natural quiet in the park. These 
recommendations became Special Federal Aviation Regulations or 
SFAR 50-1 and SFAR 50-2 and set up flight-free zones, confined 
the tour aircraft to flight corridors, and imposed flight 
altitude restrictions.
    Since implementation of SFAR 50-2, complaints from Grand 
Canyon park visitors concerned about aircraft noise have 
dropped to extremely low levels. This would indicate that SFAR 
50-2 has been successful. For example, in 1993 there were 56 
complaints and in 1995 only 26 complaints with approximately 5 
million visitors in both years. Despite this data, however, the 
Park Service and environmental groups still question the 
effectiveness of the SFARs, that is, did they substantially 
restore ``natural quiet'' to the park. This disagreement, along 
with a difference of opinion over the definition of ``natural 
quiet'' remains the center of much of the debate today.
    In April of 1996 President Clinton issued a policy 
direction to the Federal Aviation Administration (FAA) which 
promulgated a Notice of Proposed Rulemaking (NPRM) which 
significantly altered the flight rules over the Grand Canyon. 
Specifically, the new rules would double the size of the 
existing flight free zones, narrow flight corridors, cap the 
total number of flights, and establish curfews for flight 
activity. These rules, with one exception, became effective in 
May of 1997.
    Since then, President Clinton has ordered an additional 
action which imposes a ban on air tours in Rocky Mountain 
National Park, even though, incredibly, there are no air tour 
operations at that park.
    The Presidential directives have also resulted in the 
formation of the Aviation Rulemaking Advisory Council (ARAC) 
which now has the task of developing recommendations addressing 
overflights in national parks. These recommendations are due 
very soon and may help in the development of a national policy 
on park overflights.
    With that as a background, I want to welcome our witnesses 
and recognize the other Member of Congress who traveled to this 
beautiful state of Utah for this hearing, Congressman John 
Ensign from Nevada, who is also a member of the National Parks 
Subcommittee.
    There are a lot of witnesses today and I would like to ask 
that each of them earnestly try to keep the oral statement to 5 
minutes or less. Thank you very much and I'll now turn to Chair 
of the Aviation Subcommittee, Mr. John Duncan.

  STATEMENT OF HON. JOHN J. DUNCAN, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Duncan. Well, thank you, Jim.
    It is certainly an honor to be here with you and with John 
Ensign.
    You have very accurately outlined the task or the purpose 
of the hearing today, and let me return the compliment, first 
of all. Jim Hansen is one of the most respected members in the 
entire Congress. In fact, I do not know of any other member 
that is a double barrel chairman. He is Chairman of the 
National Parks Subcommittee and Chairman of the House Ethics 
Committee, a very difficult job, indeed, and so I think he is 
the right man to settle this dispute, I guess, that we have 
here today.
    I must say, first of all, that I never thought I would come 
this far from Tennessee and end up in a place called Dixie.
    [Laughter.]
    Mr. Duncan. But I have a formal statement that I am going 
to submit for the record.
    I participated in July 1994 in the very lengthy and 
detailed hearing about this issue which we conducted in the 
Rayburn Building. I know many of the people involved; I know 
many of the issues involved.
    That is basically all I wanted to say at this time. I am 
looking forward to hearing from the witnesses, and I want to 
thank all of them for taking time out from what I know are very 
busy schedules to be here today, and thank you very much for 
letting me come participate also.
    [The prepared statement of Mr. Duncan follows:]

  Statement of Hon. John J. Duncan, Jr., a Representative in Congress 
                      from the State of Tennessee

    Chairman Hansen, Congressman Ensign, it is a pleasure to be 
here today in this wonderful community and in the Stale of 
Utah.
    I am fortunate to have the opportunity to serve both on the 
Parks Subcommittee and as Chair of the Aviation Subcommittee in 
the Congress, which enables me to have a unique perspective on 
all sides of this issue.
    Let me make clear at the outset that I strongly support the 
goal of protecting our National Parks from unnecessary aircraft 
noise.
    Natural quiet is a valuable part of the visitor experience 
at many parks as well as other places in this Country.
    Further, there are many legitimate methods for management 
of aircraft over Parks which will achieve the appropriate 
balance between aircraft use and protection of the visitor 
experience, including but not limited to: limitation on time, 
place and number of aircraft, quiet aircraft technology and 
management of visitor use patterns.
    These management actions are not dissimilar to actions 
taken to address other resource use allocation issues or 
management of other uses of park areas.
    I also believe that sightseeing by aircraft is a legitimate 
manner in which to experience the Grand Canyon National Park 
and other Park areas.
    With the efforts put forth by the Aviation Working Group, 
which consists of Federal, private, environmental, and other 
organizations, I believe that we can develop a solution which 
will permit continuation of aircraft overflights while 
enhancing opportunities for Park visitors to experience natural 
quiet.
    If we work together to develop consensus on a reasonable 
and common-sense approach, then I think we will be very 
successful on this and many other issues.
    Mr. Chairman, I look forward to hearing from the expert 
witnesses we have before us today.

    Mr. Hansen. Thank you.
    Also we are very pleased to have John Ensign from Nevada 
with us. John is one of the outstanding stars of the sophomore 
class and a real comer in Washington. It is a privilege to have 
him on the Committee, and he has really shown that he is going 
to be a great Congressman, and we are thrilled that he is going 
to be with us today on this very important issue.
    I will turn to you, John.

STATEMENT OF HON. JOHN E. ENSIGN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Ensign. Thank you, Mr. Chairman.
    I would like to thank you and Chairman Duncan for holding 
this very important hearing, and I do have also a formal 
statement that I would like to submit for the record and just 
make a couple of very brief observations.
    Most of the flights that occur over the Grand Canyon 
originate in my district in Las Vegas. There are many people 
who utilize this service because it is the only way that they 
can see the Grand Canyon, many elderly people, many disabled 
people, and there are also a lot of foreign visitors that we 
have that want to see the Grand Canyon that, frankly, do not 
have a tremendous amount of time to see the Canyon, but they 
want to make that as part of their trip to America.
    When we had a hearing in Las Vegas, Senator McCain had a 
hearing similar to this in Las Vegas last year. I was there to 
learn, just as I am here to learn today and to inquire into the 
witnesses, and one of the striking things about what I heard 
that day was the number of complaints that are at the Canyon 
each year, and what shocked me was when the Park Service said 
that there were 25 complaints. I actually thought that they 
were talking about 2,500 or 25,000 complaints.
    When I heard that the total number of complaints was 25, 
being in the hotel business, which I was for several years, we 
did surveys of our customers, and we always would say in 
business for every one complaint the average is about 20 people 
that did not complain.
    So I started figuring out the statistics of, well, OK, 
there is 20, and 20 times 25, dividing that by about half a 
million people coming to the see these areas where the actual 
impact of the flights would be felt, and it is an incredibly 
small number, and anybody in the hospitality industry I can 
tell you would be very, very pleased to have that type of a 
performance record and those few complaints.
    The Grand Canyon is a very, very special place, I think, to 
all Americans. It is certainly a pride of the Southwest that we 
want to maintain the type of an experience for visitors to 
have, but at the same time there are balances, and there is a 
balance in life that has to be achieved. There are different 
interests from different people, and it is a question of how do 
we accommodate the people like the disabled, the elderly, who 
want to see and experience the park in this type of a manner 
from a view like that. How do we do that, and how do we put the 
economic incentives maybe for some of the noisier airplanes to 
be phased out?
    Those are the type of solutions, I think, that we need to 
look to instead of just restricting the airspace, which is 
already restricted, and if we restrict it even further, and 
plus the fact that I think we need to look at the difference 
between the helicopters and the Arizona tour operators versus 
the Nevada tour operators. All of that needs to be part of the 
mix, and I just appreciate you having this hearing today so 
that we can get into all of these issues.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you.
    As you folks know, this issue has become a bigger issue 
every day. As John aptly pointed out, how do we take care of 
all the people who want to see the parks? They cannot all walk 
through it. They all do not have that ability. Some people 
should have the opportunity to see it a different way.
    The Grand Canyon, I have heard so many stories of people 
who have flown over it, enjoyed it, could only see it for a few 
moments; people who are physically disabled one way or another 
and have only a few ways that they can see it. Many of our 
foreign visitors who come to see us from other areas, they just 
have a brief time.
    Most of us in this area do not realize what we have here, 
but when people come to see it and they see the Glen Canyon 
area, Grand Canyon, Zion's, Bryce, Canyonland, Arch's, Capital 
Reef, all of it in this one area, they just fall in love with 
this particular area.
    The trouble with our parks is we love them to death, and 
now we have to figure out how to do this in a manner that is 
going to work out. Frankly, the Grand Canyon seems to be the 
one that as we look at and fly over, it seems to be of all of 
our 375 units the one that receives the most attention. Most of 
us do have a love affair with the Grand Canyon area. I have 
hiked both the Bride Angle Trail, the Kiobab Trail. I have 
floated it a number of times. I also flew a Piper Super Cub 
right down the middle of it one day when we could do that. I 
have repented for that.
    [Laughter.]
    Mr. Hansen. And in the 1980's, when we worked on this 
particular piece of legislation with Mo Udall, Mo confessed to 
flying a Cessna 185 down the middle of it, and then John McCain 
flew a Tomcat down it, and one of the Smith boys flew an F-4 
down it. We have all repented from the sins of our youth, and 
maybe it worked out how we could come to bring this thing 
around.
    So today we are very interested as overflights is becoming 
a big issue not just in the Grand Canyon. We were going to have 
with us Patsy Mink from Hawaii, who had a great interest in 
this area as you know. In the Hawaiian Islands, there are a lot 
of overflights. We are seeing them now start going in other 
areas. I see Fred here from Bryce, and of course, he has 
helicopters going over his area, and more and more we are 
seeing more people in the business of fly overs.
    Somewhere we are probably going to have to come up with 
some kind of legislation. I am sure you are familiar with the 
McCain legislation, and out of this particular hearing, we will 
probably be looking at drafting some legislation that we hope 
can somewhere fit a moderate, reasonable position to take care 
of all of the problems. We fully know we always make somebody 
unhappy.
    We are grateful to have with us Barry E. Valentine, Acting 
Deputy Administrator, Federal Aviation Administration, and also 
on the government panel, we have Jacqueline Lowey, Deputy 
Director, National Park Service, and we are grateful for both 
of you.
    Mr. Valentine, we will start with you. I mentioned before 
you came in if you could hold it to around 5 minutes, that is 
fine, but we are not going to turn the lights on for you folks. 
We will for the others, but we will be quite lenient today on 
this one.
    We do not come all the way out to the West and spend the 
time if we are just going to cut you right off. So, Mr. 
Valentine, we will turn the time to you, sir.

 STATEMENT OF BARRY E. VALENTINE, ACTING DEPUTY ADMINISTRATOR, 
                FEDERAL AVIATION ADMINISTRATION

    Mr. Valentine. Thank you, Mr. Chairman, and Chairman 
Duncan, good morning. Members of the Subcommittee, it's a 
pleasure to be here this morning to appear before you to 
discuss the Federal Aviation Administration's commitment to our 
continuing efforts to reduce the impact----
    Mr. Hansen. Before we go any further, can everybody hear 
Mr. Valentine? Are the acoustics all right? If you could pull 
that closer.
    Mr. Valentine. I will bring it a little closer here.
    Mr. Hansen. Thank you very much.
    Mr. Valentine. Yes, thank you.
    [continuing] to discuss the Federal Aviation 
Administration's commitment and continuing efforts to reduce 
the impact of aircraft overflights on our national parks.
    And with your permission, Mr. Chairman, I would like to 
submit my formal testimony for the record and offer an 
abbreviated portion of it here this morning.
    Mr. Hansen. Without objection.
    Mr. Valentine. The administration has spent significant 
time and effort to restore natural quiet to the Grand Canyon 
National Park and to formulate a plan to manage aircraft 
overflights over national parks across the country.
    Our efforts to address overflights date back to 1987 when 
Congress enacted the National Parks Overflight Act. Since that 
time, the National Park Service and the FAA have worked 
together to reduce the impact of overflights on parklands in 
parks as diverse as Haleakala National Park in Hawaii and the 
Statue of Liberty National Monument in New York.
    As you know, Mr. Chairman, our most challenging task to 
date has been the congressional mandate to substantially 
restore natural quiet to the Grand Canyon. Because of the 
diverse and strongly held positions of the various parties with 
an interest in the Grand Canyon, it has been difficult to 
achieve consensus on how to resolve the issues.
    However, in December 1996, the FAA and the Park Service 
published a final rule and two proposed rules that put forth a 
strategy that will reduce the impact of aircraft noise on the 
park environment and assist the National Park Service in 
meeting substantial restoration of natural quiet in the Grand 
Canyon.
    Restoring natural quiet to the Grand Canyon will take the 
commitment and cooperation of everyone concerned. In the near 
term, everyone must seek compromise, and the Administration's 
proposed strategy reflects that compromise. Our strategy 
includes both short-term and long-term actions necessary to 
restore natural quiet while balancing the interests and 
concerns of those with a vested interest in the park.
    In an effort to avoid any further increase in noise levels 
experienced in the Grand Canyon today, the Administration's 
strategy establishes a cap on the number of aircraft operating 
in the Park. The cap is based on the number of aircraft 
operating in the Park from July to December 1996.
    We also established a curfew in the eastern part of the 
park in the Zuni and Dragon corridors, and we established a 5-
year reporting requirement for air tour companies operating 
over the Canyon.
    The curfew achieves immediate benefits in reducing noise 
levels in some of the most scenic and most sensitive parts of 
the Park. The reporting requirement will assist the FAA and the 
Park Service in measuring and monitoring noise levels in Grand 
Canyon and, if necessary, help us to refine our current noise 
standard.
    Other short term actions in our strategy include increasing 
the flight free zones in the Grand Canyon and restructuring air 
routes. Although these short term actions alone will not permit 
the Park Service to accomplish its legislative mandate of 
restoring natural quiet to the Park, they are important first 
steps that will reduce noise levels experienced in the Grand 
Canyon today, and they will lay the groundwork for future 
actions that will result in restoration of natural quiet.
    One way to restore natural quiet and maintain a viable air 
tour industry is to conduct air tour operations using quieter 
aircraft. That is why the Administration has proposed the 
gradual phasing-out of many of the current air tour craft and 
replacing them with more noise efficient designs that 
incorporate quiet aircraft technology.
    If adopted, air tour operators would begin to phaseout 
their noisiest aircraft in the year 2000 and complete the 
phaseout in 2008.
    The proposal also provides incentives for air tour 
operators to invest in quiet technology aircraft. For example, 
special air tour routes could be established where only quiet 
aircraft would be permitted to operate. We believe this part of 
the overall strategy, phasing out the noisy aircraft with the 
proper economic incentives, is a viable solution to both 
restore natural quiet and preserve air tour operations.
    Mr. Chairman, this brings us to our most recent initiatives 
to address air tour operations over parklands nationwide. 
Before discussing the actions of the National Park Overflights 
Working Group, I would like to take a moment to clarify the 
FAA's position concerning airspace jurisdiction.
    Federal law and congressional policy mandate that the 
authority over the airspace reside in one agency, the FAA. The 
National Park Service supports this position. The FAA believes 
that it is essential that this position be maintained.
    In the past, the FAA has consistently opposed any 
legislative proposal that has either directly or indirectly 
diluted the FAA's authority over airspace. I can assure you, 
Mr. Chairman, the agency will continue to do so.
    The FAA's broad authority and responsibility over the 
airspace is acknowledged and accepted by the National Park 
Overflights Working Group and the Working Group's 
recommendations will reflect this position.
    With that said, I would like briefly to bring you up to 
date on the national efforts. Based on our experience in the 
Grand Canyon National Park, we learned the importance of 
bringing all of the interested parties to the table early. 
Therefore, we made sure all interested parties were represented 
on the National Working Group.
    I am pleased to report that the National Working Group has 
reached a general consensus on most issues and has formulated 
recommendations and will meet with the FAA's Aviation 
Rulemaking Advisory Committee, or ARAC, and the National Park 
Service Advisory Board in the near future. The ARAC and NPS 
Advisory Board will then review the Working Group 
recommendations and will report to the FAA and the NPS.
    The partnership approach developed by Secretaries Slater 
and Babbitt is the most promising and rational approach for 
dealing with this issue. We believe that together the National 
Park Service and the Federal Aviation Administration are well 
on the way to achieving a national overflights rule that will 
continue to provide access by air, while maintaining the beauty 
and unique experience that the national parks afford.
    This completes my prepared statement, Mr. Chairman, and I 
would be pleased to answer any questions you or members of the 
Subcommittee may have.
    [The prepared statement of Mr. Valentine may be found at 
end of hearing.]
    Mr. Hansen. Thank you very much.
    Jacqueline Lowey, we will turn the time to you.

 STATEMENT OF JACQUELINE LOWEY, DEPUTY DIRECTOR, NATIONAL PARK 
            SERVICE ACCOMPANIED BY ROBERT ARNBARGER

    Ms. Lowey. Thank you, Mr. Chairman, and thank you for----
    Mr. Hansen. Could you pull that a little closer to you so 
we can pick you up?
    Ms. Lowey. Thank you, Mr. Chairman, and thank you for the 
opportunity to be here and particularly to visit your beautiful 
state.
    I am joined today by several superintendents, as you noted 
earlier: Rob Arnbarger from Grand Canyon; Fred Fargagrin from 
Bryce; Don Falvy from Zion, and Sheraton Steel from Curacante.
    For the last 125 years since the creation of Yellowstone 
National Park in 1872, the Congress and the executive branch 
have worked as partners in setting aside and protecting this 
great nation's natural, cultural, and historic resources. The 
National Park Service was given the mission of conserving these 
resources and of providing for their use by the public by such 
means as will leave them unimpaired for the enjoyment of future 
generations.
    What foresight our nation's leaders had in setting aside 
these spectacular lands. As our population increases and 
suburban areas and urban areas grow, people will continue to 
have the opportunity to experience the sights and the sounds of 
these lands in perpetuity.
    Let me say up front and clearly, as Barry said, the 
National Park Service recognizes the value of air tour 
industry, its contribution to our economy, and the experience 
it offers to many of our visitors. We do not seek to ban air 
tours over all national park system units, as some fear.
    However, the increasing number of air tours of national 
parks pose a real challenge because, on one hand, air tours 
provide visitors a wonderful opportunity to enjoy the parks 
from the air. On the other hand, in some instances, these tours 
can have a substantial negative impact on the ability of other 
park visitors to enjoy their experiences and to have the 
opportunity to experience some of the unique resources and 
values of the park.
    Congress wisely recognized this when it passed the National 
Parks Overflights Act in 1987 and directed the National Park 
Service to achieve a substantial restoration of natural quiet 
at Grand Canyon National Park.
    Air tour operations have provoked serious concerns around 
other parks, such as Great Smoky Mountains, Haleakala, Glacier, 
Canyonlands, Zion, Bryce, Rocky Mountain and others.
    Both by law and by Presidential direction, the National 
Park Service is directed to preserve natural quiet in certain 
units of the national park system. Natural quiet, the natural 
ambient sound conditions in parks, including the sounds of 
birds, rivers, and nature without intrusion of mechanical noise 
has been explicitly recognized as a value the National Park 
Service should protect.
    The Federal Aviation Administration, which has sole 
authority over the regulation of our nation's airspace, is a 
vital partner in carrying out that direction. The National Park 
Service has the authority and the responsibility to assess the 
impact of overflights on park resources and visitor experience, 
but the FAA must determine the efficacy and safety of all 
airspace management proposals.
    Both agencies must and do work diligently together to 
address the management of air tours over national parks, the 
quality of service provided to park visitors, and the impact 
these tours may have on park resources and other visitors, and, 
Mr. Chairman, as someone who has worked for both the Department 
of Transportation as the Deputy Chief of Staff there and then 
most recently as the Deputy at National Park Service, I have 
been on both sides of the table as we have had discussions 
about this issue, and I can assure you that both agencies are 
committed to finding a common sense approach to this effort.
    The 1994 National Park Service report to Congress on 
overflights made a number of pertinent recommendations.
    The FAA should develop an operational rule triggered by 
National Park Service to regulate air tour operations where 
they have or may have adverse effects on national parks.
    FAA should implement a rule which would provide for the 
protection of natural quiet in national parks, allowing 
regulated air tour operations in most, prohibiting them where 
the size or configuration of the park or the sensitivity of the 
park's resources require it, and that all reasonable tools and 
methods should be used in establishing appropriate airspace 
noise management controls for each park which has tours.
    Even before the 1994 report was completed, then Secretary 
of Transportation Pena and Secretary of Interior Bruce Babbitt 
agreed to form an interagency working group to explore ways to 
limit or reduce the impact of overflights in national parks. I 
was Secretary Pena's representative to that working group. 
Barry and I worked quite closely together at that time.
    President Clinton in 1996, in his Parks for Tomorrow 
initiative, directed the Secretary of Transportation to 
continue development of rules that address the national park 
overflights issue. The President, like you, recognized the need 
for a comprehensive national policy on this issue.
    I will not go into detail about the National Parks 
Overflights Working Group, which Barry has previously 
discussed, but in short, let me say that all interests are 
represented on that working group. There are members of the 
aviation community, from the environmental community. We have 
had active participation from both agencies, and the task has 
really been to come up with a process, and we are delighted by 
all reports that suggest this has been a very cooperative 
effort and informed that there is a consensus recommendation 
that will be forwarded both to the FAA and to the National Park 
Service in the near future, and we will use that recommendation 
as the basis of a further rulemaking to address this issue 
nationally.
    That concludes my prepared remarks. My full statement I 
would like to submit for the record.
    [The prepared statement of Ms. Lowey may be found at end of 
hearing.]
    Mr. Hansen. The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Valentine, how many flights are there over the Grand 
Canyon each day at this time?
    Mr. Valentine. It varies seasonally, with the highest 
number happening during the summer, the high tourist months, 
and tapering off to pretty low numbers during the winter. I do 
not know what the numbers are at this time. It is in the, you 
know, dozens.
    Mr. Duncan. Is the information that I have been provided 
correct that there are far more overflights over the Grand 
Canyon than any other unit of the national park system?
    Mr. Valentine. I believe that is correct, although there 
are quite a few more in Hawaii as well.
    Mr. Duncan. Of the 356 units in the national park system, 
do you know how many have overflights or in which there has 
been some sort of complaint or problem expressed? Do either of 
you know that?
    Mr. Valentine. The material I have indicated that there 
are, depending on how you interpret an overflight or a 
sightseeing tour, that there are probably upwards of 60 parks 
that have some kind of overflight activity.
    Mr. Duncan. Now, over the Grand Canyon, you have already 
established some flight free zones that cover what, about half 
of the Grand Canyon?
    Mr. Valentine. Prior to the NPR, about 45 percent of the 
Canyon was a flight-free zone. In the rule as proposed, part of 
which as you know has been put on hold temporarily, we would 
increase that up to 80-some odd percent of the Park.
    Mr. Duncan. Well, you know, a year ago the National 
Transportation Safety Board expressed a concern about air 
safety if you further restrict the zones of flight. Are you 
concerned about that, or do you feel that is a valid concern 
that they expressed when they did so about putting further 
limitations or restrictions on the areas in which planes could 
fly?
    Mr. Valentine. That is clearly a circumstance that we are 
very much aware of. Obviously if you reduce the airspace 
available and continue the same number of flights, you have got 
what we call compression of activity, and so we are very 
cognizant of the need to make sure that in the redesigned 
airspace adequate safety margins are maintained. So that has 
been designed into the program.
    Mr. Duncan. I want to let the other ask some questions, so 
I do not want to get too much, but in your testimony you have 
studied about a phaseout of noise of aircraft by the year 2008 
and giving incentives to tour operators to do that. What types 
of incentives are you talking about? Do you have any idea about 
what kind of figures or how expensive this might be? Are you 
talking about financial incentives?
    Mr. Valentine. The kinds of incentives we are talking about 
are those such as allowing the quieter technology aircraft not 
to be affected by the curfew, to be able to operate at times 
when other aircraft may not, and to offer those aircraft 
preferential routes. So those are the two principal incentives.
    Mr. Duncan. I see.
    Mr. Valentine. We have revised our cost figures somewhat 
because of a revision of the number of aircraft we have 
subsequently found that actually operate at one time or another 
over the Grand Canyon. Originally we thought it was somewhere 
in the neighborhood of about 150, in round numbers. Now it is 
more like 260. So that raises the cost of compliance, also 
reduces the benefit figure, but depending upon the rate of 
phaseout, the cost is going to be substantial because the 
aircraft that will be converted are more expensive than those 
that are being operated.
    Mr. Duncan. Ms. Lowey, how much is being raised in 
overflight fees from the tour operators at this time at the 
Grand Canyon? Do you know?
    Ms. Lowey. I do not have that number. As you may know, some 
of the operators have contested paying that fee. Perhaps we 
could submit for the record.
    Rob, would you like to add to that?
    Mr. Arnbarger. Approximately $1.7 million.
    Mr. Duncan. One, point, seven million.
    Did you pick that up?
    Would you identify yourself and give your answer again, if 
you would, please?
    Mr. Arnbarger. My name is Robert Arnbarger, Superintendent 
of the Grand Canyon.
    Mr. Duncan. Come up and grab a mike if you would, please. 
We would appreciate it.
    One, point, seven million, and how is that money being 
spent?
    Mr. Arnbarger. Presently that money under the fee 
demonstration Act or proposal to Congress is just starting this 
year being returned to the park, and we will, in fact, be using 
that portion of that money returned to the park for, in fact, 
the management of aircraft, management programs, resource 
programs, monitoring programs, and such. It is approximately 
$1.7 million that is raised annually. Before this year, that 
money was being returned straight to the Treasury.
    As Jackie said, there are four operators that have refused 
payment. Those cases are before the U.S. District Court at this 
time.
    Mr. Duncan. My time is up, but just let me ask one last 
question.
    Chairman Hansen mentioned about 25 complaints in 1995 and 
56 complaints or something in 1996. Are the complaints up, 
down, running about the same this year?
    Mr. Arnbarger. Since November 1996, and I was asked this 
question in a hearing last fall, to this point in time we have 
had 70 complaints and two letters in favor.
    Mr. Duncan. And that is roughly five million visitors a 
year; is that correct?
    Mr. Arnbarger. Roughly 4.9, 4.8, round it off to five.
    Mr. Duncan. It almost looks some somebody could stir up 
more complaints than that.
    Ms. Lowey, do you have any disagreement with Administrator 
Valentine when he says that even the Park Service agrees that 
the FAA should control this airspace? Is there any dispute 
about that?
    Ms. Lowey. No, absolutely not. The position of the Park 
Service has always been that there is one agency with 
jurisdiction over the airspace, and that is the FAA.
    Mr. Duncan. All right. Thank you very much.
    Mr. Hansen. The gentleman from Nevada, Mr. Ensign.
    Mr. Ensign. Thank you, Mr. Chairman.
    I have a couple of questions, first of all, on the proposed 
air tour routes coming from Nevada versus the ones coming from 
Arizona. First of all, when you have done the studies, which 
aircraft are noisier? I guess it is kind of an obvious 
question, but the helicopters or the airplanes? Either one of 
you can answer. I guess the FAA would be more appropriate to 
answer it.
    Mr. Valentine. Generally, depending on the type of aircraft 
or the type of helicopter, you can get it going both ways. The 
helicopters tend to operate the shorter routes, and the 
airplanes the longer routes through the canyon. So depending on 
what you are talking about, if you're talking about full 
exposure----
    Mr. Ensign. Let me ask the Director in the Grand Canyon. 
When you are there, I mean, is it more intrusive, the 
helicopters or the airplanes, or are they the same?
    Mr. Arnbarger. You cannot get a simple and easy answer with 
this because it involves everything from flight duration, speed 
of the aircraft, prop pitch, and so forth. So it would be not 
wise to make a gross generalization that one is louder than the 
other. Each type of aircraft has its own signature.
    Mr. Ensign. OK. The 70 complaints that you have had this 
year, 25 last year, and 50 in 1996, what part of the park are 
those complaints generally coming from? Are they coming from 
specific parts of the park?
    Mr. Arnbarger. Well, right now the tours are confined to 
established corridors.
    Mr. Ensign. No, no, no. The complaints.
    Mr. Arnbarger. That is what I am getting ready to answer.
    So those tours are confined to established corridors.
    Mr. Ensign. Right. No, no, the question I am asking is most 
of the Arizona tours, are they helicopter tours that go to 
certain parts?
    Mr. Arnbarger. Oh, I am sorry. I cannot answer that 
question as to what segment, whether it is Las Vegas tours----
    Mr. Ensign. Do you think that is important to establish? In 
other words, because from what I understand in the new 
rulemaking, the Arizona flights, the helicopter flights are not 
that affected, where the flights coming from Clark County are 
affected, and if the complaints or the air noise complaints are 
coming from the helicopter tours, I mean, isn't it important to 
know where those are coming from before you establish rules?
    Mr. Arnbarger. It is important in the sense of trying to 
distinguish where the predominant number of complaints are 
coming from. They seem to be coming from the most heavily used 
back country areas of the park, which is near Zuni corridor, 
which is near the Dragon corridor. Those are the most heavily 
used areas.
    However, we also receive complaints from the Sanup area, 
which is further to the west. It involves the Las Vegas fares.
    Mr. Ensign. But you are telling me that you are 
establishing rules not knowing where the complaints 
statistically are coming from. You have not established that.
    Mr. Arnbarger. No, I am not telling you that. I am telling 
you that I do not have that information with me right now.
    Mr. Ensign. OK, but you can get that for me?
    Mr. Arnbarger. And I will submit that for the record.
    Mr. Ensign. I guess let me ask you this, and, Jacqueline, 
maybe you can answer this because you have been involved with 
this from both sides of the table. Was that looked at, where 
the complaints were coming from to determine where on a 
statistical basis--in other words, if there was one complaint 5 
years ago in this one area, well, maybe we did not need to ban 
that one area.
    Ms. Lowey. I have two answers for that. One, with respect 
to the current proposed routes, as you know, we are in the 
middle of an ongoing rulemaking on that. So I am going to limit 
my response on that.
    I think that we certainly factored in, and Rob can address 
this more directly and will submit for the record, both where 
complaints were coming from, but in addition to the complaints, 
the park also set up monitoring systems throughout the park to 
assess the overall impact of noise on different parts of the 
park.
    Mr. Ensign. OK. Based on that monitoring, OK, can you tell 
me is there more noise from the helicopter regions or is there 
more noise, based on an objective monitoring station?
    Ms. Lowey. Again, I think that there is not that clear a 
distinction, and we would be happy to submit the information on 
our monitoring results and on the complaints for the record.
    Mr. Ensign. So it is basically the same is what you are 
saying?
    Mr. Arnbarger. Many, if not all, of these routes are 
traveled by helicopter and by fixed wing tour as well, and in 
fact, the audio instrument does not distinguish between 
helicopter sound or aircraft sound. It says sound.
    In the Dragon corridor, that one corridor alone, there are 
times there where there is a flight through that corridor once 
every 90 seconds. The amount of time it takes for the sound to 
diminish is 4 minutes. Now, if you figure that out, it means 
there is a continuous thread of sound at all times through that 
corridor by both helicopter and fixed wing.
    Mr. Ensign. I just thought it was kind of important, I 
mean, if one is causing more and you are trying to get to 
quieter technology and those types of things.
    Mr. Chairman, if you would just indulge me with one or two 
more questions because I think that a couple of these things 
are important.
    You mentioned the incentives. Basically you close down 
parts of the park, and then an air tour operator has an 
incentive. Well, OK, if I do not want my business to be 
destroyed, then I change over the technology and I go to this 
new lower noise technology so I can go back to the places of 
the park that I used to go to.
    Have you figured out how long it would take an air tour 
operator to pay, to amortize out, you know, basically to get 
that business back because of the amount of money it costs to 
change over? Have you done any statistical analysis on that?
    Mr. Valentine. Yes, we have done some economic analysis on 
the impact, for example, of holding the road as opposed to 
allowing what we would expect the rate of growth to be, and we 
have done some analyses on reductions of growth, and we have 
looked at what kind of costs might be incurred over time to 
replace current aircraft with quiet technology aircraft. We can 
provide you with that information.
    But in terms of doing an analysis of what an individual 
business would experience in going from, say, a current level 
to a reduced level back up to an increased level with the 
technology, I do not believe we have done that kind of 
analysis.
    Mr. Ensign. So you cannot tell us whether or not you think 
that an air tour operator would be able to switch over to this 
technology.
    Mr. Valentine. If I understand you, one of the reasons for 
having at the time that this goes into effect a 10-year 
phaseout was to try to allow sufficient time for people to make 
that transition.
    Mr. Ensign. Right.
    Mr. Valentine. There is the desire to have it happen a lot 
more quickly, but it was argued it should at least be extended 
long enough to be----
    Mr. Ensign. Right, but don't you kind of have to know 
whether it is possible to do? In other words, 10 years is an 
arbitrary number. Shouldn't there be some relatively objective 
studies to say technology costs X. You have got so many 
airplanes. It is going to cost, and say I have 100 airplanes; 
it is going to cost me, you know, so much to get my business 
back. I have got to be able to make so much.
    I mean there has to be some economic studies. Otherwise you 
could be shutting down air tour operators without you even 
knowing it if you do not have those numbers; is that not 
correct?
    Mr. Valentine. There is that potential. That is correct, 
sir.
    Mr. Ensign. And you have stated and, Jacqueline, you have 
stated that you recognize the value of air tour operators. OK? 
And would you--I am just trying to say should we not have the 
information before we just, you know, willy nilly go about 
this?
    You have said that you guys have studied this, and yet it 
does not sound like that you have studied this.
    Ms. Lowey. If I may, Congressman, with respect to the 
phaseout, we are at the preliminary phases in the rulemaking on 
that, and as part of moving forward on that rulemaking----
    Mr. Ensign. Yeah, but wasn't this rulemaking already 
supposed to have taken effect if it wasn't for some of the 
court battles? Some of this stuff already would have been in 
effect, and yet you do not have these studies.
    What I am saying is: were these things taken into account 
ahead of time? Shouldn't you already know this stuff since this 
rulemaking already, if it was not for some of the court battles 
going on, this stuff would have already taken effect? You could 
have already been shutting down a lot of these tour operators, 
having a major economic impact on my district, on a lot of 
these people, a lot of these jobs, for 25 to 70 complaints a 
year out of five million.
    Ms. Lowey. I restate what we said earlier, which is that we 
recognize that the value of the air tour industry, and as we 
move forward in the process we will continue to work to come up 
with a balanced situation, which will provide for the 
congressionally mandated restoration of natural quiet and also 
provide an opportunity for people to experience the Grand 
Canyon by air.
    Mr. Ensign. Well, I would hope, and I will conclude with 
this, Mr. Chairman, I would hope that the balance--and that 
word ``balance'' is used--and that all, you know, reasonable, 
not just what one person thinks, but that you do some 
statistical analysis of what the economic impacts are going to 
be versus the benefit, you know, the cost-benefit analysis.
    If there are 25 complaints or, you know, 70 complaints a 
year, how many complaints are acceptable? That should be 
defined. You know, we have 70. Do we want to get it down to one 
complaint a year, two complaints a year? What is acceptable?
    Because you have talked about that there are going to be 
further things in the future to do. Well, how are you going to 
measure? You should have defined measures. What is acceptable 
in the future to be able to put some of this, you know, further 
restriction on because you have already talked about today that 
you want to do things in the future to get it even to more 
natural quiet? How are we going to determine whether or not 
what we have done today, like what we did in 1987--we did not 
have--OK. I think a lot of people would have said what we have 
today is pretty darn good compared to what it was in 1987, and 
yet that does not seem to be good enough.
    And so we should have goals we are going to try to reach if 
you are going to put these rules into place.
    Thank you, Mr. Chairman.
    Mr. Valentine. Mr. Chairman, if I might say one thing, when 
we put out the NPRM and the rule at the end of 1996, there were 
parts of it that were to go into effect immediately and there 
were parts that went out as notice of request for comments and 
the phaseout and phase-in of new technology was one of those 
that went out for comments and one of those requests for 
comments from industry was to tell us about the financial 
impact on them in order to develop that.
    So that is not yet part of the program that has gone into 
effect. We are still gathering information.
    Mr. Ensign. No, but the--excuse me. The closing down the 
free fly zones.
    Mr. Valentine. That part----
    Mr. Ensign. That would have already taken place.
    Mr. Valentine. That would have. The changing in the routes, 
the changing in the size of----
    Mr. Ensign. So you have to know that to know what the 
economic incentive of opening those sites back up to the newer 
technologies would be. Do you see what I am saying?
    In other words, you have already put the major negative 
economic part of it into place.
    Mr. Valentine. That is correct. I follow what you are 
saying.
    Mr. Ensign. OK.
    Mr. Hansen. It is always interesting. When we get into 
these things, we start playing the definition game. A complaint 
is a complaint possibly, but both of the gentlemen have alluded 
to complaints, and you have responded to them.
    Let me just say it is very easy. We notice this all the 
time. If someone says or an environmental group, a business 
group, whoever it may be, will say, ``Get on the Web page and 
send this thing out on E-mail, and everybody do a complaint on 
something that we do not like the slimy slug in the Grand 
Canyon or something like that,'' and so everybody sends it in.
    Well, it has almost become meaningless at that point. So 
you say, well, we got 70 complaints. I can gin up 1,000 
complaints for you in a minute just by putting it on a Web 
page. So the effectiveness of these complaint things, sometimes 
it gets mitigated by what is behind it.
    You know, in the old days someone would legitimately sit 
down and write a letter. ``I do not like this. It ruined my 
trip going down the Bride Angel trail.'' Now it is just kind of 
a game we play, and we do not put as much stock in it.
    The paper will say let's do a poll, and immediately we have 
our guys pull it up, and everyone will say, ``Write in and 
quickly get this done.'' So it does not mean much.
    The thing that bothers me just a tad on this thing is 
natural quiet. Years ago when John Symington chaired the 
Committee that I now chair, Public Lands and National Parks, 
John wanted to put buffer zones around all of our parks, and 
the criteria was adjacent to and detrimental to. However, no 
one defined adjacent to.
    So John and I went up to Bryce Canyon, and we were standing 
at that south peak up there, and John says, ``As far as I could 
see,'' and it was almost Las Vegas, ``was adjacent to.'' Under 
that law everybody would come under the direction of the Park 
Service if any of the little towns wanted to put a road in or 
fix their sewer system, and so we could not figure it out. It 
is not in black stone. No one explains it. There is no legal 
definition.
    The next one was detrimental to, and he said it was 
detrimental to if somebody was driving cows on BLM and there 
was a plume of dust. It was detrimental to. Another person 
would think you have to dig a channel, you know, like the Grand 
Canyon to make it detrimental to.
    So now with that said, give me your definition of natural 
quiet.
    Ms. Lowey. Mr. Chairman, our definition of natural quiet is 
the natural ambient sounds of the park without intrusion of 
mechanical noises. That is the definition of natural quiet.
    Mr. Hansen. Did you put the term ``mechanical noise''?
    Ms. Lowey. Yes.
    Mr. Hansen. So a horse walking down the trail would not 
fall in that category, but if you hear anything mechanical that 
would do it.
    Ms. Lowey. The definition of natural quiet is one thing. 
There are different measures of what can disturb natural quiet. 
It would be the sounds associated, the natural sounds 
associated with the park.
    Mr. Hansen. Well, according to my able assistant here, the 
National Park Service to the Grand Canyon has defined natural 
quiet as 50 percent of the park quiet for 75 percent of the 
time. Is that how you have done it?
    Mr. Arnbarger. You asked for one question, which was the 
definition of natural quiet. The definition of natural quiet is 
those natural sounds in the natural environment absent the 
sounds of the intrusion of man.
    Mr. Hansen. But you would not have the park 100 percent of 
the time naturally quiet.
    Mr. Arnbarger. Our goal with regards to the restoration of 
natural quiet at Grand Canyon, the goal is over 50 percent of 
the park to be quiet, naturally quiet, restored to natural 
quiet for 75 percent or more of the day.
    Mr. Hansen. Do you feel that is a realistic goal?
    Mr. Arnbarger. Yes, sir, I do.
    Mr. Hansen. Do you think you can achieve it?
    Mr. Arnbarger. It is going to be difficult, and it is going 
to require the hard work of the FAA and the Park Service and 
all of the interests involved to get there.
    Mr. Hansen. Years ago in the early 1980's, we got involved 
in an issue of motors on the river of the Grand Canyon and 
other areas. Mercury in Wisconsin did an exhaustive study. I 
pawed through it and it took me hours to read it, on what they 
could do and how much a Mercury motor, 25 horsepower, and 
Johnson and Evinrude would create, and it was infinitesimal, 
but the cost was really substantial to get it to that point.
    Now, I am not really a great aviator. I am a private pilot, 
and I have spent time as a flight engineer in the Navy and gone 
through all of the Navy schools. I would like to know from the 
FAA how do you quiet these babies down. What do you do?
    Now, I have talked to Continental. I have talked to 
Lycoming. I have talked to Garret. I have talked to Pratt-
Whitney. I have talked to GE, and I have talked to Sam 
Williams. They have all got their ideas. They are the ones who 
make it.
    What are your ideas?
    Mr. Valentine. There are a number of ways to reduce the 
sounds in aircraft, and I think we have all seen in the last 
decade or two exactly that at our airports with the 
introduction of Stage 2 or 3 aircraft, and Stage 1 with changes 
in engine design and changes in the aerodynamic design of 
airplanes as well.
    There are some what we call quiet technology aircraft 
operating in the Canyon today. Compared to others, they have 
essentially different propellers on them, and that is where the 
noise comes from. In most reciprocating engine aircraft, it is 
the propeller. It is not actually the engine making the noise. 
So those things that can be done to quiet propellers are the 
ones that achieve the greatest benefit.
    Reduced power settings is another way of doing so. There is 
also technology used in helicopters. One of the operators in 
the Grand Canyon is, in fact, a large customer for one of the 
no-tail rotor helicopters which are considerably quieter than 
helicopters with tail rotors, and we will see over time the 
introduction of more no tail rotors into the environment as 
well.
    So there are a number of technologies available today that, 
if introduced, would significantly reduce noise, and, Mr. 
Chairman, I would suggest that quieter aircraft represent the 
real key to reducing noise in the Canyon, just as they 
represented the real key to reducing noise at our airports. All 
of the other things that we do can reduce it somewhat, but that 
gives the greatest benefit.
    Mr. Hansen. I agree with that, and many of the airports are 
doing everything they can. For example, the 757s are a lot 
quieter than the 727s.
    Mr. Valentine. They certainly are.
    Mr. Hansen. How did they do that and still have that 
tremendous power they have? It is probably the most powerful 
aircraft there is in the commercial fleet.
    On the other side of the coin, it is extremely costly for 
United Technologies to pull that off, and it is great that they 
are doing it, but the technology does not happen like that. It 
is like building the B-2 bomber. When they started on that, 
there were 12 things that had not even been invented that 
Northrup had to think of to invent it before it would even fly.
    So this takes a little while, and we just cannot say, ``All 
right. Now we will have a better technology.'' It is expensive 
to own, and it takes a long time. For a lot of our air tour 
people, you know, it is a lot of money to switch these things 
over and to buy new aircraft. I hope that is all taken into 
consideration and we at least have some common sense in some of 
the approaches that we make to these things.
    Jacqueline, let me ask you a question that has always 
bothered me. According to NEPA, all agencies must include in 
every report on proposals for Federal legislation an 
environmental impact statement, which is the 1969 NEPA law. 
Everybody but the President of the United States when it comes 
to creating the moment has to. He circumvented that, which we 
will not get into today.
    [Laughter.]
    Mr. Hansen. Which does not matter.
    Anyway, Public Law 100-91 specifically states that a report 
shall be submitted to Congress for possible legislative action. 
In 1994, the Park Service, even though 4 years later, submitted 
a report, but it did not have an EIS with it. How come?
    In other words, you are in violation of the law if you did 
not put that EIS in. We are not going to hang you over this, 
but we would sure like to know why the Park Service felt that 
they could circumvent the law when they do not let anybody else 
circumvent the law.
    Ms. Lowey. Mr. Chairman, I am unaware of the specifics on 
the promulgation of that report in terms of the environmental 
impact statement that came along with it. I know that Congress 
did require us to submit the report, and I would be happy to 
submit for the record any other documentation on it.
    Mr. Hansen. Well, I know the Director is new and starting 
and a great guy, and we wish him very well and hope everything 
works, but you take that message back for us that we would like 
to know why that was not done correctly.
    Ms. Lowey. I think, Mr. Chairman, all reports of agencies 
are not generally subject to a full environmental impact 
statement.
    Mr. Hansen. That is true, but this one is, and we have 
looked at that in some detail.
    The gentleman from Tennessee, do you have more questions 
from this group?
    Mr. Duncan. Yes, just a couple more questions.
    Administrator Valentine, a later witness says that in 1987 
there were 40,000 air operations and today that has more than 
doubled. Is that accurate?
    Mr. Valentine. Yes, sir, that is. As we understand it, it 
has doubled over that period of time.
    Mr. Duncan. Is there any question of safety in your mind? 
Are we nearing some sort of limit, you know, a maximum limit 
for safety, or can this double again in the next 10 years and 
not cause you any concern?
    Mr. Valentine. I think that if the volume of traffic in the 
current driving structure doubled over the next 10 years, that 
would probably--and I am saying probably without doing an 
analysis--produce concern about whether or not the route 
structure can accommodate safely that many aircraft operations, 
yes.
    Mr. Duncan. But you do not have that concern at this point?
    Mr. Valentine. Do not have that concern at this point, and 
we would not allow, and once again I want to stress this; we 
would not allow the level of operations in the Canyon to reach 
a point where they would compromise safety.
    Mr. Duncan. Ms. Lowey, let me ask you this. You know, the 
wilderness areas were created as less accessible areas that 
would not be broken up by roads and where the hardier 
backpackers and so forth could go, and they would be much 
quieter areas, and some people feel today that there are people 
who want to basically try to turn our national parks into 
wilderness areas rather than national parks.
    Do you see a difference? In your mind is there and should 
there be a difference between the national parks and the 
wilderness areas, or is it really the goal of the Park Service 
now to basically turn the national parks more into wilderness 
type areas?
    Ms. Lowey. Let me first say, Congressman, that there are 
many wilderness areas inside national parks, both existing and 
proposed wilderness areas.
    Mr. Duncan. Right.
    Ms. Lowey. The National Park Service Organic Act clearly 
provides for the accommodation of visitors and for the 
enjoyment of visitors, but it is by such manner and in such 
means as to leave resources unimpaired, and managers throughout 
the park system----
    Mr. Duncan. I know there is some overlapping, but what I am 
getting at is: is it a goal of the National Park Service to 
make the national park system more of a wilderness system?
    Ms. Lowey. Sir, not the entire system. As you know, units 
of the system are in urban areas that certainly are not 
qualified as wilderness areas. We have historic sites that are 
not wilderness areas, but there are, in fact, wilderness areas 
that are both existing and proposed within the National Park 
Service, and we do treat those as wilderness areas.
    Mr. Duncan. Well, like the main units of the national park 
system, like the Great Smoky Mountains National Park and 
Yosemite and Yellowstone and all of the other, let's say, 
sections or areas that have been or parks that have been 
referred to as the crown jewels, so to speak.
    Is it the goal of the Park Service to reduce vehicular 
traffic and reduce overflights?
    Now, it is correct that the Grand Canyon has far more than 
any other park as far as the overflights go; is that correct?
    Ms. Lowey. I believe so, yes.
    Mr. Duncan. Is there any other park--I mean this is a 
hearing primarily about the Grand Canyon, but it is supposed to 
cover really all of the parks--is there any other park that 
even has half as many flight operations that you know of?
    Ms. Lowey. I do not know if anyone else knows numerically 
if anything has anything close to that, but that, I think, sir, 
is one of the real important features of the national rule that 
we would like to write based on the recommendations of the 
working group because what we will be able to do is look at all 
of the different factors with respect to the number of aircraft 
over different national parks and come up with one----
    Mr. Duncan. Let me ask you one question in that regard. I 
have been told that the working group has reached agreement on 
almost all major issues, with the exception of the altitude for 
the flights, 3,000, 5,000, whatever. Is that accurate, and are 
you near agreement on that?
    Ms. Lowey. The Park Service has not yet officially received 
the transmission of the working group's recommendation. I think 
the issue that you are referring to is what do you define as an 
air tour, and there was a lot of discussion back and forth as 
to what the definition was, and altitude is one of those, and 
we have not yet had the working group transmit the report to 
us.
    Mr. Duncan. All right. Thank you.
    Mr. Hansen. The notion of why there is a great number of 
overflights in the park.
    The gentleman from Nevada, further questions for this 
panel?
    Mr. Ensign. Yes, Mr. Chairman.
    I want to get back because I just think that this is such a 
critical, fundamental point that we address. How many 
complaints are acceptable per year?
    Ms. Lowey. Are you directing that question at me?
    Mr. Ensign. Either one.
    Ms. Lowey. I think that the Park Service consistently 
strives to have as few complaints as possible, but we do not 
manage resource exclusively on the basis of the number of 
complaints that we received.
    Mr. Ensign. OK. Mr. Chairman touched on this a little bit 
in what he was talking about surveys versus complaints, because 
complaints can easily be generated. If there is a particular 
interest group out there that wants to generate some 
complaints, they can easily do that, and 70 would be absolutely 
no problem even for a small group to do.
    Has the National Park Service done surveys, scientific 
surveys?
    Ms. Lowey. Yes.
    Mr. Ensign. And since, say, 1987, in the last 10 years, I 
guess what are those surveys showing? Have you done surveys 
over the last 10 years, and maybe which years have you done 
those?
    Ms. Lowey. I would be happy to submit for the record 
specifics on the surveys.
    Mr. Ensign. OK.
    Ms. Lowey. But if I could just summarize for you, we have 
surveyed on natural quiet and of the importance of quiet and 
solitude to our visitors and their park experience, and it is 
something on the order of 80 or 90 percent of the respondents 
to those surveys that have indicated that that is an important 
part of their park experience.
    Mr. Ensign. And of those surveys, what percentage of the 
people put down that they feel they had a very positive 
experience at the Grand Canyon?
    Mr. Arnbarger. The surveys were done in different locations 
within the park. The survey done on the south rim in a 
congested area, developed area on the overlook area where, in 
fact, no flights were occurring, 92 percent of the people at 
that location said that they did not have trouble with 
overflights.
    The other places were we surveyed were on back country 
trails and in the river corridor where there was people using 
those resources. Thirty-six percent of those people and 37 
percent of those people, respectively, indicated they had a 
real problem with overflights, and in fact, they also indicated 
that if they heard an overflight as little as 10 percent of 
their trip that, in fact, it destroyed their trip.
    Those are the survey results from the spectrum of locations 
that we surveyed.
    Mr. Ensign. OK, and of those, getting back, what locations 
were those? The back country ones, were those the Arizona or 
were those the Nevada tour operators?
    Mr. Arnbarger. Those were taken from a variety of back 
country trail locations.
    Mr. Ensign. OK. Do you have those broken down?
    Mr. Arnbarger. In that survey, yes, sir, I do. I do not 
have the exactly location of----
    Mr. Ensign. Do you remember was there a significant 
difference between the two?
    Mr. Arnbarger. I do not recall right now at this time.
    Mr. Ensign. You do not recall. The reason I am asking this 
is because everything that I have read, there is a big 
difference. As a matter of fact, the Arizona tour operators, 
you know, have the prettiest parts of the park, and their 
flights are not being nearly as affected as the ones coming 
from Nevada under the proposed free fly zones, and the reason I 
am asking that is, first of all, do you know why that that has 
not been an issue, why the tours coming out of the Arizona are 
not being affected as far as the free fly zones or as affected 
as the ones coming from Clark County?
    Mr. Arnbarger. I live with those tour operators, and I 
think there would be a collection of those people that would 
probably disagree with you about the relative effects.
    Mr. Ensign. OK.
    Mr. Arnbarger. Because I have a lot of contact with them, 
and I would say they may have----
    Mr. Ensign. Well, won't they have the same--they will 
basically still have the same areas that they will be able to 
fly over?
    Mr. Arnbarger. That is not necessarily true. That is 
dependent upon the work that the FAA and the Park Service is 
involved in right now.
    Mr. Ensign. No, under the current, under the ones that were 
proposed last year, wasn't that true?
    Mr. Arnbarger. The key component of that work that is not 
done is, in fact, the laying out of the routes, the specific 
routes, and it is in that particular area that, in fact, it 
could have wide ranging effects on all air tour operators.
    Mr. Ensign. OK, and just real quickly on this number in 
those surveys, what kind of numbers did you do and were they 
random? Were they scientific?
    Mr. Arnbarger. Yes, sir.
    Mr. Ensign. OK.
    Mr. Arnbarger. It was a research study that was conducted. 
It was not done by unqualified people.
    Mr. Ensign. And do you know who did that, who was hired to 
do that?
    Mr. Arnbarger. I do not have that. I can provide that for 
the record.
    Mr. Ensign. I would appreciate that.
    Mr. Arnbarger. That entire study and the results of that 
study are presented in the report to Congress, as well as----
    Mr. Ensign. There was just one study done then?
    Mr. Arnbarger. At least one that I know of, if not more.
    Mr. Ensign. OK. Do you know how long ago that study was 
done?
    Mr. Arnbarger. I do not have the exactly date. I believe it 
was 1990, 1991.
    Mr. Ensign. OK. So we do not have like studies and then to 
see whether over time things have gotten better, things have 
gotten worse, things are dramatically better, dramatically----
    Mr. Arnbarger. That study was done for the report for 
meeting the requirements of Congress in the report to Congress.
    Mr. Ensign. OK. So we do not have those over time then is 
what you are saying; is that correct?
    Mr. Arnbarger. That is correct.
    Mr. Ensign. OK. Thank you, Mr. Chairman.
    Mr. Hansen. Mr. Valentine, we talked about jurisdiction. 
Both you and Jacqueline have alluded to the idea of the meeting 
of the minds, that you feel comfortable with it and the Park 
Service feels comfortable with the meeting of the minds on 
jurisdiction; is that right?
    Mr. Valentine. That is correct, sir.
    Mr. Hansen. Who did it? Was this done by politicians or was 
this done by specific people, scientist type, pilots? Who put 
the final stamp of approval on this?
    I sometimes worry that we get out of our realm, and I speak 
of Members of Congress, some people in political appointed 
positions, and I think the Pentagon is the classic example of 
that. As one of the senior members of the Armed Services 
Committee, I say that very respectfully to anybody who wants to 
argue that.
    Who did this? Who did the study?
    Now, I have great respect for park superintendents. Some of 
the finest Americans I know right here in this area are park 
superintendents, but I do not want them to fly the space 
shuttle, and I do not know if I think they should have too much 
jurisdiction over some of these other things. They are very 
good at what they do.
    And what bothers me is this working group. Here is what it 
says here. ``The working group recognizes several parks, for 
example, Grand Canyon and Rocky Mountain, are subject to 
specific legislation, agency administration action, or legal 
controversy.''
    So these two are kind of excluded from this working group.
    ``This rule is not intended to affect these ongoing 
processes in any way.'' So they have an ongoing process in 
these two.
    ``The working group believes, however, that this rule could 
and should apply in the event that the current rules are no 
longer in effect.''
    The next sentence turns around and says the park 
superintendent, the gentleman who has the responsibility, 
``shall be responsible for determining the nature and extent of 
impacts on natural and cultural resources and visitor 
experience opportunities.''
    So we put a lot of responsibility on that gentleman. So he 
is the man that is the final arbitrator; is that correct?
    Mr. Valentine. He is the one who is the final arbitrator to 
determine what impacts are being felt by a particular park 
unit, yes, sir.
    Mr. Hansen. But what is the yardstick? What is the criteria 
and the parameters that we give a superintendent? Do we just 
say, ``Look. You just do what you want to do''? Maybe you are 
inclined to say nothing flies over and the next guy says it all 
flies over. It cannot go that way. Someone has got to have some 
yardstick to do this obviously. We're just not going to leave 
it up to somebody to pick it out of the air, are we?
    Jacqueline.
    Ms. Lowey. If I might, Mr. Chairman, it is, in fact, the 
superintendents and the managers of each park unit who are 
charged with determining the health of the resource, of the 
park unit, as a member of that working group. What we were 
talking about there was saying that we had ongoing rulemakings 
on both Hawaii and Grand Canyon. What we sought to do was to 
prevent the same kind of occurrences all over the park system 
and start a proactive process whereby you could have the park 
managers, who are in charge of the resources, give some input 
as to what's happening.
    If I could just give another example, you know, the Secret 
Service works with the FAA on what form of flight restrictions 
are necessary over the White House so that they can fulfill 
their mission to protect the First Family. DOE does the same 
thing.
    Mr. Hansen. No, don't fly over the White House.
    Ms. Lowey. Right, but there are flight restrictions. DOE 
does the same thing over nuclear weapons facilities. Each 
Federal agency needs to work with the FAA, which controls the 
airspace, so that we can fulfill the mandates that we have.
    Mr. Hansen. Well, what you say is laudatory, and I have no 
arguments. Here is where my argument comes down. If I happen to 
be the XYZ air tour operator flying over the Grand Canyon, I 
would like to know what the park superintendent uses as his 
criteria to determine the language that you have put in here.
    Where is that printed? I do not think it is fair. I am 
trying to be fair to both sides. I do not think it is fair to 
the park superintendent to put him into the position of playing 
God. He probably does not feel comfortable there, nor do I 
think it is comfortable for the guy who says, ``Well, this park 
superintendent, he lets anybody fly.''
    I think you should write up, i.e., FAA/Park Service, and 
have this handed out to the people who are going to do this so 
they know something to operate on. I think it is too nebulous 
this way. If I am off the mark, you let me know, but if not, we 
are going to look forward to in this Committee seeing some 
regulations so that this gentleman sitting between you has got 
something to work on and he is not always the good guy or the 
bad guy. I do not think it is fair to him, very candidly, nor 
do I think it is fair to the operators who do the air tour.
    Now, if you disagree with that, Mr. Chairman, you let me 
know.
    Well, with all of that said, we appreciate this panel. 
Thank you, and we appreciate the superintendent--yes, Mr. 
Chairman.
    Mr. Duncan. If I can say one more thing, Mr. Valentine, we 
have talked about complaints to the National Park Service. Has 
the FAA had a number of complaints about the flights over the 
Grand Canyon?
    Mr. Valentine. We have received letters from people 
complaining about flights over the Grand Canyon, yes, sir.
    Mr. Duncan. You have. Have there been very many or do you 
have any idea how many?
    Mr. Valentine. Depending on how you define very many, they 
tend to be something you are very familiar with, all of you are 
in Congress, and that is they tend to be letters of a similar 
nature that come along at about the same time. So they are more 
often than not from appearance from, you know, people with a 
particular interest in the parks.
    Mr. Duncan. Well, the reason I ask that, I just was shown a 
publication that the park put out last year, apparently trying 
to stir up comments to the FAA, and it says in this 
publication, ``Despite this, the natural quiet of the park has 
continued to erode,'' and it says later, ``Even flight free 
zones are not necessarily noise free,'' and it says, ``If 
nothing is done, only 10 percent of the park will evidence 
substantial restoration of natural quiet by the year 2010.''
    Apparently this publication was withdrawn after complaints 
because it is so biased in one direction, but at the end of all 
of that, it says, ``Your comments are needed,'' and they ask 
people to comment to the FAA, and I just wonder how many.
    Mr. Valentine. I do not have the number, but I could 
provide that number for you, sir, if you would like.
    Mr. Duncan. All right.
    Mr. Valentine. That is what I was alluding to earlier.
    Mr. Duncan. All right. Thank you very much.
    Mr. Hansen. One last request for this panel. If we could, 
we would like to give you a series of questions to respond to 
in writing if you would not mind. We would appreciate it very 
much if we give those to you, and if we could get those back, 
it would be very, very helpful to us.
    And we thank you so much for your time and appearing before 
this committee, and we hope you stay through the rest of it.
    Panel No. 2, if we could ask you to come on up.
    Jerry Atkin, President and CEO of Skywest Airline; Bonnie 
Lindgren, owner and operator of Redtail Aviation; Randy Walker, 
Director of McCarran International Airport; and Steve Bassett, 
President of USATA.
    If those folks would come up, we would appreciate it.
    Thank you.
    We appreciate your being here. Mr. Atkin, we will start 
with you. We will try to limit you to 5 minutes. You can watch 
the light. It is just like a traffic light. Green, you go; 
yellow, you wrap up; and red, you stop, but if it is red and 
you are still talking, go ahead a little while, but do not go 
too far.
    Mr. Atkin, with you and the other members of this panel, we 
are grateful that you can be with us, and we will turn the time 
to you, sir.

    STATEMENT OF JERRY ATKIN, PRESIDENT/CEO, SKYWEST AIRLINE

    Mr. Atkin. Thank you, Mr. Chairman, Mr. Ensign, and Mr. 
Duncan.
    I appreciate the opportunity to testify and that you are 
holding this hearing in my home town, St. George. Thank you.
    I have completed a formal statement that I have submitted 
for the record and would like to make just some general summary 
comments.
    Mr. Hansen. Without objection, all of your statements will 
be included entirely.
    Mr. Atkin. Thank you.
    I am Jerry Atkin. I am Chairman and President of Skywest, 
Inc. We operate Skywest Airlines and Scenic Airlines. Skywest 
is the eighth largest regional carrier in the United States, 
and Scenic Airlines is the largest air tour operator in the 
United States.
    I have been President and Chairman of these companies and 
their predecessors for 22 years now, and these companies are 
based on the basis of quality to our customers, our 2,500 
employees, our stockholders in the community in which we 
operate, and you will not find a more responsible and more 
quality operation than Skywest and Scenic.
    I would like to give you a little overview of those two 
companies and make four points that should be considered in 
this process.
    One, quiet aircraft technology. Scenic operates quiet 
aircraft technology in the Grand Canyon, has invested a 
significant amount in it, and it works, and it needs to be used 
as part of the solution to this issue.
    The second point is natural quiet should be achieved from a 
visitor's perspective, not that of a squirrel or rock or an 
isolated monitoring device somewhere.
    The third point would be that the FAA should continue to 
manage the airspace in the U.S. and not the Park Service. They 
certainly need to have their input, but we should not make any 
kind of a wholesale abdication of what the FAA's charge is in 
the United States.
    And finally, we recommend a balanced approach of building 
on what has been achieved that basically has done a pretty darn 
good job so far of improving the visitors' experience of the 
Grand Canyon, while still allowing some meaningful air tours 
that are operated by responsible and environmentally sensitive 
operations like ours.
    Skywest Airlines operates to 48 cities in 12 states and 
Canada, and we operate 700 departures daily, primarily out of 
Salt Lake City and Los Angeles, and are affiliated with Delta 
Airlines, United Airlines, and Continental. We operate 60 
aircraft in scheduled service, 10 50-passenger jets, and 50 of 
the most modern, efficient, and comfortable turbo prop aircraft 
built today, and we employ 2,200 people in that operation.
    Scenic airlines is the result of combining several 
companies together over the time, some of which routes go back 
to the 1920's in the Grand Canyon. We have over 300 employees, 
and we operate 18 19-passenger Vistaliners, which is the name 
we give to the modified twin Otter, which is an airplane that 
meets what has been discussed as quiet aircraft technology 
primarily by putting a four-blade propeller on it so the noise 
comes down.
    We also operate another 15 aircraft over the Lake Powell 
area and Monument Valley and similar areas. We unquestionably 
operate the quietest aircraft in the Grand Canyon.
    I think you are probably familiar. We operate primarily out 
of Las Vegas, and typically we pick up our passengers at a 
hotel in a motor coach, whisk them to the airport in the 
morning, take them on a scenic tour of the less visited part of 
the Grand Canyon en route to the Grand Canyon, land at the 
airport that is outside the park, and then in a large motor 
coach take those passengers through the park and give them a 
tour on ground, and then come back, put them back in the 
airplane, and return back to Las Vegas in the afternoon.
    So as earlier stated, these are visitors that are a bit 
short on time, and generally out of the hotels. A lot of them 
are foreign visitors. Some are not. So that they get over there 
in the morning, come back in the afternoon, and have an 
absolutely glorious day, and they are still back by four or 
five o'clock in the afternoon. A meaningful air tour on the way 
is a part of that.
    We did carry 160,000 passengers over the Grand Canyon from 
Las Vegas last year, and that represents 36 percent of the 
visitors at the Grand Canyon. That is a substantial business 
operation of our own and in total.
    I might add that this quiet aircraft technology that we 
have developed and have operated for almost 10 years now comes 
at about a 10-percent premium to the price of the airplane to 
make this propeller modification. That may be of use.
    So I do not believe that it is a monumental task to do a 
conversion. At the same time, they are larger aircraft so that 
we can have fewer landings for the number of passengers, 
quieter output, and more passengers. So consider in the quiet 
aircraft technology that we could have on a per passenger basis 
a third of the impact if you want to consider it that way 
because of the larger aircraft and less noise, as opposed to a 
smaller aircraft that would have more intrusions for the same 
number of passengers and more noise.
    So the quiet aircraft technology is here. It's not a pie in 
the sky. It's not an impossible thing, and it should be used as 
part of the solution.
    One challenge, and I agree with what Barry Valentine has 
said about what the objectives were. When it came down to the 
final air routes, which admittedly did not get adopted yet, the 
incentive for the quiet aircraft technology simply was not 
there because there was not, in my opinion, a meaningful air 
tour route left over for the quiet aircraft technology.
    I believe it was suggested that the time of day that you 
could operate would be an incentive, but if there is not a 
right good, viable, economic air tour that you can see well, 
which there was not one left, then that is the most important 
incentive that has to remain for the quiet aircraft technology.
    The next point is the natural quiet should be achieved from 
a visitor's perspective, not a squirrel or rock or monitoring 
device. The monitoring devices are certainly a good way to do 
that, but there is a good share of the park that has so few 
visitors, and that also happens to be the part that coming from 
Clark County to Grand Canyon, that is the part of the park that 
we need to use and can show off an absolutely fabulous part of 
the park with virtually very, very low impact as far as sound 
output.
    And I think through the SFAR 50-2 that you referred to 
earlier, I would suggest that we have, by and large, achieved a 
high degree of achievement in the visitor experience, and 
having been there to the Grand Canyon a lot of times, I am 
amazed at how quiet it is, and I am going to suggest that with 
the quiet technology and some air routes, from a visitor's 
perspective we can continue the kind of activity that we have 
had.
    Now, at what point it should be limited, that is certainly 
a fair question, if there should be some limitations. Quite 
frankly, I am more concerned about the activity in and out of 
the airport itself than I am the in route tour portion.
    To the next point, the FAA should continue to manage the 
air routes in the U.S., not the Park Service or others, and it 
sounds like there is pretty much a consensus that that should 
be the case, except to the degree of how the Park Service has 
input into that, and I do not believe that they should have the 
final say. They certainly should have input, but I am concerned 
about a wholesale turning over of the management of the 
airspace to what today might be a very well meaning park 
superintendent, which could choose a different set of criteria 
next time to measure it by.
    I am also concerned as an airline operation that turning 
over the management of airspace above any land area to the land 
area owner, it frightens me. I would like to show you a picture 
of the United States that is rather small, but what you can see 
is the colored portion in the West, which is all of the Federal 
lands.
    Now, this may be a little bit of an exaggeration, but every 
Federal land manager decided they wanted to have a major role 
in saying, ``Stay away from my airspace,'' I do not know how 
the airlines, which is the best air transportation system in 
the world, could even begin to navigate in the western part of 
the United States if we started turning over the ability to 
collect fees and manage airspace over Federal lands or, I 
suppose, private lands for that matter.
    My suggestion, in conclusion, is that there be a balanced 
approach. We are a responsible operator, and we believe that 
our quiet aircraft technology is part of the solution, and that 
a good share of the problem has been achieved already, and that 
that should be used in building upon the SFAR and the 
regulations that happened 10 years ago, and for heaven's sakes, 
at the end of the day we have to have a meaningful air route 
left for quiet aircraft technology or there is no reason even 
to continue in existence, and in fact, to not do that is the 
same as to legislate the entire air tour business out of the 
Grand Canyon, and it felt pretty much like that in the final 
rulemaking, and that has got to be moderated.
    That concludes my remarks.
    [The prepared statement of Mr. Atkin may be found at end of 
hearing.]
    Mr. Hansen. Thank you very much.
    You know, at one time a Member of Congress from California 
put in a bill to prohibit aircraft flying over any national 
park at any elevation. That, in effect, just ends air service 
in America basically. We asked her about the space shuttle. She 
has not taken that into consideration.
    Bonnie Lindgren.

 STATEMENT OF BONNIE LINDGREN, OWNER/OPERATOR, REDTAIL AVIATION

    Ms. Lindgren. Good morning, Chairman Hansen and Chairman 
Duncan and members of the Committee.
    This is my first opportunity to testify. I would like to 
tell you a little bit about Redtail Aviation. We are a small 
operator. We fly in Southeastern Utah. We have two kinds of air 
transportation services that we conduct. We fly passengers that 
are multi-deliver trips, fly them from civilization to back 
country airstrips and will pick them up at the end of their 
river trip and return them to civilization. That is a pretty 
big portion of our business.
    A smaller and growing portion of our business is air 
transportation or air touring. We do flight over Canyonlands 
National Park, Monument Valley Navajo Tribal Park, Capital Reef 
National Park, Escalante/Grand Staircase, although we did not 
have very many folks this year--it is the first year--and the 
Grand Canyon national recreation area.
    In all, we transport approximately 1,000 visitors for air 
tours and 10,000 passengers for air transportation services.
    I am under contract with the Park Service to fulfill 
President Clinton's 1996 directive as the lead person for the 
education initiative, which is to create educational and other 
materials to describe the value of natural quiet to the park 
visitor, the need for cooperation from the aviation community, 
and the value of air touring in some national parks. And 
through my work at the Park Service I have certainly gained a 
better understanding of the policies under which Park Service 
must comply.
    I have a fundamental disagreement with the premise that 
quiet is a resource that must be protected. I am not alone. The 
Park Service in their report to Congress said, ``Visitor 
judgment of the importance of natural quiet varies probably as 
a function of the type of visitor and his or her activity, and 
hence, from the visitor perspective, natural quiet is not 
equally important in all locations or for all visitor 
activities, a position not necessarily shared by park 
managers.''
    Now, I think that visitor impact is very important, and I 
have quoted in my testimony several instances. In a Canyonlands 
National Park visitor survey, two people out of 399 visitor 
groups surveyed, two people made comments to ban military and 
scenic overflights. I am not sure if they saw one military 
aircraft and one scenic aircraft or why the two people made 
those comments, but two out of 399, that is a half of a percent 
impact.
    Bryce Canyon National Park, which has a helicopter operator 
based right outside the park, 422 visitor groups surveyed, ten 
complaints regarding the helicopter activity, and there is a 
difference in what you will hear from, I think, Bryce Canyon. 
The Park Service at Bryce does not feel that their helicopters 
have a significant negative impact.
    The Southeast--is that red line on me? Am I done already?
    Mr. Hansen. You can go ahead.
    Ms. Lindgren. Sorry.
    Mr. Hansen. It has been on the whole time.
    Ms. Lindgren. Oh, good.
    In a report to Congress, Southeast Utah group of parks, 
which is Canyonlands, Arches and Natural Bridges, is listed in 
the NPS priority for preservation of natural quiet. I fly over 
Canyonlands National Park predominantly. We have to cross the 
northern border of Arches National Park in a transitional 
approach to landing at Canyonlands' field, which is the airport 
in Moab.
    We do not conduct very many flights as a tour flight over 
Arches Natural Park. We have determined that it is not a 
beautiful park to see from the air, and we suggest people go 
see it by the ground.
    Canyonlands National Park is a large park. It is three 
districts, and you have to go see it by the air if you are 
going to get a sense of the vastness of it. A lot of visitors 
like Canyonlands flights better than Grand Canyon flights.
    The McCain proposal, S. 268, causes me concern. My concern 
is, and I put in my testimony that it transfers control to the 
Park Service. I want to clarify that. It transfers to the Park 
Service the authority to tell us where we will fly, and I think 
that Park Service will be unfair in their determination of 
telling us where we will fly.
    The ARAC process, or the preliminary recommendations from 
ARAC seem a little more fair to air tour operators, but I have 
concerns about that also because going into the process of 
creating an air tour management plan at each park, we will be 
talking, and it will be the air tour operator, the Park 
Service, the FAA, and the environmental community, and so far 
as I understand it, the FAA's only right is to discuss if there 
is a safety issue. So the boats are going to be rather 
unbalanced when we try to defend where we fly versus where we 
are told where we will not fly.
    Furthermore, the ARAC process is addressing air 
transportation flights, but I want to be very specific about 
our operation. We have 4,500 guests from Hite marina, which is 
on the upper end of Lake Powell, across the longitude of 
Canyonlands National Park for a landing at Moab or Grand 
Junction, Colorado. That is a number of operations, probably 
1,000 operations a year.
    And how will the Park Service evaluate those air 
transportation, point-to-point flights as opposed to the air 
touring? Will they believe me when I tell them that is air 
transportation versus air touring because my aircraft are all 
the same? I do not have different insignias on the aircraft. 
That is where I am concerned about how my air transportation 
flights will be affected by the air tour management plans.
    To address Congressman Ensign's comments about the economic 
impact of quiet aircraft technology, I have 10 aircraft, 47 
passenger seats, an investment of around $600,000, and for me 
to convert that to the Caravan configuration, Caravan has also, 
I believe, been approved as quiet, it would be a five and a 
half million dollar investment.
    My company is very small. The banks would never approve 
such a loan.
    Furthermore and most important, most of our groups that we 
fly for, air tours--now we are getting away from air 
transportation back to air tours--they call in groups of two. 
Couples will call or friends will call, and they want to go 
flying. A large number of our flights are conducted for two 
people, and there is no quiet aircraft technology alternative 
that is for a small aircraft.
    In conclusion, I am not opposed to additional requirements 
or regulations, but I think they need to be fair. They need to 
be balanced. They need to be reasonable, and they need to be 
tied directly to visitor impact. Visitors are not being 
impacted, and until they are, I think they should be.
    And I would like to share with you two things. Fifty, 
point, five, 6 percent of all wilderness lands in the United 
States is under a National Park Service jurisdiction as of 
right now, and there is a National Park Service policy 
objective with regard to park overflights. ``The NPS will set 
criteria for acceptable degrees of impact, identifying both 
maximum acceptable percentage and maximum acceptable number of 
visitors impacted for each type of site or activity. A maximum 
acceptable value of 20 to 30 percent will be identified.''
    Right now their report to Congress identifies a 3-percent 
negative impact to visitors by overflights.
    Thank you.
    [The prepared statement of Ms. Lindgren may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much.
    Mr. Walker.

  STATEMENT OF RANDY WALKER, DIRECTOR, McCARRAN INTERNATIONAL 
                            AIRPORT

    Mr. Walker. Thank you, Chairman Hansen, Chairman Duncan, 
and Congressman Ensign, for this opportunity to testify----
    Mr. Hansen. Pull that mike closer to you, Mr. Walker.
    Mr. Walker. This one? OK. I will try that one.
    [continuing] to testify on behalf of Clark County 
Department of Aviation.
    My written testimony has been previously submitted, and 
following my oral testimony, we have a brief video which shows 
the airspace safety concerns that we have which were touched 
upon by Chairman Duncan in his questioning of the recently 
proposed free flight zones for the Grand Canyon.
    As an airport operator, we run six airports, including 
three airports which generate about 80 percent of all the tours 
to the Grand Canyon. They are McCarran International, the ninth 
busiest airport in the United States; the North Las Vegas 
Airport, a reliever airport to which most of the Grand Canyon 
tour operators have recently relocated; and the recently 
acquired Henderson Executive Airport.
    I have submitted as part of my written testimony a 
resolution which was adopted by the general membership business 
meeting of the Airport Council International Organization for 
North America, endorsing the points which I will make in my 
testimony today.
    Southern Nevada bears the overwhelming majority of the 
adverse economic and social impacts which would have resulted 
from the previously proposed restriction of air tour operations 
in the vicinity of the Grand Canyon National Park. The 
University of Nevada at Las Vegas, UNLV, concluded that the 
total tourism related expenditure by Grand Canyon tourists 
amounts to $443.5 million annually.
    And, Congressman Hansen, tourism would also be impacted in 
southern Utah.
    The UNLV study shows that proposed flight restrictions for 
southern Nevada based tour operators would result in 106 
foreign tourists each day who would not come to the United 
States. The UNLV study estimates this would result in an annual 
economic loss of $100 million to the southern Nevada-Southern 
Utah region.
    While economics is an important factor, safe and efficient 
management of the airways is even a more important 
consideration. The legislative proposals which have been 
introduced to grant effective control over national park 
airspace to the Department of the Interior would vulcanize the 
airspace over the United States.
    This precedent could lead to further application by FAA of 
airspace control to Indian tribes, the National Forest Service, 
and even state park land managers.
    It is essential for primary airspace jurisdiction to remain 
in the hands of the Federal Aviation Administration. This 
authority should not be abdicated to Federal land managers at 
national parks. The role of the land managers should be to act 
in an advisory role to the FAA concerning the overflights 
issue.
    There are several reasons why this should be the policy. 
Primary FAA jurisdiction protects system-wide air safety. 
Preserving FAA's primary jurisdiction promotes and preserves 
the efficiency of airspace use, and the FAA is the agency which 
can best protect all of the citizens' interests in the 
availability of air transportation.
    The National Park Service is a single purpose agency which 
will be unable to strike the necessary balance in resolving 
park airspace conflicts. Its interests are focused exclusively 
on the parks themselves. The Park Service has shown that it has 
an institutional bias in favor of the ground based users of the 
parks. Congress should not allow such a single purpose agency 
to assume responsibility to balance interests of safety, quiet, 
and preserving viable air visitation opportunities.
    The National Park Service does not have expertise in 
airspace management, noise issues, and aircraft technology in 
order to reasonably address the park overflight issue. We 
believe that their role should be only an advisory one to the 
FAA, which does have the necessary expertise in these issues.
    The National Park Service Grand Canyon overflight command 
and control approach rulemaking provides an excellent example 
of the points I have just made. The National Park Service 
proposed to impose caps and curfews on all air tour flights 
regardless of where they originated from and irrespective of 
the route they fly or the technology they would use to do so.
    The Park Service proposed significant new flight free zones 
over the park which will have an effect of concentrating air 
traffic, both inbound and outbound into a small corridor, 
thereby increasing the risk of midair collision. In fact, the 
National Transportation Safety Board publicly commented on the 
proposed routes associated with the new flight free zones. The 
NTSB concluded that to compress the air traffic in the Grand 
Canyon to a time restrained, compact corridor, devoid of the 
previous landmarks that were previously available for air 
navigation, created an unsafe situation.
    I urge you to oppose legislative initiatives before 
Congress which would take away control of the airspace over the 
parks from the airspace management experts at FAA. The FAA must 
retain full authority over airspace above national parks and 
not abdicate its public safety responsibility to a single 
purpose agency, such as the National Park Service.
    We feel that safety and operational efficiency must be the 
first priority in any new Federal law. We believe that the FAA 
with the Park Service in an advisory role can best manage the 
issue of national park overflights.
    We support implementation of quiet aircraft operation and 
technology incentives to tour operators as a balanced, market 
based approach, an alternative which will accomplish the goals 
of substantially restoring natural quiet in the nation's parks.
    Thank you.
    Mr. Hansen. Did you want to show this film at this time?
    Mr. Walker. Yes, please.
    Mr. Hansen. Can you put it so the folks in the audience can 
see it, too, or put it out their way? How do you want to do 
that?
    Mr. Walker. I think it will be difficult to have everybody 
be able to see it.
    Mr. Hansen. Well, we could walk down if that is all it is. 
Why don't we walk down so they can see it?
    Mr. Walker. On your left is the ground aircraft coming into 
the Grand Canyon National Park. They fly through the park and 
go land at the airport. At the same time, you can see how they 
leave the park. They fly back on the blue direct route, and 
those aircraft would be white so that you will be able to see 
the separation.
    This is how the system works today. This is what we call 
the SFAR-2 rule.
    This is the chief part of the tour. This is the mark on the 
far right here at Waco Point. These are how the aircraft are 
coming into the airport, and you can see the white aircraft 
coming back to southern Nevada in this direction here, blue 
direct here, blue direct south there.
    Once again, the most panoramic vistas in this area of the 
park, and if you are fortunate enough to be on the left-hand 
side of the aircraft, you have a better view. On the right-hand 
side, you are kind of compromised in what you can see.
    Now, this is what is going to happen. You can see the 
compression of the airspace where we have got the brown 
aircraft coming in and the white aircraft coming back. You can 
see that there is a head-to-head operation there. What we are 
hoping to be able to do is to have the people that have missed 
out because of the cap and curfew fly in on this transit route 
and then head back this way so at least they can have an air 
tour portion of the park.
    Now, those of you who are aviators know that there are 
problems with altimeter settings because those aircraft that 
are going head to head, they have a 1,000 foot vertical 
separation, but the problem is that Las Vegas based tour 
operators have an altimeter setting that is based on the 
temperature and pressure and the operating conditions in Las 
Vegas, and the aircraft coming back from Tucson have a 
completely different altimeter setting, and en route you go 
through a considerable volume of airspace and you can have 
changes in that, and so that is the reason the National 
Transportation Safety Board came out so strongly against that 
compression of airspace.
    And since this hearing wanted to focus on the issues 
associated with airspace and how it should be used, we thought 
that that information would be very important to the panel.
    Thank you.
    [The prepared statement of Mr. Walker may be found at end 
of hearing.]
    Mr. Hansen. Thank you.
    Mr. Bassett.

 STATEMENT OF STEVE BASSETT, PRESIDENT, UNITED STATES AIR TOUR 
                          ASSOCIATION

    Mr. Bassett. Thank you, Mr. Chairman, and thank you, 
Chairman Duncan, both for your leadership in calling this 
hearing today, and also thank you, Congressman Ensign, for your 
participation today.
    It is a sensitive and a politically charged issue. It will 
require leadership and vision from the U.S. Congress perhaps to 
seek and find the balance that has been discussed today and to 
put together a piece of legislation that, indeed, is an 
alternative approach.
    The United States Air Tour Association represents a little 
bit more than 60 air tour operators and associated companies in 
the continental United States and Alaska and Hawaii. Our 
members are just some of the air tour providers in the country 
who last year flew more than two million passengers.
    Let me focus my remarks if I could today on just two or 
three points. First of all, it is not the feeling of either 
this association or the air tour industry that air tour 
overflights of national parks is a national crisis. Certainly 
there have been problems. The Grand Canyon was one example back 
in the mid-1980's. There are other isolated examples. 
Certainly, Congressman Duncan, there has been an example down 
in your district. There have been examples in your district, 
Congressman Hansen, but in general, it is not a national 
crisis.
    As a matter of fact, the Grand Canyon, while so many people 
like to use the Grand Canyon as a bad example, an example to a 
large extent as a scare tactic, other national parks in the 
country will suddenly become like the Grand Canyon, but the 
fact is the Grand Canyon probably should be used as a pretty 
good example of how the issue was addressed in terms of how the 
air tour community, the environmental community, the 
government, federally and locally, and state governments came 
together and sat down and sorted through this problem and came 
up with a viable solution and one that I think factually and 
statistically makes sense and works.
    Having said all of that, however, we certainly as an 
industry, as well as an association have been more than happy 
over the years to sit down and deal with this issue and see if, 
in fact, we could address many of the concerns that have been 
expressed by the environmental community and by the National 
Park Service on not just a local, but a national basis. We are 
willing to sit down and cooperate, and we believe that we have 
done that.
    As a part of that cooperation, however, we have got to know 
the rules of the playing field, and one of the issues with 
respect to the rules of the playing field is the issue of 
natural quiet. The issue of natural quiet appears this morning 
to have a number of different if not definitions, 
interpretations, but from the air tour perspective, how in the 
world can we possibly define alternative or balanced approaches 
to this issue if the underpinning of natural quiet is not 
visitor experience, if we do not have something tangible such 
as visitor experience to link a judgment of natural quiet on.
    And so while we are willing to sit down and work together, 
as are our members, we want to make sure that the playing field 
is level and that we understand the rules of the playing field.
    There has been an alternative that has been proposed by 
Senator McCain, S. 268. We do not believe that is the answer to 
the question. It is an unbalanced piece of legislation. It is 
very pro National Park Service jurisdictionally over the 
Federal Aviation Administration, and in effect, it would turn 
over jurisdiction of management of the airspace to land 
managers. So much has been said about that already this 
morning.
    Our position is the same as certainly everyone else's on 
this panel. We believe that jurisdiction absolutely positively 
should remain with the Federal Aviation Administration, 
although I have some concerns, and let me sort through that as 
we go down.
    There is another alternative, however, that may be coming 
forward, and that is the work of the Aviation Rulemaking 
Advisory Council, a nine-member panel that was put together 
back in May, a 100-day mission to strike a balance, to try and 
see if there was an alternative approach to this issue, four 
aviation representatives, four environmental representatives, a 
Native American.
    They have worked diligently over the summer. We are not a 
member of the ARAC. I am an alternate member, as is Frank 
Jensen who will be testifying before you later this morning. 
However, we have been very much involved in every one of the 
ARAC meetings since the meetings were opened to the public.
    We believe that fundamentally, without throwing a blanket 
endorsement over the preliminary recommendations and agreements 
that have been reached by the ARAC group, we believe that at 
least in principle we support the direction that they go.
    And the direction fundamentally goes FAA maintains airspace 
jurisdiction. The National Park Service, however, has the 
authority to determine impact on visitors as well as natural 
resources. Each park would have an air tour management plan 
developed for that park. That would be a collaborative, 
negotiated process among members of the public, among members 
of the aviation and environmental community. Full scoping 
processes, all environmental assessments would be a part of 
that.
    Every air tour operator would be an FAR Part 135 
certificate holder, and attached to those certificates would be 
operational specifications that would parallel the 
understandings that were formed within the context of the air 
tour management plan. We think this is a viable alternative and 
a good approach to Senate Bill S. 268.
    However, there is a concern. The concern that we have is 
still the issue of FAA jurisdiction. It is nice on paper that 
the FAA maintains jurisdiction over the airspace, but once the 
National Park Service gets into the business of making a 
determination in blanket form in what areas of the national 
park are visitor sensitive or environmentally sensitive in 
other areas, we run the risk of basically the National Park 
Service saying this entire park is either off limits or the 
areas of the park over which could be flown by an air tour 
would be so limited that there would not be a viable air tour 
at that park or at some areas may very well put people out of 
business.
    As a final point, a month and a half ago I had the 
opportunity to attend a 2-day focus session at Glacier National 
Park in Montana. That was put together by the superintendent of 
Glacier National Park for the purposes of dealing with the 
issue of air tours over that park, a very limited number of air 
tours, but nonetheless what they sought to do was discuss the 
issue of air tours and come up with a way, not the ARAC way or 
not a Washington way, but their own way of dealing with air 
tours over that particular park and make that a part of their 
general management plan.
    What concerns me is a comment by the park superintendent 
who said that the only important issue here is who controls air 
tours over national parks. ``We believe that the National Park 
Service must have jurisdiction, and we also believe that we 
have the legal authority. Even if helicopters were absolutely 
quiet, it would not matter. This issue is about appropriateness 
and control, not about impact.''
    That is a frightening statement because, on one hand, if on 
paper FAA maintains its jurisdiction over the airspace, but de 
facto the National Park Service under the guise of control has 
the ability to absolutely determine what the areas of a park 
are that are sensitive and, therefore, what areas of a park 
over which an air tour flight will not be conducted, then in 
effect at many parks around the United States we simply could 
put the air tour operators out of business.
    The issue of control as viewed in this particular statement 
by the superintendent of Glacier National Park is frightening 
when attached in context to the development of the 
recommendations from the ARAC group or Senate Bill S. 268.
    [The prepared statement of Mr. Bassett may be found at end 
of hearing.]
    Mr. Hansen. Thank you.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Bassett, in your testimony you have an overview of the 
air tour industry, and it says air tour operators in the U.S., 
275. Are most of those what we would classify as small 
businesses?
    Mr. Basssett. Yes, most of them are businesses that are 
either small businesses, such as Bonnie Lindgren's in Green 
River and Moab, or to a large extent they may be larger 
businesses, but they do a wide variety of things within the 
context of their business and give some air tours.
    In fact, surveys that we have done in the past indicate 
that some of those companies, as a part of their overall 
business, may only give tours 10, 15, 20 percent of the time.
    Mr. Duncan. And the man that you quoted there, who did you 
say that was? The superintendent?
    Mr. Bassett. Park superintendent at Glacier National Park.
    Mr. Duncan. And is that a man or woman?
    Mr. Bassett. Dave Mahollick, a man.
    Mr. Duncan. Dave Mahon?
    Mr. Bassett. Mahollick.
    Mr. Duncan. Mahollick, and he said that he did not care if 
the aircraft was completely quiet, that it was an issue of 
control rather than impact?
    Mr. Bassett. Absolutely, and on more than one occasion. We 
spent 2 days in this session, and while actually it was to some 
extent reasonably productive, that more than one time was the 
overarching context in which the meeting was put.
    Mr. Duncan. Ms. Lindgren has in her written testimony a 
sentence that I do not think she read. She said, ``Frankly, the 
extreme elements of the environmental community use the Grand 
Canyon as a scare tactic at other parks.'' Do you see that 
happening? Do you think that is happening?
    Mr. Bassett. Absolutely, Mr. Chairman. We believe that the 
difficulties that the Grand Canyon experienced many, many years 
ago have been blown significantly out of proportion from a 
national perspective, and we think that at parks throughout the 
United States that ``it is going to be another Grand Canyon'' 
is used on a regular basis.
    Mr. Duncan. Well, frankly, Ms. Lindgren, much of the 
environmental community is losing its support around the 
country because they have become so extremist in so many ways 
all around the country. You say at one point, ``It is important 
to stop comparing Grand Canyon air tour operations with other 
national park air tour operations.''
    Would you elaborate on that a little bit and explain what 
you mean?
    Ms. Lindgren. It is my opinion that the intent of the Park 
Service would be to have regulations similar to those at the 
Grand Canyon for all parks. The label that is being attached to 
it may be called the air tour management plan. My point in 
saying that is our park superintendent, our current park 
superintendent, specifically said to me, ``I don't want flight 
over Canyonlands to be like those of the Grand Canyon,'' and 
that just is not going to happen. That is an unrealistic 
expectation.
    It is not, however, unrealistic for he and I to agree to a 
specific route that will minimize our flight operations over 
areas where a hiker has spent 6 hours hiking, provided that the 
other location where a hiker goes hiking he knows that we are 
going to be there.
    Mr. Duncan. You say that no other park is similar to the 
Grand Canyon.
    Ms. Lindgren. With respect to the number of flights.
    Mr. Duncan. How big is the Grand Canyon National Park? Does 
anybody know on this panel?
    Mr. Bassett. It is 277 miles long.
    Mr. Duncan. Two hundred seventy-seven miles long?
    Mr. Bassett. Yes.
    Mr. Duncan. Is there any other national park that is 
anywhere close to it in size that you know of?
    Ms. Lindgren, you have mentioned the cost, that you have an 
investment of $600,000. Frankly, the best friend that extremely 
big business has is extremely big government because when we 
start trying to regulate to death almost anything, it drives 
the small businesses out of existence first of all.
    And what you are saying is you have an investment of 
$600,000 now, but if you have to go to this Caravan or a twin 
Otter aircraft mix, you would have to invest five and a half 
million; is that correct?
    Ms. Lindgren. That is what I said.
    Mr. Duncan. And you said that no bank would make that kind 
of loan to you?
    Ms. Lindgren. I am certain that they would not, sir. Our 
gross receipts for a year are under a million.
    Mr. Duncan. And so your only choice then would only be to 
go out of business or merge with somebody bigger?
    Ms. Lindgren. That is correct.
    Mr. Duncan. Are most of these other air tour operators or 
many of these other air tour operators in your same situation, 
do you think?
    Ms. Lindgren. In Moab, which is our primary base of 
operations, there are three operators there. My company is the 
largest with 10 aircraft. There is one company that has two 
aircraft and one company that is a helicopter. Redtail Aviation 
is the largest single engine air tour operator that I am aware 
of for the small aircraft size configuration.
    Scenic Airlines has their divisions out of Paige, that they 
still use some of the smaller aircraft, but I do not think our 
company can compare with other companies with regard to size of 
aircraft, and I do not know how it would impact other 
companies.
    I know that we would be put out of business, and we are the 
predominant carrier in southeastern Utah.
    Mr. Duncan. Mr. Walker, you say that 80 percent of the 
flights over the Grand Canyon originate from one of your 
airports. Is that what you said?
    Mr. Walker. That is correct.
    Mr. Duncan. Do you think that we are nearing some sort of 
limit? I assume that you have flown over the Grand Canyon on 
some of these flights or on numerous occasions; is that 
correct?
    Mr. Walker. Not on numerous occasions.
    Mr. Duncan. Based on what you have heard and talked to 
people about, is this becoming a big problem now do you think?
    Mr. Walker. No. I think it is a big problem with the 
National Park Service, but not from an airspace safety problem 
the way it has been. I think that the air tour operators and 
the Federal Aviation Administration struck a good balance years 
ago on how the----
    Mr. Duncan. You are saying the way it has been now, but if 
they restrict airspace, then the point of your video was that 
you would have more planes coming in?
    Mr. Walker. It would be a significant problem with the 
proposal that they have, yes.
    Mr. Duncan. A significant problem.
    Mr. Walker. In terms of air safety, and also in terms of 
having any viable routes that people would actually want to fly 
in for a view of the Grand Canyon.
    Mr. Duncan. And so do you think that it would endanger 
lives?
    Mr. Walker. If you continue to provide those kind of 
opportunities to individuals and at the same level, I think it 
would. The only way you could get down to a safe level is to 
restrict the number of flights below what we are currently 
experiencing.
    Mr. Duncan. All right. Thank you very much.
    Mr. Hansen. The gentleman from Nevada.
    Mr. Ensign. Thank you, Mr. Chairman.
    Just a couple of quick questions. Randy, you have recently 
taken over at McCarran, and from your perspective, the economic 
impacts, when you are expanding your airport, when you are 
determining whether to expand airports, I would assume that you 
go through studies, cost-benefit analysis.
    You heard the testimony earlier from the FAA and National 
Park Service. Let me have your comments on what you thought, 
first of all, of the answers that were given on, you know, 
whether or not the complete studies have been taken into 
account.
    The rules limiting the flights, that was admitted up front 
that that would have a severe economic impact, and yet those 
economic impacts, they did not have the studies. They did not 
have the detailed analysis, the statistical analysis.
    And maybe, Jerry, since you operate in that same corridor 
if you could also just comment on, first of all, what you think 
of the Park Service and the FAA not having a complete set of 
data, but also what you think the actual real economic impacts 
would be.
    Mr. Walker. Well, certainly the FAA does not allow us to 
get by with that kind of analysis when we are doing an 
environmental assessment or an environmental impact statement 
to expand our facilities that are under their purview. So it is 
kind of surprising that they would not have those kinds of 
cost-benefit analyses.
    We have had on numerous occasions in almost every major 
expansion airport to have to submit either an EA or an EIS to 
the FAA for their review, and economic impact and economic 
analysis is certainly a part of those studies that we need to 
do.
    But certainly the study that we have by UNLV that showed 
the economic impact to southern Nevada-southern Utah area not 
having these flights to the Grand Canyon, I think, is very 
significant. There are many people where that is the only way 
they can see the Grand Canyon, not only for tourists who come 
in for a short period of time, but when you think about 
individuals who are disabled or otherwise would not be able to 
experience that kind of view of the Grand Canyon. I think air 
tours are a very significant opportunity for lots of people to 
be able to see the Grand Canyon the way they would never 
otherwise be able to see it.
    I have seen it both ways, and both ways are spectacular, 
but I think economically in southern Nevada it would be very 
difficult. We are trying to expand our international traffic to 
Las Vegas. One of the things that every international traveler 
has on their list when they come to the western United States 
is to see the Grand Canyon, and when they are coming to the 
United States for 2 weeks and there is so much to see, the 
opportunity to drive to the Grand Canyon and to experience it 
that way is probably so time consuming that they are not going 
to do that, and it will reduce, I think, the competitive nature 
or competitive edge that we have in being able to attract those 
people to this region, not only Las Vegas, but the Arizona and 
southern Utah region as well.
    Mr. Duncan. Jerry?
    Mr. Atkin. Well, I think I would concur with a good share 
of what Randy has said. Part of the issue here is that the----
    Mr. Duncan. Why don't you pull your microphone a little 
closer?
    Mr. Atkin. [continuing] there is a very sizable amount of 
traffic that is visiting the Grand Canyon. Five hundred 
thousand people visited the Grand Canyon this way last year 
with very, very low impact to the visitors on the ground at the 
Grand Canyon.
    I guess I would like to make a point, too, that I think it 
is the lowest impact way to visit the Grand Canyon, and the 
reason I would suggest that is we come in, put people generally 
in a 50-passenger bus. So we have got one vehicle that is doing 
50 people on the ground versus typically one or two people in a 
vehicle on the ground.
    We are also paying twice. We pay once for an overflight 
fee, and we pay once again for our passengers to go as an 
entrance fee. So I believe that we provide a very low impact 
way, and if looking from a visitor impact, it has been said a 
number of times today that the visitor impact is very, very 
positive.
    I mean even when people go out and try to gin up some 
complaint letters, we still do not have very many. So I would 
suggest that it works very well and that we are trying to make 
a fly into an elephant here.
    I do think though that there is some concern about the 
future. I do not think we can have unlimited numbers of 
aircraft activity continue to go at the canyon. I just do not 
see how that can happen. I think we are already hitting, at 
least in my view, some sort of natural limits at the airport.
    I think if there is a constraining piece of the entire 
chain, it is probably the airport. As the SPAR 50-2 has 
outlined, as we go to and from the canyon I think that is very 
well, and I am not concerned about the safety aspect of that 
part of the operation today, and as it relates to coming in and 
out of the Las Vegas area, I think that one is in good shape. 
The canyon airport itself is somewhat limiting, and again, the 
quiet aircraft technology that is available, which I think does 
lend itself in this particular market place, I think it is a 
little bit unfair that quiet aircraft technology has no 
incentive whatsoever when, in fact, we have a third of the 
impact per passenger that others do, and in this case, not in 
Bonnie's case, but at least in the Grand Canyon's case, I think 
that is an affordable conversion that should be considered.
    And, in fact, we could produce less noise by doing quiet 
aircraft technology, which would mean fewer aircraft 
intrusions, less noise, and more passengers. So, in fact, the 
passenger part of this from an economic standpoint could grow 
without the number of aircraft activity growing, and I think 
that should be considered.
    Mr. Ensign. As far as the rulemaking is concerned and the 
negotiating part going forward, are you comfortable? What kind 
of feedback have you been getting from the FAA and the Park 
Service?
    You know, they both sat up here today, or at least the FAA 
talked about that there should be incentives.
    Mr. Atkin. Right.
    Mr. Ensign. The administration said in both of their 
testimonies that that should be a large part of it. It should 
be the incentives to giving air tour operators that will go to 
the quiet technologies an advantage so that that would be their 
economic incentive.
    I guess from your perspective, do you feel that this is 
going to happen? Are the statements they made today accurate?
    Mr. Atkin. I'm very suspicious of it, and the reason why is 
in their stated objectives, I would not say it any better or 
any differently than they did. However, when the notice of 
proposed rulemaking came out on where the routes were, from 
whatever process they went through to get that, in my judgment, 
the one that they outlined for quite aircraft technology plain 
and simply was not a viable air route.
    So the objective of having some meaningful incentive simply 
did not occur. Now, because there has been a lot of hell raised 
about it, it has not gone into effect yet, but it makes me 
nervous when we set objectives that sound pretty honorable, and 
then we see a notice of proposed rulemaking that simply does 
not leave a viable air tour route for the quiet aircraft 
technology. That means they did not meet that objective at all 
and apparently did not recognize that.
    Now, that makes me very nervous.
    Mr. Ensign. And just real briefly, you're an operator of a 
fairly decent size business now. If you had five million 
visitors or at least customers and you had 25 to 70 complaints 
a year, how would you feel about your business?
    Mr. Atkin. I would be delighted. We are very customer 
oriented, I think, and we track, and we get about the same 
number of compliments as we do complaints, but it is a higher 
ratio than that is, and I believe it is one of the lowest in 
the entire air transportation industry. I am amazed that we are 
excited about 50 complaints out of five million.
    Mr. Ensign. Thank you, Mr. Chairman.
    Mr. Hansen. Mr. Atkin pointed out in his testimony that 36 
percent of the visitors to the Grand Canyon were in aircraft. 
Is that 36 percent of what you have or where do you get that 
figure?
    Mr. Atkin. Yes, the figure that I meant to say is that we 
carry 160,000 passengers from Clark County to there last year, 
and that represented 36 percent of what I believe the total 
traffic was from Clark County to the Grand Canyon. In other 
words, 500,000 passengers, I believe, saw the Grand Canyon 
through that route, and we were 36 percent or 160,000.
    Now, there are other people that see the Grand Canyon in 
what I think has been referred to as Arizona routes, but that 
would be the Las Vegas tours.
    Mr. Hansen. I would be curious to know how many people see 
the Grand Canyon by air compared to how many see it on the 
ground.
    Pardon me. Pull that mike a little closer to you.
    Ms. Lindgren. I think it is a little under 20 percent.
    Mr. Atkin. I would validate that if there is five million 
in total, I know there is a half a million on the Las Vegas 
side. I am going to surmise there is close to another half a 
million that do it locally from the Grand Canyon side and come 
through other way other than Las Vegas, and a million out of 
five million is Bonnie's 20 percent. I think that is a very 
good estimation.
    Mr. Hansen. So we could have a lot of guesses here, but for 
the park superintendent and those people that operate the 
ground, the people who enjoy the Grand Canyon, a very high 
group of them see it by air and, I mean, they never put a foot 
on the thing, but they see it and enjoy it by air. So that is a 
significant situation and is just something you cannot rule out 
and say these people do not have any rights also.
    But you have all alluded to the fact somewhere there is a 
moderate position. Bonnie Lindgren, now what kind of aircraft 
do you operate?
    Ms. Lindgren. We have single engine Cessnas, Cessna 182, 
172, 206s and 207s.
    Mr. Hansen. So you have four and six-place aircraft.
    Ms. Lindgren. Yes.
    Mr. Hansen. And you were referring to a Cessna Caravan when 
you were talking about it?
    Ms. Lindgren. Right.
    Mr. Hansen. Are the $5 million?
    Ms. Lindgren. It is $1.1 million, and I would need five of 
them.
    Mr. Hansen. Oh, excuse me. I was going to say the prices 
have gone up substantially since I talked to Russ Meyers who 
makes the Cessna. I have been working with him on another 
issue.
    You would need five of those to take care of what you are 
doing; is that right?
    Ms. Lindgren. To get the 50 seats that I have available 
now.
    Mr. Hansen. Mr. Atkin, you talked about the Vistaliner and 
what you have done to modify it so it would be good for air 
tours. Would you give us a little of the specifics on that?
    Mr. Atkin. There are a couple of things, and in my 
testimony I put in there that it was about a $650,000 
modification. That was a total modification that includes 
bigger windows, recording systems that give audio and multiple 
languages, but the quiet aircraft, part of it is really the 
propeller alone, and that is probably $150,000 on an airplane 
that has a value a little in excess of $1 million. So the rest 
of it was something that we chose to do that we thought 
enhanced it, but certainly is not a necessary part of the quiet 
only.
    I might also suggest that in part of our operation of Paige 
and Lake Powell, we have a fleet of airplanes very similar to 
what Bonnie has said, including a couple of Caravans. At the 
same time, Caravan is an extremely expensive airplane to 
operate, and I would not begin to suggest that the Caravan is a 
decent economic alternative to these four and six passenger 
airplanes.
    I think we misinvested, frankly. It is too high of an 
investment and too many seats for the applications that I do 
not think necessarily apply terrifically to the Grand Canyon, 
but in like Canyonlands, Monument Valley and so on, I think we 
have to admit to have viable air tours, there has to be a 
little higher level of tolerance because I do not know that the 
technology is available or affordable in that size airplane.
    Mr. Hansen. Does your twin Otter, Vistaliner fit the 
criteria for quiet?
    Mr. Atkin. Yes, it does, clearly does.
    Mr. Hansen. The FAA and Park Service feel all right with 
the Vistaliner?
    They are nodding their heads yes for the record, so I guess 
we can accept that.
    Mr. Atkin. Yes, and I think in the notice of proposed 
rulemaking it gave the Caravan and the Vistaliner as two that 
did meet their definition or maybe that was the definition. I 
am not sure.
    Mr. Hansen. Mr. Bassett, in your testimony, you talked 
about the fellow at Glacier, and I think that falls in with the 
working group that Jacqueline Lowey talked about where ``the 
park superintendent shall be responsible for determining the 
nature and extent of impact.''
    So I would assume your statement is correct. I have no 
reason to doubt you on that, but that would mean if that park 
superintendent wanted to do it, he could cut out all 
overflights of aircraft; is that right?
    Mr. Bassett. Yes.
    Mr. Hansen. The way you interpret it, right?
    Mr. Bassett. Absolutely.
    Mr. Hansen. And you interpret his language to say that?
    Mr. Bassett. I interpret his language to say that he wants 
absolute control of the issue so that he can make the 
determination as to whether or not air tours are appropriate 
and where they will or will not fly.
    Mr. Hansen. So it all comes back to the idea of control, 
doesn't it, in this whole shooting match?
    Mr. Bassett. It does, sir.
    Mr. Hansen. Now, someone once said moderation in all 
things. It should be scriptural if it is not, but somewhere in 
there is what we are trying to arrive at because I think from 
what we have heard, both sides have a very legitimate argument 
in this.
    Any further questions for this panel?
    [No response.]
    Mr. Hansen. Apparently not. We thank you so much.
    We will take a 10-minute break and meet back here at 25 
after, and then we will go to our third panel.
    [Recess.]
    Mr. Hansen. I am sure people will dribble back in if we 
start.
    Our third panel is Philip H. Voorhees, Associated Director 
for Policy Development, National Parks and Conservation 
Association; Steven E. Snow, board member, Grand Canyon Trust; 
Phillip Bimstein, Mayor of Springdale, Utah; and Jeri 
Ledbetter, Southwest Field Office of the Sierra Club.
    If those folks would come forward, we would appreciate it. 
Thank you so much for joining us today. We appreciate you 
taking the time to be here.
    The same rules that you have heard for the first two panels 
would apply to you. If you have something that you have really 
got to say and you go over time, we want to hear it. We do not 
get this opportunity to come out on a regular basis. So if you 
can stay within your time, that would be fine, too.
    We will start out with you, Mr. Voorhees, and the time is 
yours, sir.

STATEMENT OF PHILIP H. VOORHEES, ASSOCIATE DIRECTOR FOR POLICY 
    DEVELOPMENT, NATIONAL PARKS AND CONSERVATION ASSOCIATION

    Mr. Voorhees. Thank you very much, Mr. Chairman.
    Mr. Hansen. It would help if all of you would get closer to 
the mike. One thing is we want it on the record, and that is 
the only way we can pick it up.
    Mr. Voorhees. My name is Phil Voorhees. I am Associate 
Director for Policy Development at National Parks and 
Conservation Association. I know I have been before this 
Committee a number of times.
    Mr. Hansen. Can you pick this up?
    Excuse me. Go ahead.
    Mr. Voorhees. To us this is a very important and very 
dynamic issue that is facing the park system now. It has been 
an issue very much in the Grand Canyon for the past 20 years, 
but now we are really talking about the system, and my 
understanding was we were here to talk about the national park 
system.
    So if you will allow me to talk on that basis, I am going 
to focus much more on the problems that present themselves 
outside the canyon and as it presents itself within the canyon.
    National Parks and Conservation Association, for those who 
do not know, is a citizens group which represents or is 
comprised of about 500,000 citizens across the country. This is 
an issue of primary concern to our members, as well as to my 
board of trustees.
    To the extent that natural quiet is a basic resource of the 
national parks, as such, it is one of the primary mandates of 
the National Park Service to deal with the issue of national 
quiet and preserve the issue of natural quite for this and 
future generations.
    It is my hope that no matter how Congress approaches this 
problem that two basic principles will be addressed, and those 
principles are paramount.
    The first is that the sounds of nature are among the 
intrinsic elements which combine to form the natural 
environment within national parks. As such, they are inherent 
components of the scenery and the natural and historic and 
wildlife therein, which form the core of the National Park 
Service's conservation mandate.
    Second is that within units of the national park system, 
natural quiet, that is, the opportunity to experience natural 
sounds, shall be preserved unimpaired for the enjoyment of 
future generations.
    These two principles embody the most fundamental purposes 
in the National Park Service Organic Act of 1916 and reflects 
the Act's enduring meaning for the world today.
    NPCA has been involved because this is--again, let me 
reemphasize--this is to us a very basic resource issue. It is 
an issue which I think if we deal with it now will not be a 
very substantial concern in the future, and we can be assured 
that our children will be able to go to some of the last places 
in the country and experience natural quiet much as the 
settlers did as they came to this country years and years ago.
    There are precious few places that one can go and be 
assured that you can find that kind of experience. There are 
plenty of places--well, excuse me. Let me back up.
    The Park Service does a very good job of protecting the 
resources at the natural parks so that you can experience them 
on the ground and see the scenic vistas as the settlers saw 
them, but right now there are very, very, very few places in 
this country, and I dare say probably even on the planet, where 
you can go and experience the sounds of the environment, if you 
will, that were there even 20 years ago.
    Progress in this regard, I think, is unfortunate because it 
makes the world a cacophony of noise. There should be some 
places where we can go as citizens, as visitors to the national 
parks and that you are going to have that natural quiet 
experience because there are not many left.
    Let me talk a little bit about the scope of the problem. 
For the past five years, NPCA has been actively involved in 
trying to do a survey of what is the dynamic of the problem in 
the national park system. Again, this is not talking about the 
Grand Canyon. It is talking about the national park system.
    Five years ago we initiated a survey of the superintendents 
to ask just that question. What is the dynamic of the problem? 
And we identified it was in the high 30's, I think about 35 
parks in which commercial tour overflights were a significant 
concern to park managers.
    We did this again in 1996, almost two years ago, and we 
found that that number was no longer in the high 30's. It is 
now about 55 parks, and those parks are represented in the last 
page of my testimony.
    My fear is that unless Congress or the administration, 
whichever, deals with this problem in a comprehensive manner, 
the next time we turn around and look at this, and we will be 
looking at this in this coming summer, since it is on a 2-year 
cycle, the number might not be 55 parks. It might be 65 parks. 
It might be 70 parks. In 10 years it might be 90 parks.
    Now, it is true that there are a lot of parks in the 375 
units in the system in which this is probably never a risk 
because they do not provide a real opportunity for a tour 
operator to make a business on that basis. We are really 
talking about the number of parks that provide sufficiently 
sweeping scenic vista and also provide a significant ability to 
go and experience the concept of natural quiet that we are 
talking about.
    If Congress fails, or the administration fails, to deal 
with this problem, I fear that individual communities will 
approach this problem in their own parochial manner, which to 
the individual communities might be fine, but I do not think 
that it is a progressive way of dealing with the issue at all, 
and I do not think that it solves either the concerns of the 
tour operators, that they have to have some level of business 
certainty as to how they can go about their business, or the 
concern of the park system that there is some level of 
regularity as to how you approach this problem.
    And let me give you four examples of the kinds of concern 
that I think that this raises. Two years ago, I think it was, 
nearly the entire Colorado congressional delegation wrote to 
Secretary Pena in support of a ban over Rocky Mountain National 
Park.
    In addition, just last spring, I think, or perhaps it was 
this summer, a resolution was passed by the Hawaiian 
legislature supporting the McCain approach to dealing with this 
issue. A local ordinance about five years ago was passed in 
Springdale to limit the ability of tour operators to startup 
there, and the same was true in Haywood County in Tennessee 
next to the Smokies.
    Now, if neither the Congress nor the administration steps 
up to the plate and addresses this issue to structure the 
problem and give the Park Service the ability to do their job, 
then I think a whole variety of individual communities will 
separate themselves out and do their own thing, if you will.
    This is not a theoretical concern of what some say are 
extreme preservationists at all. These measures were passed and 
supported by real people not usually associated with park 
preservation at all, and I really do think that unless we 
approach this problem now, we are going to be experiencing this 
in a very different, dynamic way for a long time into the 
future.
    Let me say that so far as Park Service management goes it 
is the province of the Park Service under the 1916 Organic Act 
to be the stewards of the land, and under the construct they 
have control and primary say over what should happen within 
those lands in furtherance of preservation of the resources.
    To the extent that natural quiet has been identified as a 
resource, and I think it is a very, very valuable one, I think 
it needs to be with the province of the Park Service to have a 
say in exactly how that should go about.
    I think the McCain bill, generally speaking, provides a 
reasonable structure for doing so. I do not take issue and 
National Parks and Conservation Association does not take issue 
with the Federal Aviation Administration being the primary or 
the exclusive policeman of the skies, if you will. I think that 
is entirely appropriate.
    But the National Park Service needs to have a say in how 
that should be structured. They need to have a say in where are 
the resources most sensitive. Where are the places where you 
simply should not have overflights at all because of the level 
of sensitivity and the viability of natural quiet, and where, 
generally speaking, can you have overflights?
    Now, with that in mind, the FAA then should step in and 
say, ``Well, then how do we structure this concern? How do we 
monitor this for safety, and how do we create a system and 
operations specifications which will do just that?``
    But in the end they have the final say, and I think that is 
entirely appropriate.
    I have diverted substantially from my written comments. I 
am sure that you can review them on their own. Really what I 
wanted to do was bring the argument back around to the fact 
that from our perspective, we should be dealing with this on a 
system-wide basis. We should be setting up a structure which 
allows the Park Service to have a legitimate, reasonable, and 
important say in how you should go about structuring a system 
which protects the resource of the national parks and allow the 
FAA to do its work in insuring the safety and enforcing the 
recommendations of the Park Service.
    With that I will conclude and be happy to answer any 
questions.
    [The prepared statement of Mr. Voorhees may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much.
    Mr. Snow, the time is yours.

 STATEMENT OF STEVEN E. SNOW, BOARD MEMBER, GRAND CANYON TRUST

    Mr. Snow. Thank you, Chairman Hansen. It is good to see you 
again. Chairman Duncan and Congressman Ensign, we welcome you 
to southern Utah and are hoping you enjoy your stay here. I 
appreciate the opportunity of being able to address this 
Committee.
    My name is Steven E. Snow. I am a native of St. George, 
born and raised here and have practiced law here in St. George 
for the past 20 years.
    I am also a member of the board of directors of the Grand 
Canyon Trust, who has their main office in Flagstaff, Arizona, 
but has a local office as well here in St. George.
    Our organization is dedicated to conservation of the 
natural and cultural resources of the Colorado Plateau. So in a 
sense it is a regional conservation organization. We have been 
involved in this issue of natural quiet in the parks for about 
a decade now with special emphasis on the two dozen parks on 
the Colorado Plateau.
    As you are well aware, this area is a very scenic area with 
a number of national parks and national monuments, and we are 
concerned about this issue of natural quiet.
    We welcome the opportunity to contribute to the discussion 
that is now underway about natural quiet and whether or not it 
can and will be preserved in a national park system. We hope 
that the visitor experience is not threatened as a result of 
the growing number of commercial air tours over our national 
parks.
    Now, natural quiet, of course, means many different things 
to many different people, and clearly there is no one 
definition which suits everyone, but what is clear is that 
regardless of how the term is defined, there is little dispute 
among visitors to our national parks, who seek solitude and 
escape from an increasingly urbanized society, that natural 
quiet is one of the defining elements of the visit to the 
national park, and we believe that has been borne out as a 
result of surveys which have been conducted in the past.
    Now, we do clearly acknowledge and understand that air 
tours can be a very enjoyable way to experience the scenic 
wonders of our national parks. Unfortunately, however, in the 
past 10 years it has become more difficult for visitors to many 
of our national parks to find the natural quiet they might be 
seeking because of the tremendous increase in the number of 
sightseeing overflights.
    Much discussion today has been to S. 268. In July of this 
year, the trust did present testimony before the Senate 
Committee on Commerce, Science and Transportation in support of 
S. 268.
    The purpose of that bill, as you are well aware, is to 
establish a framework for monitoring and controlling commercial 
air tours over national parks. S. 268 directs the National Park 
Service to recommend actions that will protect and restore 
natural quiet and requires the FAA, the agency responsible for 
regulating the air space, to enforce the recommendations of the 
Park Service. The FAA is only to change these recommendations 
if safety is an issue. We think that is a very important 
consideration.
    The principle is crucially important. We believe that the 
Park Service is the one charged to protect the resources of our 
national treasures like Grand Canyon and the Great Smokies, 
Yellowstone, Rocky Mountain, Zion and Yosemite, and many, many 
others. S. 268 would extend the Park Service's authority to 
develop aircraft management plans for any park where the 
natural quiet resource is or may be impaired or threatened.
    It also promotes the use of quieter aircraft, which we also 
support, and authorizes the use of caps, curfews, and flight 
free zones as a measure to protect or restore natural quiet.
    The bill relies upon the agency with the great resource 
management expertise, namely, the Park Service, to evaluate 
resource protection needs and recommend resource protection 
standards and measures. Importantly, and I emphasize 
``importantly,'' it still relies upon the agency with the 
greatest aviation expertise, the FAA, to implement those 
measures safely.
    Aircraft management plans developed by the Park Service 
could prevent the development of conflicts between natural 
quiet needs and aircraft overflights. For example, as part of 
the development of the management plan at Zion National Park, 
park managers in cooperation with tour operators have developed 
voluntary measures to minimize air tour impacts on the park.
    However, these measures are just voluntary, and without 
legislation, such as S. 268, the Park Service does not have the 
authority to require compliance.
    We think the situation in Bryce Canyon is plagued by fixed 
wing and helicopter overflights that impair both natural quiet 
and visual resource because they fly below the elevation of the 
park overlooks.
    Other parks on the Colorado Plateau, such as Arches and 
Canyonlands, are also experiencing these overflight issues.
    Grand Canyon, I think, has been referred to a great deal 
today. It is an example of what can happen. By the time 
Congress passed the Natural Parks Overflight Act in 1987, there 
were 40,000 air tour operations per year in the canyon, and 
natural quiet had already become a scarce resource, and the air 
industry was firmly entrenched and growing.
    Ten years later we still have not restored natural quiet, 
and the number of air tour operations in the park has now more 
than doubled. We think the caps on flight operations is one 
reason why these past rules have failed.
    We support S. 268. We think that it is a good direction to 
protect the natural quiet resource in our parks. We appreciate 
the opportunity to give our point of view at this hearing today 
and are grateful for the opportunity to be invited to testify, 
and that concludes my remarks.
    [The prepared statement of Mr. Snow may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Mr. Snow.
    Mayor.

     STATEMENT OF PHILLIP BIMSTEIN, MAYOR, SPRINGDALE, UTAH

    Mr. Bimstein. Thank you.
    How is my mike?
    Thank you, Chairman Hansen and Chairman Duncan and 
Congressman Ensign.
    I am Phillip Bimstein, the Mayor of Springdale, which is 
adjacent to Zion National Park. Thank you for the opportunity 
to speak, and thank you for listening to the testimony of a 
gateway community which sits at the entrance to a national 
park, a community in the direct line of flight of the airplanes 
and air tours you are considering here today.
    Please hear our testimony as an example of the many other 
communities who are the most affected by these deliberations, 
for we are the people who must live with the impacts of these 
flights should you allow them. We appreciate the opportunity to 
let you and Congress know when an airplane flies over our homes 
what we see, hear, and feel.
    Let me begin by telling you about an incident at our school 
two years ago. Della Higley, born in 1914 on land which is now 
Zion National Park, was speaking to our children in celebration 
of our state centennial. Wearing a pioneer dress and bonnet, 
Della was telling our children what it was like growing up here 
in a simpler time when things were quiet and peaceful, and then 
all of a sudden there was an earthshaking boom which rattled 
the walls of the school. It startled Della and frightened the 
children. They dove under their chairs afraid it was an 
earthquake, but it was only a sonic boom.
    It took a while for Della to catch her breath and collect 
her thoughts before she could resume her story about the way it 
used to be.
    Unfortunately this is not an unusual occurrence in 
Springdale. The booms and roars, the insistent drones and 
whines of airplane engines as they echo in our canyon are 
becoming louder and more common every day. Della Higley told me 
she has always been against airplanes flying overhead in the 
park.
    Last week I went back to our school and asked the kids how 
they feel about the various aircraft flying over Springdale, 
big planes, small planes, helicopters, and commercial air 
tours. Here is what they said.
    Chelsea, age 11: ``When I go on hikes, I do it to get away 
from noises, and when a plane goes over it ruins my whole 
day.''
    Sara, fourth grade: ``When I climb the mountains, I like 
the sound of the wildlife, but when a plane flies over, it 
breaks the silence, and I think no planes should fly over Zion 
because I want Springdale and Zion to stay the way it is.''
    James in fourth grade: ``When planes fly over, they make 
small towns into big cities.''
    Jerry, age ten: ``I like it when it's quiet. I like it when 
it's peaceful. Airplanes should be outlawed in Zion and 
Springdale.''
    And finally, listen to the words of Becky, a fifth grade. 
``If there's a tour helicopter and you're in it, you're 
thinking how great it is, but you should think about what if 
you were down there and you were looking at an animal. When a 
tour plane comes over, it scares away the animal. Think about 
what you are doing to other people when you go on a tour plane. 
It could ruin someone's whole day. It is peaceful when there 
are no planes. I hope we can stop the planes.''
    Our children speak unequivocally and with great insight, 
and with your permission, I would like to submit their comments 
and drawings as a part of the record.
    On this issue, our community speaks with one voice. We are 
united in our opposition to overflights above Zion National 
Park and our feelings are strong. Our zoning ordinances 
prohibit landing strips, airports, and heliports. We have 
joined with our neighboring communities who oppose them 
anywhere in the vicinity.
    Our town has twice asked the FAA to ban park overflights.
    I am also speaking today for the Zion Canyon Chamber of 
Commerce, who unanimously passed a resolution opposing 
overflights because their customers, the annual two and a half 
million visitors to Zion National Park, are deeply offended by 
them. Overflights may drive their business away.
    We work hard to provide our visitors with a good meal, a 
warm bed, and a quiet time they need to relax and enjoy their 
experience in Zion. Don't take that quiet away from us and from 
them. It is an integral part of the high quality experience our 
visitors deserve and expect.
    The noise and sight of airplanes cheapens their visit and 
damages our economy, which supports our local families. It also 
degrades our own quality of life.
    And I would like to add I have heard comments about 25 or 
70 complaints from the visitors to Grand Canyon. We received 25 
complaints from the Springdale citizens alone each year, but 
they do not take the time to write letters or fill out forms, 
and I think that we need to recognize that there are many 
larger numbers of people who would like to complain about these 
overflights, but they just do not know the process to do so.
    It has been argued that air tours are environmentally 
sensitive, but they are undoubtedly the most insensitive way to 
see the national parks because they assault the senses of 
everybody else who is not on the planes, the hundreds and 
thousands who must see and hear them.
    As our school children wisely said, just one plane ruins 
everybody else's day. It intrudes. It breaks the silence like a 
bull in a china shop, and all of us on the ground, especially 
we who live under its path, we have no choice. Our ears are 
held hostage by the racket of its engine, our day in the park 
shattered by the noise like a fly by shooting.
    So I ask you: keep your ears to the ground, to what the 
people are saying, and when you make your decisions, know that 
our ears are tuned wide open. We will be listening, and the 
seven million annual on the ground visitors to national parks 
will be listening, and we will hear you loud and clear.
    Thank you.
    [The prepared statement of Mr. Bimstein may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mayor.
    Jeri Ledbetter from Sierra Club.

  STATEMENT OF JERI LEDBETTER, SOUTHWEST FIELD OFFICE, SIERRA 
                              CLUB

    Ms. Ledbetter. Thank you.
    As a river guide, as well as a----
    Mr. Hansen. Just pull it close to you, please.
    Ms. Ledbetter. I will.
    Mr. Hansen. Thank you.
    Ms. Ledbetter. A river guide, as well as an aircraft owner 
and a pilot, I have been actively involved with the issue of 
aircraft noise over national parks for nearly 10 years. As a 
past President of Grand Canyon River Guides, I focused on our 
worse example, Grand Canyon National Park. I have never been 
compensated for this work.
    I provide testimony because I am profoundly concerned about 
a cherished resource, natural quiet, whose steady deterioration 
I have witnessed over the years.
    Over the last 3 months, I have spent 55 days in Grand 
Canyon. I would not be here if there were not a problem. I have 
flown over the canyon, as well. Although there is room for many 
types of visitation, we must strike a better balance, and we 
must see to it that what has happened in Grand Canyon is not 
allowed to occur in other national parks. There should be 
places in the world where one may go to escape the ever 
increasing clamor of technology.
    When I was a child, I visited Grand Canyon, and it was such 
a place, a quiet and serene sanctuary, and it is no more.
    With the Overflights Act, Congress sent a clear and 
visionary message. The Grand Canyon is a unique treasure worthy 
of protection, and that natural quiet is a resource to be 
valued. Yet with no limit to the number of flights and a lot of 
foot dragging by the FAA, the problem remains far from solved. 
In fact, the noise has reached an unacceptable level.
    No one form of visitation should be allowed to become so 
pervasive that it impacts all others, as is the case with air 
tours in Grand Canyon. Granted more than 800,000 people visit 
the canyon by air each year compared to a relatively few on the 
back country trails or on the river, but there is a reason 
there is so few, and it is not lack of demand. The National 
Park Service strictly limits the number of visitors by foot, 
mule, or boat in spite of demand and in spite of the profits 
that could be made. The goal is protection of both the resource 
and the visitor experience.
    Permits for most back country trails must be obtained 
months in advance, commercial river trips a year or more. 
Rafters may wait 10 years to obtain a private permit in Grand 
Canyon on the Colorado.
    Such restrictions are necessary and consistent with the 
National Park Service's mandate to protect the resource, and 
they have become increasingly necessary at other national 
parks. Calling for limits, why should air tourists be the sole 
exception? Calling for limits on the number of air tours is not 
elitist, nor is it unreasonable. Such action is consistent with 
the goals of the National Park Service, as well as the 
Overflights Act.
    The FAA, however, has not received this message. They cast 
aside most of the National Park Service's recommendation not on 
the basis of safety, but purely to protect the economic 
interests of the air tour industry. The rule now delayed yet 
again still falls far short of the goal.
    In 1986 and in every step of the way, the air tour industry 
claimed that the imposition of flight rules would drive them 
out of business. To the contrary, their business flourished 
compounding the noise problem and necessitating a revision of 
the flight rules.
    For those who argue that an air tour has no lasting impact, 
I ask at what point they are willing to cease operations. Ten 
years, 20 years? If they never plan to stop, then how can they 
say that their impact is not as permanent as a footprint?
    There have actually been quite a few complaints about 
aircraft noise in Grand Canyon. They just have not been 
addressed to the Park Service. The FAA controls the air space 
and has received many complaints about aircraft noise during 
this long and frustrating rulemaking process.
    Some claim that air tours are the only way the disabled and 
elderly can see Grand Canyon, yet no part of this rule would 
preclude anyone from taking an air tour.
    I would also like to offer another view of that. I was 
privileged to carry a disabled man through Grand Canyon in my 
wooden boat on a 16-day trip through Grand Canyon. When the 
issue of access came up, he said he was tired of being told 
what he cannot do.
    To their credit, many have tested their limits and 
discovered just how much they can accomplish. We see the 
elderly and the disabled on the river in greater numbers every 
year, and I find that inspirational.
    Change comes hard, but in our national parks different 
rules apply than those to which the air tour industry and the 
FAA are accustomed. Economic interests must take a back seat to 
resource protection. Operating within our national parks, for 
profit is a privilege, not a right.
    These are difficult concepts for some, as evidenced by some 
tour operators' outright refusal to pay airspace fees mandated 
by Congress. Some significantly under reported the number of 
operations, which caused glaring inaccuracies in the computer 
model and wasted a huge amount of time.
    This shows a contempt for Congress, for the NPS, and for 
the Grand Canyon over which they fly for profit. Yet the FAA 
accepts this with a shrug, proposing to increase the number of 
aircraft allowed to fly over Grand Canyon by almost double. It 
is not a cap if the number doubles.
    We must develop a national policy to protect our national 
parks and wilderness areas from the intrusion of aircraft 
noise. The NPS, not the FAA, should determine whether or not 
air tours are appropriate in individual park units, such as 
Rocky Mountain.
    If we learn nothing more from Grand Canyon, we should 
realize that there is no better time to ban air tours than 
before they begin. Once they begin they are very difficult to 
control.
    Therefore, this national policy should impose an immediate 
moratorium on any new air tour operations throughout the 
national park system. There should be no air tour operations 
over wilderness areas.
    The national policy should direct the FAA to focus purely 
on safety, leaving resource decisions to the National Park 
Service.
    I spend weeks at a time rowing boats through the Grand 
Canyon. Ninety percent of the river corridor is flat water. 
Also 90 percent of the river corridor is unprotected by flight 
free zones. I hear a lot of aircraft coming out of Tucson, but 
I must say that I hear a lot more, I think, coming out of Las 
Vegas, to answer your previous question, just because those 
corridors are right over the river for long periods of time.
    And also somebody asked a question about helicopters versus 
aircraft. I think that was you, and I would answer that 
question that helicopters are a lot more obnoxious. People 
notice them more, and a helicopter going over makes them--gets 
their attention a lot more.
    We spend very little time in rapids. Most of the time we 
flow through quiet stretches of river or explore narrow, 
secluded side canyons. In those areas, the ambient natural 
sounds are astonishingly low. The sounds of the river and the 
canyon are an important part of that experience.
    We quietly listen to the call of the canyon wren, the 
trickle of a small stream, a light breeze through a cottonwood, 
the murmur of the river, or the frustrated shriek of a falcon 
who just missed his lunch. These experiences are violated and 
Grand Canyon cheapened by the increasing onslaught of 
mechanized sound from the air.
    Thank you.
    [The prepared statement of Ms. Ledbetter may be found at 
end of hearing.]
    Mr. Hansen. Thank you very much.
    The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Mr. Snow, would most of your group agree with 
Mayor Bimstein that the air tours should just be banned 
entirely?
    Mr. Snow. No, we do not propose that they be banned 
entirely. We do believe that they have a huge impact on gateway 
communities, as well as the national parks themselves. We just 
think the regulations that are in place need to be enforced, 
and that they need to go further than they do at this time.
    Mr. Duncan. Do you think that they should be basically 
stopped at the level they are now?
    Mr. Snow. I do not know that I can comment for our group in 
particular on that point, but we just think more regulation 
needs to be done. There needs to be caps put in place. Ten 
years ago they talked about caps. The flights, at least in the 
case of Grand Canyon, have now more than doubled, from 40,000 
to 90,000. We think if we do not seriously look at caps we are 
going to be doubling it again in the next five to 10 years.
    Mr. Duncan. I assume that your group wants as many people 
to see the Grand Canyon as possible, and yet, you know, 
obviously this is a popular way to see the Grand Canyon, and I 
would assume that it is not just the elderly and disabled, but 
many, many people who just have a short amount of time.
    Mr. Snow. Certainly.
    Mr. Duncan. And yet they say almost 20 percent of the five 
million. So it is getting close to a million people are seeing 
the Grand Canyon in this way. You want those people to see the 
Grand Canyon, right?
    Mr. Snow. Well, certainly it is a wonderful place to visit. 
We think, however, as with all visits in the park, especially 
in a park like Grand Canyon where there is such an impact, 
Grand Canyon, Yosemite, there has to be management of the 
visitors in some way or you erode the experience for everyone 
who comes.
    Mr. Duncan. Then I assume that you disagree with Mr. Atkin 
from Skywest who testified that he feels the air tours are the 
lowest impact way of seeing the Grand Canyon. In other words, 
he feels air passengers do less damage than any other tourist 
in the park.
    Mr. Snow. Well, Jerry and I are very good friends.
    Mr. Duncan. Cause less strain on the resource.
    Mr. Snow. But I would disagree that it is a low impact 
visit. It is not a low impact experience. There is impact.
    Now, I do applaud Scenic Airlines, in particular, for their 
use of the quiet aircraft technology. That has gone a long way 
in helping with the problem, and I hope that there can--and I 
agree with Jerry in the fact that there needs to be incentives 
given to those who are moving to the quiet technology. They 
should be rewarded because it is lowering the impact, but it 
still is an impact. It is clearly an impact on other visitors 
to the park.
    Mr. Duncan. Mayor Bimstein, even if in future years 
technology advances to such an extent that these aircraft fly 
very, very quietly, would you still object at that point?
    Mr. Bimstein. Well, if they were so quiet that you could 
not hear them, then of course that would remove our objection 
to the sound, but there is still the visual impact.
    Mr. Duncan. That is what I am wondering. You would still 
object even with the visual?
    Mr. Bimstein. Well, I, of course, would not want to deprive 
these people that you are mentioning of a chance to see the 
park, but I do question how much of the park experience they 
can truly have, people who have this so-called limited time.
    You do not really experience national parks unless you give 
them some time, unless you get down on the ground in the park 
and spend some time there, and I think that just to fly over 
and see it in an hour or two is not much better than seeing it 
in a Cinamax movie or something like that, which is fine. There 
is nothing wrong with that, but I think that to truly 
experience the park, you need to be on the ground.
    Mr. Duncan. Ms. Ledbetter, I think I understood you to say 
that you feel the FAA's primary emphasis should be on safety. 
Yet the National Transportation Safety Board, you know, a year 
ago said if they restrict airspace further for these flights, 
that it is going to create a very dangerous situation, and that 
was backed up by the gentleman who heads up the Las Vegas 
airport and the video that he showed.
    Ms. Ledbetter. Well, in that I would agree with the air 
tour industry and the FAA that there are too many flights.
    Mr. Duncan. Well, but if you want to restrict the flights, 
if you want to stop flights over the wilderness areas, I assume 
that you are wanting to restrict those flights further to that 
smaller air space that they have been talking about, and that 
would create a much more dangerous situation according to the 
aviation experts that we have heard from.
    Ms. Ledbetter. There should be no new operations over 
wilderness areas, and we should absolutely limit the number of 
operations over wilderness areas, not necessarily--I mean if 
there are too many flights, then you limit the number of 
flights. If there are so many flights that it is dangerous, 
then we should set a limit.
    Mr. Duncan. If you had the chance, would you ban all of the 
flights like Mayor Bimstein?
    Ms. Ledbetter. Over certain national parks, I think it is 
very appropriate.
    Mr. Duncan. Over the 277 miles of the Grand Canyon?
    Ms. Ledbetter. I think at this point that that would be 
unrealistic.
    Mr. Duncan. All right. Thank you very much.
    Mr. Hansen. The gentleman from Nevada, Mr. Ensign.
    Mr. Ensign. Thank you, Mr. Chairman.
    One of the things that I found interesting about some of 
your testimonies, Mayor, you talked about the impact on, you 
know, your Chamber of Commences, and, Jerry, you talked about 
the impact on your business and the people, you know, floating 
down the river.
    In a lot of this, as a matter of fact, we talked about a 
lot of this on even limiting the number of people. You talked 
about going into the back country. The Park Service does that. 
You really are trying to balance interests in a lot of this. It 
is how do we preserve, you know, the most wonderful experience 
that we can at these national parks for the most people, and 
protecting these places for future generations certainly has to 
be an overriding goal I think that all of us share.
    But it is where the rubber meets the road, so to speak, is 
when we determine whose balance are we looking at.
    This term ``natural quiet'' that has been talked a lot 
about, you know, today, and as a matter of fact, Mr. Snow, in 
your testimony you said there is no one definition that is 
going to satisfy everybody or hardly anybody really because 
what is natural?
    Your trips down the Colorado River with people in them, you 
know, that's an intrusion of mankind. So that is not natural. 
Just their conversations, just their, you know, gleeful 
enjoying, talking, and things like that, for somebody sitting 
on the side of the river when your rafts come floating by, you 
are disturbing their visual. You talked about the visual of the 
aircraft flying over. Well, those rafts are intruding on 
somebody's natural experience because those rafts are manmade, 
just like an aircraft is manmade, even if it is completely 
silent.
    So now somebody floating down in a raft is disturbing 
somebody else's natural experience because that is not natural. 
That is manmade.
    And so the point that I am making is that you are talking 
about relative terms here. You are talking about somebody's 
definition of ``natural.'' You are talking about somebody's 
definition of what is, you know, a wonderful experience at 
these parks because for some people certainly the rafts are 
going to disturb their experience. For some people maybe a 
trail of pack horses or mules is going to disturb their, quote, 
natural experience. To other people that may be acceptable 
because that is what happened 200 years ago.
    You talked about these children having their whole day 
ruined because they saw an airplane. You know, my son's day is 
made when he sees a train because he loves trains. Now, that is 
what I am saying. It is based on your own definition, and that 
is intolerant, and while I agree and I think it is very, very 
important that we protect as much as we can the sereneness--
listen. I grew up in Lake Tahoe. There is no place more 
beautiful in the world to me than Lake Tahoe, and I loved going 
up in the mountains and sitting on rocks and just like you 
said, hearing the rustling of the pines just blowing through, 
and that was the only sound that I could hear, and I just 
absolutely love those experiences.
    Our national park systems are not like that anymore. As a 
matter of fact, probably the last place you would want to go if 
you want to have serene quiet is our natural park system 
because of the number of visitors.
    But we are talking about balance here. We are talking about 
the balance between people who want to see it and maybe their 
value of seeing a national park system.
    You said you have to go there and spend time on the ground. 
Well, that is your definition. Maybe to them they really 
experience that national park in that airplane, and that may be 
something that is wonderful to them and something they never 
thought they would get to experience. To me that would not be 
acceptable as the only way that I could experience it, but that 
is me and that is you, but to somebody else, they may just 
think it's a wonderful experience.
    I happen to love river rafting. I think it is one of the 
most enjoyable things that there is, and I do not want them to 
ban river rafts, but I also know that in the Colorado River one 
of the most disturbing things is when people get dropped down 
for river rafting on airplanes.
    Ms. Ledbetter. I must agree.
    Mr. Ensign. They come right down in it though.
    Ms. Ledbetter. Yes, they do.
    Mr. Ensign. OK. Well, that is certainly disturbing natural 
quiet, and that is disturbing somebody's experience possibly.
    Ms. Ledbetter. I have argued against those.
    Mr. Ensign. But what I am saying is if we want to get to 
truly natural quiet, we would ban mankind from the national 
parks, and then no one would be able to enjoy them. That is one 
extreme.
    The other extreme is to let everybody in, to let as many 
air tour operators go, to let as many rafters go, and all of 
that, and that certainly would ruin our national parks.
    Ms. Ledbetter. Could I point out if you are talking about 
balance though, these air tours are vigorously marketed. The 
number of people who can go down the river every year is 
strictly limited. The number of air tour operations have been 
vigorously marketed over the years. That is not this huge 
demand. When you market that vigorously, you increase the 
number of people who sign up, but it does not necessarily mean 
that that many people passionately want to see Grand Canyon by 
air.
    Mr. Ensign. Well, and I think you were hearing at least the 
Scenic Airlines people talk about that maybe we are getting to 
where that has to be part of the mixture.
    All I am saying is because the National Park Service even 
talked about this when they were up here, that these are what 
we are going to propose now, you know, some of these things now 
to limit.
    I guess my question maybe to each one of you on the panel: 
what is acceptable? How many flights are acceptable? Let's just 
use the Grand Canyon. I know we are supposed to be talking 
about this generically, but how many flights are acceptable 
over the Grand Canyon?
    In other words, we are going to sit down and we are going 
to compromise because the only way you are going to do this is 
through compromise. What is acceptable to maybe the different 
groups that are here? How many flights a day?
    Ms. Ledbetter. The number of flights in 1987 was deemed 
inappropriate. That is why the Overflights Act was passed in 
the first place.
    Mr. Ensign. By whom deemed them inappropriate?
    Ms. Ledbetter. By Congress.
    Mr. Ensign. OK. So is Congress----
    Ms. Ledbetter. That is why they passed the Overflights Act, 
was because the amount of noise was deemed inappropriate.
    Mr. Ensign. And so I am asking you though: how many flights 
a day or how many flights per year?
    Ms. Ledbetter. I would say if you want to look at the 
number----
    Mr. Ensign. In other words, what they proposed, is that 
acceptable or do we need to go farther than that?
    Ms. Ledbetter. I would say pre-1987 levels because that 
number was already too many.
    Mr. Ensign. Pre-1987.
    Ms. Ledbetter. Yes.
    Mr. Ensign. So 1986 is OK.
    Ms. Ledbetter. Not necessarily, but I think that that is a 
good place to start.
    Mr. Ensign. What I am saying is: has the Sierra Club sat 
down and said, ``This is what we think would be acceptable''? 
In other words, if we get to one point, are we there or have we 
got to go farther?
    Ms. Ledbetter. I do not think that you can say that a 
certain number of flights a day is acceptable or unacceptable. 
You know, we have been involved in this process for a long 
period of time. What we have now is definitely unacceptable.
    Mr. Ensign. To you, not to some other people.
    Ms. Ledbetter. Well, you asked the question.
    Mr. Ensign. Anybody else care to take a stab at that? I 
mean what is acceptable?
    Mr. Voorhees. The law says that 50 percent of the park 
should be quiet 75 percent of the day. I think that it would be 
inappropriate for me to say----
    Mr. Ensign. You said the law says.
    Mr. Voorhees. Yes, the 1987 Overflights Act or--excuse me--
it is the agency's interpretation of the law of what exactly 
constitutes natural quiet.
    I think that it would be inappropriate for me to say, you 
know, how many specifically flights does that allow for. This 
is certainly a dynamic question.
    Mr. Ensign. OK. Let's take it from a different perspective. 
How would you determine when we have reached a level? Would you 
do it by surveys? Would you do it by visitor complaints? Would 
you do it? In other words, at what level and who would 
determine that? At what level and who would determine when we 
have reached where the park is now acceptable?
    Mr. Snow. I would turn it over, Congressman, to the experts 
that the government has hired to manage the resource, and that 
is the National Park Service. The one anomaly in their 
management is that they do not have jurisdiction over the skies 
because it is given to our national policing agency for the 
skies. We believe, however, that the FAA does not balance all 
of the management issues that need to be balanced when it comes 
to national parks. The National Park Service should have 
greater input in that process.
    Mr. Ensign. And what if you had a Director of the Grand 
Canyon National Park that maybe did not see it your way, that 
maybe thought, gee, I think we can increase the number of 
flights? That seems to me an acceptable level here.
    Mr. Snow. Well, there would at least be a process, an input 
from the Park Service that would be required to be listened to 
by the FAA, and I know there is a voluntary and, as they have 
represented here today, there is a cooperation. We just think 
there needs to be a little bit more teeth to----
    Mr. Ensign. What I am saying is: what criteria should the 
Park Service use to determine whether or not they are getting 
to the policy they want to get it?
    Mr. Snow. I do not know what their exact policy and what 
analysis----
    Mr. Ensign. No, I am asking any of you if you think or if 
you have any suggestions for the Park Service because they did 
not have any criteria. I asked them today. They do not have 
criteria.
    In other words, if we want to get to a certain point, how 
do we know when we are there?
    Mr. Snow. But they already manage many aspects. They have 
had experience in managing the river. There is a restriction on 
the number of river runners that are allowed to go on 
commercial tours through the river each year. There are 
restrictions on back country impact.
    They already have experience in managing them, and I think 
their voice ought to be listened to a little bit more in the 
final decision.
    Mr. Ensign. I was asking for your all's voices. You all are 
very involved in this process, and I do not think that you 
would just trust the National Park Service to make the 
decisions without your input. I was just asking for your input 
on what you would advise the National Park Service to do as far 
as the criteria that they should set and how do they measure 
it.
    Ms. Ledbetter. OK. I will try.
    Mr. Ensign. OK.
    Ms. Ledbetter. There should be some places where you can 
spend absolutely all day and not hear mechanized sound.
    Mr. Ensign. OK. How much? How much?
    Ms. Ledbetter. All day, I mean days on end.
    Mr. Ensign. No, no, how much of the park? How much of the 
park?
    Ms. Ledbetter. Wherever you are.
    Mr. Ensign. Wherever what?
    Ms. Ledbetter. I mean there have----
    Mr. Ensign. No, no, no. I mean what percentage of the park 
should be?
    Ms. Ledbetter. It depends on how much you cover in a day. 
There should be places, extensive places where you can go and 
not hear mechanized noise. It is really, really important. It 
is the heart and soul of a wilderness experience.
    And so a flight or two a day is not acceptable for that 
experience, not even one.
    Mr. Ensign. But it is acceptable to have rafts and people 
and all that and horses, pack horses and things. That is 
acceptable.
    Is that--thank you, Mr. Chairman.
    Ms. Ledbetter. That was not the question.
    Mr. Hansen. Mr. Duncan is going to run out of time, and I 
hate to have him not hear this last panel. That may be the 
case, however.
    Let me ask just two quick ones and a very quick response.
    Mr. Voorhees, in 1994, the NPCA called for total 
elimination of aircraft in parks. Is that still the stand of 
the NPCA?
    Mr. Voorhees. No, sir, it is not. I would like to say 
that----
    Mr. Hansen. Bring that mike a little closer please.
    Mr. Voorhees. This question was asked at the hearing on the 
Senate side, and I am proud to say that we are an organization 
which is capable of maturing its opinions. I do not think that 
it is reasonable to say that you can or should ban all flights 
throughout the national park system, period. I think you have 
to have a process for making that decision, where, when, and 
how. I think there needs to be input into that decision, and 
certainly in areas like the Grand Canyon the answer is no. 
There is an industry that has been there since the mid-1920's, 
and it is not reasonable to say that you are just going to come 
in and wipe that out.
    There are, however, a lot of parks which have no industry 
which has expressed itself, and I think it is perfectly 
appropriate to take a more proactive initiative to see that you 
do not develop the same kind of dynamic problem.
    Mr. Hansen. I appreciate your answer.
    Let me ask just one to the mayor here, if I may, please.
    Mr. Bimstein. Sure.
    Mr. Hansen. I would like to submit to all of you some 
questions if that would be all right. We would appreciate that. 
As usual, we run out of time, an we start losing members. So we 
will hurry along here.
    Mayor, in the past when we did the 1987 bill, I helped 
write part of that, and we were all talking about the elevation 
above the highest point was the criteria we developed.
    Also we did a decibel check on a lot of things, actually 
put people there and did a decibel check, and we did that in 
other parks. I have been on this Park Committee for 17 years 
now, chaired it the last two terms, and have you ever done a 
decibel check on a motorcycle going down Main Street of 
Springdale?
    Mr. Bimstein. No, but I know that they are very loud and 
probably louder than many of the planes that fly by.
    Mr. Hansen. Probably. We found that they were almost three 
times as loud as a Cessna 185 or 172, 182.
    What about a truck? Have you ever done one on a truck?
    Mr. Bimstein. I have not, but I agree with you that they 
are----
    Mr. Hansen. A car, you have never checked those out?
    Mr. Bimstein. No, I have not checked those out, but I agree 
with you that they are very loud and obnoxious, and it does not 
change our objection to the sound of the airplanes.
    Mr. Hansen. I will not argue that point. I would agree with 
you. There probably are some things that you find 
reprehensible, but I was just curious if you had done that 
because that is some of the criteria that we can come to grips 
with.
    Mr. Bimstein. Well, I should say I have not done it. I do 
not know that the park has not.
    Mr. Hansen. I would be curious to know if anything like 
that has occurred.
    Basically some aircraft are relatively quiet. As you point 
out, there may be things you do not like. I had an attorney 
from L.A. say he was going to sue me because I was Chairman of 
the Park Committee because he was down at Phantom Ranch, and he 
saw a condensation trail.
    Well, I don't know how we would ever be willing to make 
those--it would be very difficult to do that--commercial 
aircraft flying between, say, 31 and 45,000 feet.
    I would like to ask you more questions, but we are running 
out of time. I thank all four of you. Thank you so much for 
your testimony. We appreciate your being here, and we will turn 
to our panel.
    Our last panel consists of Robin T. Harrison, President of 
Murphy & Harrison; Voneta Stocker of Las Vegas; Deloy Giles of 
Rigby, Idaho; Frank L. Jensen, President of the Helicopter 
Association International; Ron Swanda, Vice President of 
Operations, General Aviation Manufacturers Association; and 
John Sullivan, Chairman of the Grand Canyon Air Tour Council.
    Can we line you folks up here? I appreciate you all being 
here. Thanks so much for being here, and we will start on this 
end with Mr. Harrison, and we would really appreciate your 
staying within your time, and I apologize, but we are running 
out of time, and I do not want you to talk to a blank wall up 
here, and we want your testimony. Besides that, if you 
abbreviate your testimony it would be helpful, but give us your 
testimony because we will go over it in detail. I and the staff 
and others will look at this.
    So, Mr. Harrison, we will turn to you, sir.

   STATEMENT OF ROBIN T. HARRISON, P.E., PRESIDENT, MURPHY & 
                         HARRISON, INC.

    Mr. Harrison. Chairman Hansen, Chairman Duncan, Mr. Ensign, 
it is going to be difficult to summarize 20 years of scientific 
work in 5 minutes, but you are at least as formidable as the 
Court of Appeals, and they make me stay with 5 minutes. I will 
stay with 5 minutes.
    I appear before you today as a private citizen and fellow 
repentant pilot, having done my indiscretion in the canyon in a 
Starduster, a good bit of it upside down I am ashamed to admit. 
I am affiliated with no group that has a stake in the aircraft 
overflight controversy, although I have been a paid consultant 
to the Air Tour Association, and while a government employee, I 
was a paid consultant to the National Park Service in the 
development of their report to Congress in response to Public 
Law 100-91 that has been referred to here.
    I am the guy, along with my co-authors, Roger Clark and 
George Stankey, who first published the idea that natural quiet 
was a resource in its own right, deserving the same kind of 
attention and protection as other better recognized wilderness 
values.
    This work started in 1995. Natural quiet was ill defined 
then, and it remains ill defined now.
    Chairman Hansen's comments re. the definition of natural 
quiet are very well taken. It is clear from the testimony of 
the Park Service representatives here that the Park Service 
still has no handle on the definition of natural quiet.
    Mr. Ensign's insistence on objective measurements of 
economic factors is very encouraging. It would be fine if such 
objectivity were applied to the definition of natural quiet.
    Now, it is not for lack of trying that we still do not have 
a widely accepted definition of natural quiet. As with all 
other important issues, this issue has become polarized. The 
polarization of which I speak is not that natural and healthy 
tension which arises between those who advocate increased 
responsible use of our public lands and those who would 
decrease or discontinue these uses, but between those who would 
attempt to deal with the land management decisions from a 
scientific point of view and those whose decisionmaking basis 
is colored by emotion and belief.
    In response to Public Law 100-91, the National Park Service 
and the U.S. Forest Service, which I proudly served for nearly 
30 years, were directed to study the effects of aircraft 
overflights on parks and wildernesses. I was the technical 
advisor for acoustics to both of these organizations during the 
preparation of the reports to Congress.
    Mr. Ensign has asked piercing questions with regard to the 
surveys that were taken during the National Park Service's part 
of that report to Congress. As the guy who was there selecting 
the contractors who did the surveys, I can tell you that the 
surveys that the Park Service presents in their report to 
Congress are not scientifically supportable. The surveys seek 
the attitudes of visitors and do not seek the response or 
effects on visitors.
    Now, Congress never defined natural quiet. In an address to 
the Air Tour Association, which I gave a couple of weeks ago 
and which I have submitted to Mr. Hall for inclusion in the 
record, with your permission, I have outlined how I would 
define natural quiet in a scientifically defensible and visitor 
considering manner.
    Now it is too long to go through right now, and I am 
terrified of the yellow light.
    I have noted an impressive procession of documents from the 
FAA that deal with the special flight rules, starting with the 
draft environmental assessment and proceeding to the most 
recent notice of clarification. I am a designated engineering 
representative. I depend upon the FAA for my livelihood. With 
all due regard to my colleagues at the FAA and in grave risk to 
my children's college education, I have to say that all of 
these things have badly missed the point.
    The point is that there has never been an acceptable 
scientific definition of natural quiet. The methodologies that 
the FAA and the Park Service have selected to assess the 
restoration of natural quiet do not make scientific sense. They 
all fail to consider what I have called self-noise. They are 
based, in essence, upon the judgment of professional listeners 
paid to hear aircraft.
    The issue of the detection of a sound and whether a sound 
is annoying to the listener is an extremely complex one and one 
which has been much studied over the last century. There is, 
however, even in the professional community that deals with 
this, considerable disagreement about how the annoyance caused 
by sound should be measured. All professionals agree that the 
most important effect of an intrusive sound, otherwise known as 
noise, in a nonoccupational setting, in other words, Grand 
Canyon, is annoyance. All agree that sounds not actively 
detected by the listener can cause no annoyance.
    The detection or perception of a sound is a function of not 
just how loud the airplane noise is at the listener's ear, but 
also, among other factors, how loud the background is at the 
listener's ear, and the background at the listener's ear must 
include the noise generated by the listener himself. This noise 
serves to mask the intrusive sound.
    If you have trouble sleeping, I will recommend a couple of 
mathematical texts on this issue. It is a very arcane and 
difficult issue, but it is one which is scientifically well 
established and which has been completely ignored by both the 
FAA and the National Park Service.
    Acousticians who work in this area of human annoyance will 
all agree, however, that the number of spontaneous, unsolicited 
complaints officially lodged is tightly correlated to the 
actual annoyance suffered by the population in general in any 
given intrusive noise situation. Mr. Ensign has discussed the 
complaint history with regard to aircraft sound at Grand 
Canyon. All I think I need to say is that the minuscule number 
of complaints actually received by the Park Service in those 
timeframes when complaints were not being actively solicited 
should indicate my point.
    Finally, let me speak very briefly to S. 268. As I read it, 
it seems to call for another study. I respectfully submit that 
another study is not useful.
    Further, the very language of the bill is highly 
inflammatory. I cannot imagine that Congress would agree that 
aircraft operations can raise serious concerns regarding public 
safety, including the safety of park users. This seems to me to 
be a cheap shot, tying the tragic accidents that have occurred 
in Grand Canyon somehow to this noise issue.
    At one of the sections of the bill, 3(b)(1)(A), a real 
cheap shot is found when the bill states that the Secretary 
shall submit to the Administrator recommendations regarding 
actions necessary to protect the public health and safety from 
any adverse effects associated with aircraft overflights. As I 
read this, they are trying to tie in some kind of hearing 
health considerations. This language sounds just like the EPA 
Organic Act, if you could call it that, where they were talking 
about the public health and safety from noise.
    There is simply no health concern with regard to any 
aircraft noise in any national park, except perhaps for the 
pilots or mechanics.
    As you might have noted and as I mentioned, I am a DER with 
the FAA. This means I am, in essence, an unpaid employee of the 
Federal Aviation Administration. I spend a good part of my life 
in heated argument with my colleagues there, and I have been 
rudely unkind, particularly to the FAA noise professionals, but 
let me say that I am in substantial awe of the FAA's technical 
and managerial expertise.
    S. 268, as I read it, cedes control of the airspace over 
the national parks to the Park Service, and I could not imagine 
a greater disaster for either the park or the aviation 
industry.
    I have submitted through Mr. Hall a number of materials 
which I ask that the Committee attach as part of my testimony, 
including the Forest Service report to Congress, which seems to 
have been much ignored during these considerations. The bottom 
line of the Forest Service report is that though there are 
local aircraft noise issues in wildernesses, as a general 
system-wide situation, it is not a problem.
    Thank you.
    [The prepared statement of Mr. Harrison may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much.
    Voneta Stocker.

             STATEMENT OF VONETA STOCKER, LAS VEGAS

    Ms. Stocker. Good morning, Mr. Chairman and members of the 
Committee.
    My name is Voneta Wittwer-Stocker, and I live at 14 Page 
Street, Las Vegas, Nevada, and I am also a senior citizen, 
although I do not always like to own up to that. It does apply 
to this situation.
    I have asked that I be able to testify before you as a 
private citizen because I have heard some disturbing news about 
the possibility of the government disallowing flights over our 
national parks. I have read in the newspaper, heard things on 
television, and I try to keep on top of all of these things, 
and this has always been of a great deal of interest to me.
    This particular thing has been very disturbing to me 
because I have had one of the most memorable experiences of my 
life when I flew over the Grand Canyon in a small plane and 
later in a helicopter.
    Although I am not confined to a wheelchair, I can tell you 
that because I have had two open heart surgeries and a back 
operation, I would not be able to see the Grand Canyon any 
other way except by plane. I could never hike, ride a donkey, 
ride a raft or even a car that far.
    The trips that I have had, and especially the helicopter, 
were the most breathtaking, beautiful experiences I have had in 
my life. I knew I lived in the desert most of my life, and I 
have always thought it was beautiful, but seeing it from the 
air, you get a much better view and the colors and the 
formations were just breathtaking.
    This is to me a once in a lifetime experience, and to see 
things this way that could not be seen any other way, by a car 
or even hiking. It is very choice, almost spiritual to me, and 
I am the mother of five children and the grandmother of 14 
grandchildren, and I would like to hope that the day can come 
when they can experience this wonderful opportunity of flying 
over the canyon and seeing it in the way I saw it.
    I can still close my eyes and relive those trips. They were 
very, very exciting to me.
    I want to say in closing that I appreciate you allowing me 
to come here today to express my thoughts on this subject. 
Maybe on the outside it may seem routine and not that big of a 
deal, but in reality, these experiences are once in a lifetime 
chances, and I feel that I would be discriminated against 
because of my age or my health if I was to not be allowed this 
experience of seeing the canyon, and I think that anyone who 
has ever flown over it and got this wonderful view will never 
forget it.
    I've seen it from the rim, but certainly not from an 
airplane like I did these two trips, and I feel very strongly 
about that. There has been a lot of very professional answers 
and questions given here today, but this comes from my heart. 
This is the way I feel, and I am speaking for a group of 
citizens who are not able to do what, say, some young ones can 
do in hiking or riding the donkeys or river rafting.
    But why should we not have the opportunity to see the 
beauty of our national parks?
    Thank you.
    [The prepared statement of Ms. Stocker may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much.
    Mr. Jensen, I turn the time to you, sir.

   STATEMENT OF FRANK L. JENSEN, JR., PRESIDENT, HELICOPTER 
                   ASSOCIATION INTERNATIONAL

    Mr. Jensen. Chairman Hansen and Chairman Duncan, thank you 
very much for holding these hearings and for inviting me to 
testify.
    We in the civil helicopter industry are dedicated to safety 
and reduction of noise not only in the national parks, but 
everywhere. I would like to repeat that air tour operators do 
not touch the park, and they help to protect the parks for 
future generations, and they are among the most environmentally 
friendly vehicles by which to access our national parks.
    It is ironic that the national park leadership and others 
oppose this practical environmental resource.
    Helicopter safety is not and never has been an issue in 
regard to national park overflights. For example, the only 
fatality that has ever occurred in helicopter tours of the 
Grand Canyon National Park was in 1987, when a tour helicopter 
and fixed wing aircraft collided.
    The NTST review of that accident made two findings: No. 1, 
that safety was not an issue on aerial tours of the Grand 
Canyon National Park; and, No. 2, that the National Park 
Service interference in airspace management contributed to this 
tragedy. That is a point that is often overlooked.
    The overall safety record of tour helicopters nationwide is 
quite good, about one accident per 100,000 flying hours.
    As to noise abatement, HAI initiated the Fly Neighborly 
Program in 1982 to reduce helicopter noise through voluntary 
operational measures. We have included some information on the 
Fly Neighborly Program with our written testimony.
    In regard to noise in the national parks, there are many 
sources of manmade noise in the parks. It has been repeated a 
couple of times today that only 26 people out of five million 
visitors to Grand Canyon in 1995 spontaneously, and that is a 
key word, spontaneously complained about seeing or hearing 
aircraft.
    This hardly constitutes a mandate to impose further 
restrictions on aerial tours or to splinter the nation's 
airspace system by delegating to land management agencies any 
control of air traffic over the national parks or elsewhere, 
and yet the National Park Service is busily preparing 
literature and programs to teach visitors to, quote, appreciate 
natural quiet and to be alert for the first sound of tour 
aircraft, and they are using taxpayers' money for this 
duplicity.
    There is an ongoing analysis of National Park Service data 
on air tour overflights of the Grand Canyon. We have 
information from a qualified study group that these government 
studies were biased and misleading due to invalid and 
unscientific assumptions that overstate sound levels and 
detectability.
    When these government errors are corrected, over 95 percent 
of the park will meet the Park Service's own definition of 
natural quiet. Before we distribute this latest analysis, we 
are having an accredited independent group complete a peer 
review so we can stand on good, solid ground.
    Now, while the top echelons of the Park Service are 
actively and vigorously condemning air tours, which fly on 
specified routes above the rim, helicopters working for the 
Park Service make numerous daily flights right down into the 
bottom of the canyon, providing assistance to park rangers in 
performing administrative tasks. These are the helicopters that 
most visitors to the canyon see and hear, not the tour aircraft 
which are flying a mile higher.
    There was a segment on a CBS TV program, ``48 Hours,'' 
titled ``The Grand Canyon: Dangerous and Endangered.'' It spoke 
of 283 helicopter search and rescue missions in one year, and 
these were prolonged missions down in the gullies, down in the 
streams looking for a body, looking for a person; five 
helicopter medevac missions going on at one instant, and five 
hikers being evacuated by helicopters in one day because of 
minor health problems.
    These are appropriate missions for helicopters, and no 
other machines could perform these services. All of these low 
altitude missions are done under Park Service contract or for 
other land management agencies. So let's be fair about 
helicopter noise. Even if all air tours are shut down 
completely, there will still be frequent mission essential 
flights ordered by the Park Service.
    Mr. Chairman, HAI strongly supports aviation safety and 
reduced noise. We encourage availability of quieter aircraft 
and engines, and we cooperate with all who are genuinely 
interested in preserving our national heritage. Our common goal 
must be to balance the competing interests of diverse park 
users.
    We, too, are dedicated to leaving not a moccasin print on 
this earth. In the words of President Teddy Roosevelt, we will 
do nothing to mar the grandeur of our national parks.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Jensen may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Jensen.
    Mr. Swanda.

STATEMENT OF RON SWANDA, VICE PRESIDENT OF OPERATIONS, GENERAL 
               AVIATION MANUFACTURERS ASSOCIATION

    Mr. Swanda. Chairman Hansen, thank you for this opportunity 
to participate today.
    I will be brief, but I do want to add two things that I 
think we as aircraft manufacturers can present to this debate 
that would give you some additional insight in your 
deliberations. No. 1 is quiet technology. No. 2 is more 
elaboration on what it means to have control of the airspace, a 
very important issue, as you have already identified.
    First of all, the FAA study that originally instituted the 
rule on the Grand Canyon was very disappointing to us as 
manufacturers because it had a fundamental misunderstanding of 
the certification levels used in our aircraft. It tried to 
project those certification levels onto operating limits, and 
anyone who flies knows that you can take two pilots with 
identical aircraft and one using different operating techniques 
can fly to a quite different level, often much quieter, than an 
aircraft flown at maximum power at very low altitudes.
    Consequently, it does not make sense to penalize operators 
across the board when they may have quite different operating 
techniques, and it does not make sense to use this 
certification data for the types of analysis the FAA did.
    In fact, the measurement of noise is quite subjective. It's 
called ``Effective Perceived Noise,'' measured in dBs. It is 
adjusted for the frequencies that pilots and people are more 
sensitive to than other frequencies, and in fact, in the Stage 
3 rule that was adopted nationwide only for turbojets, business 
aircraft, for instance, might have a quieter noise level than a 
Stage 3 large aircraft, like a 747. So this is a very difficult 
area to make generalizations in.
    We were also very disappointed in the most recent NPRN 
because it asks for manufacturer comment about quiet technology 
and new certification levels. To be honest with you, we are 
quite puzzled by what this technology is. We have some 
technology today that is available, especially for the props of 
turbo props. These aircraft are the ones that are typically 
used for sightseeing and not on the larger turbojets.
    We are not aware of other technology that is going to make 
a major breakthrough in the sound these aircraft make as they 
fly. So we are quiet puzzled in how this will result in a major 
resolution of this whole issue.
    Control of the airspace is a very important issue to us, 
and as you heard, this issue is more than just the airspace 
that is over the Grand Canyon and other national parks. It 
applies to every community that is impacted by noise. We must 
insure that whatever policy the Congress believes is valid, is 
valid everywhere, and I believe and I hope you believe, that 
the FAA is the best agency to develop that policy because they 
have the technical skill and the experience to do so.
    A slight analogy might help provide some insight to this. 
For instance, if the FAA approached the Park Service and said, 
``We would like to install a major hub airport on the edge of 
one of your national parks,'' I am sure the Park Service would 
probably say, or I hope they would say, ``Let's do a study of 
this and see if it makes sense. Is it, indeed, in the public 
interest? Give us your input. Why did you pick this place 
instead of others? Let's measure the noise impact. Let's 
measure the economic impact. Let's do the cost-benefit 
analysis. Let's do this thoroughly.''
    And then the Park Service and the Park Service alone, 
because they control the ground at that area, would be the sole 
authority to make the final decision. It would not be a joint 
decision between the FAA and the Park Service, although the FAA 
would be required to make their best case. It would be the Park 
Service alone.
    Likewise, we believe it should be the FAA alone that makes 
that final decision on air space issues. That is where you 
sometimes have heard confusion from some of the witnesses. 
Everyone believes that the FAA should administer the airspace, 
but not everyone believes that the FAA should, in fact, set the 
policy and be the sole authority for that airspace. That is 
what we believe is necessary. Otherwise we will have every 
community in this country impacted by noise actually, or by 
perception, come to the Congress or the FAA with different 
noise standards, and it will greatly impact our national 
transportation system.
    We would certainly hope that the FAA would be reasoned and 
factual, make a common sense decision and weigh all of the 
national interests, including those presented by the Park 
Service. I trust that they can do so.
    If we put together a plan where the Park Service has equal 
standing with the FAA, we are, in fact, giving them veto power; 
that the FAA can reach no decision without their approval, and 
I believe that is a big mistake.
    As you heard from Glacier National Park, imagine putting 
together a management plan in Glacier National Park with the 
gentleman that you heard today that said actually no aircraft, 
ever, nohow would be acceptable even if they are absolutely 
quiet. What kind of a decision would that be?
    Our next concern is that if you have to have an approved 
plan before you can start or expand air service. It would be 
very easy for government to just drag that out for the next 50 
years and, in effect, kill any economic benefit to starting 
service. They could never actually get it approved. It would be 
studied forever. We have already seen some abuse of this with 
other environmental laws, and we are concerned that that could 
happen again.
    Once again, I thank you very much for inviting us to 
testify today, and I look forward to any other questions you 
have.
    [The prepared statement of Mr. Swanda may be found at end 
of hearing.]
    Mr. Hansen. Thank you very much.
    Mr. Sullivan.

  STATEMENT OF JOHN SULLIVAN, CHAIRMAN, GRAND CANYON AIR TOUR 
                            COUNCIL

    Mr. Sullivan. I represent the Grand Canyon Air Tour 
Council, a nonprofit organization based in Las Vegas, which 
represents air tour operators. I want to thank you, Chairman 
Hansen, for this opportunity to speak here today concerning the 
question of overflights of national parks.
    I will speak primarily about the situation in the Grand 
Canyon of which I am very familiar.
    I think the Grand Canyon could and should be considered a 
model for other park units where air tours are conducted now or 
where they may be conducted in the future. The present Grand 
Canyon overflight situation is an interesting story of imposing 
new restrictions or solutions to problems that were fixed 10 
years ago. It is an example of pulling the feet out of the jaws 
of victory or making a mountain out of a canyon.
    Ten years ago there were problems in the canyon that needed 
to be addressed. There were safety problems culminating in a 
midair collision between tour aircraft in 1986, and there were 
some environmental impact problems as well.
    As a result, we had the National Overflights Act, which 
resulted in the creation of the SFAR 50-2 airspace system that 
is in place today. This system created a network of air tour 
routes in the Grand Canyon that overfly approximately 16 
percent of park lands. The rest is off limits to air tour 
aircraft.
    This system eliminated below the rim flights and imposed 
additional pilot training requirements on air tour operators. 
So how has it worked?
    The system has been a resounding success in accomplishing 
both goals. On the safety issue, there has never been an 
accident in the SFAR 50-2 system in a decade. The present 
safety record for the Grand Canyon air tour industry is nothing 
less than remarkable, particularly considering the nature of 
this operation and environment, which is relatively low level 
flights over remote and jagged terrain in small airplanes and 
helicopters.
    The present accident rate is better than the commuter 
airline industry nationwide, and is three times better than the 
commercial air taxi industry nationwide. There has not been an 
injury or fatality accident in over 3 years and over half a 
million flight hours.
    On the environmental side, complaints about aircraft have 
declined more than 90 percent since the SFAR system was put in 
place. Today there are about three complaints per month out of 
about five million visitors annually. A visitor survey was 
recently conducted by the National Park Service in the Grand 
Canyon. Despite some obvious biases against aircraft, the 
results indicated that 92 percent of all park visitors reported 
there was no impact from aircraft, not slight or moderate 
impact; none.
    Even the most sensitive back country user groups surveyed, 
those who take nonmotorized float trips down the Colorado 
River, reported no impact by nearly 70 percent of that group.
    As Nevada Governor Bob Miller pointed out recently in a 
letter to the Secretary of Transportation, there are presently 
more complaints about meals in the Grand Canyon than about 
aircraft.
    Anti-aviation persons and groups will come before you today 
and tell you there is no place you can go to escape the noise 
of aircraft in the Grand Canyon. I would never call anyone a 
liar, but let's just say some people are factually challenged. 
I would advise anyone interested in this issue to go and see 
and hear for yourself. The Grand Canyon is just 58 miles south 
of here as the crow flies, about a 20 minute flight in a small 
plane.
    If you do go, you will hear and see that someone is pulling 
your leg about this, quote, unquote, awful problem with 
overflights.
    I was in Senator Harry Reed's office a couple of years ago, 
and I said to Senator Reed that if our aircraft were bothering 
anybody out there, then we would agree additional new 
restrictions would be appropriate. Senator Reed said he had 
just completed a 6-day, 5-night raft trip down the Colorado 
River that took him through the heart and soul of the Grand 
Canyon. During that time he said he heard and saw one aircraft.
    So if we fixed the problem 10 years ago, what is going on 
here? Well, in 1992, we had an election, and a new 
administration went to Washington. Opponents of overflights, 
namely, two environmental groups represented here today, the 
Grand Canyon Trust and the National Parks and Conservation 
Association, and their allies inside government, primarily in 
the Department of the Interior, saw this election as an 
opportunity to finally do in the air tour industry.
    All of a sudden the goal was no longer to protect the 
visitors from the sound of aircraft. We were now also to 
provide a natural quiet experience for the rocks as well. In 
other words, the standard was changed. Natural quiet is no 
longer about visitors at all.
    In 1992, it became the pursuit of quiet for quiet's sake 
even where there are no visitors, which is true in the 16 
percent of the park that we were forced into 10 years ago. It 
appears to those of us who are embroiled in this issue that 
what is needed now is new legislation that clears up some of 
the ambiguities and opportunities for radical interpretations 
that now exist.
    This legislation should address the jurisdictional turf 
fight between the FAA and the Park Service. The FAA must remain 
in control of the airspace over this country, period. To allow 
one land management agency to dictate airspace management will 
invite all land management agencies to do the same. It will 
begin a process of piecemeal dismantling of our national air 
transportation system one park and forest and monument at a 
time, and it will be a disaster for air transportation in this 
country, particularly in the West where there are so many big 
parks and so much public land.
    Secondly, the legislation needs to clarify this natural 
quiet stuff so the agencies will not again run amuck whenever 
there is a change in residence at the White House. Air tours 
should be managed in some parks where a certain volume of 
activity warrants this management, but tour routes and altitude 
restrictions need to be reasonable and based on minimizing the 
impact on park visitors and not this present nonsense of 
protecting quiet for quiet's sake, especially when this means 
the destruction of an important, little industry that has done 
a safe, efficient job providing a quality service to hundreds 
of thousands of people per year, many of whom are unable to 
visit the parks in any other way.
    Thank you again for this opportunity to comment.
    [The prepared statement of Mr. Sullivan may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Sullivan.
    Would you hand the mic over to Mr. Giles, please?
    Mr. Giles, I recognize you, sir.

             STATEMENT OF DELOY GILES, RIGBY, IDAHO

    Mr. Giles. Mr. Hansen, I am not in favor of long meetings, 
and I have rewritten what I had to say. So whatever you have is 
not--yes, I wrote that to begin with, but after hearing all of 
this, I am very concerned.
    I have a deep problem with some of those with the parks and 
recreation after hearing this today. If you deprive the flights 
over the Grand Canyon, I will never see them again. That is all 
it is.
    I have been over it a number of times. I have been down in 
it in a helicopter. It is the greatest thing I have ever done. 
I have to pick and choose.
    I am sorry I cannot go down this lady's raft. I cannot go 
down it, whoever it was that thinks all of these handicapped 
people or older people, older than 60. You know, when we get to 
a certain age, we just cannot do it anymore.
    So that I do not take too long I just want to tell you I 
get upset about hearing no noise. If we did not have any noise, 
can you figure where this country would be? What a sad 
situation.
    I guess the last thing I would like to say, and you can 
read whatever on the papers that are turned in, I feel I did 
not even need to be here today. I felt like you three men, 
Representative Ensign, and you--I keep calling you Mr. Hansen 
because you are a representative of the people, and I feel like 
I need to call you that--and then Mr. Duncan from Tennessee. I 
just feel like you three people already had in your minds that 
there had to be a way to get the disabled and the elderly and 
those that have difficulty in getting to and from some of the 
sights that we have in this land, and the Grand Canyon probably 
being one of the most awesome, that you already had us in mind, 
and I did not even need to come because I think you know that 
we want to go there, too.
    And I thank you very much for listening to all that has 
been said this day and hope that you will--we just cannot stop 
those flights going there.
    Thank you.
    [The prepared statement of Mr. Giles may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Mr. Giles. I appreciate your coming, 
I guess, from Rigby, Idaho, to testify. It is very kind of you 
to be here and all members of this panel.
    I have got about 20 questions for each one of you, but I am 
not going to ask them, but I am going to submit them, and I 
would really appreciate the answers, and we will look forward 
to those. Could I have them by January?
    Because really the conclusion of this whole study that we 
have been talking about, and I do not think anyone has read the 
concluding statement, which I will, says this: ``Because the 
matter is not entirely clear of doubt, Congress should clarify 
the authority of the FAA and the National Park Service to 
implement the national park overflight regulatory system 
recommended by the working group and implement other 
recommendations of the working group that require 
legislation,'' and, frankly, that is what we are talking about 
today.
    This will not be the only hearing we will do on this. We 
will do a hearing in Washington. We will probably do some 
hearings maybe in other areas where we feel it is necessary.
    It is not just because I chair the Committee that we do 
this and this is my district. It is also because, as Mr. Giles 
pointed out, one of the greatest attractions for folks is the 
Grand Canyon, and as we look around the Grand Canyon, there are 
probably more parks in this area, more natural beauty than you 
will find other places.
    Somewhere we will try to come up with a reasonable answer 
to protect the folks who should see it and protect the resource 
at the same time.
    Boy, that is a tough act to do, you know, and let me 
honestly say we will be wrong because I have never, and I have 
been part of so many bills in my nine terms in Congress, and 
you never please anybody. Sometimes that is the criteria of a 
good piece of legislation, that neither side is happy, but we 
will try to do our best to represent the interests of all 
Americans where we can.
    So let me thank all of you, and we will submit questions to 
you. I notice Commissioner Gardner has come in from Washington 
County. You had a comment you wanted to make, Commissioner?
    Mr. Gardner. Just briefly.
    Mr. Hansen. Come on up here and grab a mike, and we will 
just hear from you real briefly if we could.
    Also we have a river runner here who is President of 
Western Rivers who uses helicopter service on a regular basis, 
Mr. Lynn Keller. Would you like to come up and say a word, 
Lynn? We will let you take a minute or two if you would like 
to.
    Mr. Gardner, we turn to you.

  STATEMENT OF ALAN GARDNER, COMMISSIONER, WASHINGTON COUNTY, 
                              UTAH

    Mr. Gardner. Thank you, Congressman.
    I appreciate the opportunity to be here and express my 
thoughts on the fly over.
    My wife and I made our first visit to Bryce Canyon National 
Park this last September, which is a shame, I guess, living in 
this area as long as I have and never been to Bryce, but we 
greatly enjoyed the beauty of inspiration in Bryce points, and 
I was completely unaware of the helicopter as it flew over 
until my wife pointed it out, and while we were down on those 
points, there was another helicopter and another airplane that 
flew over. They moved quickly through the area and with very 
little noise.
    But as we looked off these points, there were a lot of 
trails that went down through the park as well, and there were 
several groups of hikers on these trails, and I do not feel 
that my experience at Bryce was disturbed any more by the air 
traffic than it was by seeing the people walking around down in 
the bottom of the canyon.
    And I have visited Zion National Park many times over the 
years, and I have hiked numerous trails and developed a deep 
appreciation for its beauty. This past spring I had my first 
experience in flying in a helicopter over the northeast part of 
the park as we were monitoring a forest fire. Looking at Zion 
from the ground up is beautiful, but looking into some of the 
canyons from the air is a fascinating, new experience that I 
have never had before.
    And I would agree that there are many senior citizens and 
handicapped individuals and those who do not enjoy hiking who 
visit our national parks, and are they to be denied these 
beauties? It is like going to see the works of a famous 
sculptor and being told when you get there that you have to 
look from a distance and maybe only look at it from one angle, 
that you cannot really appreciate the true sculpture.
    My closing comment would be that if we allow extremists to 
stop the fly overs, we will be back in a short time having 
hearings on whether we should close the trails to hiking as 
well.
    [The prepared statement of Mr. Gardner may be found at end 
of hearing.]
    Mr. Hansen. Well, thank you, Commissioner.
    Mr. Keller, do you want to come up and give us your 
viewpoint from the very bottom of the canyon? This is right at 
the bottom here.
    Pull the microphone over, would you, please?

 STATEMENT OF LYNN KELLER, PRESIDENT, WESTERN RIVER EXPEDITIONS

    Mr. Keller. Thank you, Congressman Hansen.
    I appreciate the opportunity to sit here and give a 
viewpoint from the bottom. I am one of the owners of three of 
Western River Expeditions. I have run rivers in the canyon, 
about 70 trips personally. I have been involved with the 
Colorado River since probably the 1965 period. I ran my first 
trip about then in oar powered boats.
    I have seen the emergence of the river industry since the 
mid-'60's as it has developed. Helicopters came into use 
probably in the early 1970's as a viable way of transporting 
people in and out of the canyon. I have seen the use of the 
helicopter pad that originally Western used, which was above 
Deer Creek about 10 miles at a plateau that was right in the 
middle of the canyon where people fly over above Deer Creek; 
moved down to Lava Falls and consequently over the years was 
moved again to a less noticeable area at Whitmore Wash where we 
now transport people out.
    Our company takes 4,500 people a season down the Grand 
Canyon.
    Mr. Hansen. So you are the biggest river runner on the 
river; is that right?
    Mr. Keller. We are, and we take a 6-day trip ending at 
Whitmore Wash, and those people go out with helicopters, and we 
do an even exchange where another group of people have an 
opportunity to see the canyon in 3 days on the lower 100 miles. 
So we do an even exchange using the helicopter that carries six 
people each trip.
    On a trip I was on there this year, we were able to 
exchange 130 people approximately in 2 hours. During that 
transfer time, we did not see one boat go down the river that 
seemed to be affected by that, either private or commercial, 
during that exchange. So those 130 people were exchanged in 2 
hours. It figures out to be about 20 seconds on an average that 
one person would take being in the park, the actual boundary of 
the park, at that place.
    It is a very low impact area where we take people out. It 
is not a scenic spot. It is 100 miles below Phantom Ranch. It 
is 32 miles below the creek where Habisou flows in, and there 
are no campgrounds particularly where people stay there. So we 
found that to be the best place to take people out.
    Over the years that I have been with Western River, I 
cannot recall ever having a single complaint from our river 
guests about the use of helicopters. We used to use----
    Mr. Hansen. Wait a minute. Wait a minute. You run 4,000 
people a year, and you have never had one complaint, and you 
have been there since 1965?
    Mr. Keller. I do not recall ever having a written or verbal 
complaint.
    Mr. Hansen. Excuse me.
    Mr. Keller. Thank you.
    We cater to all kinds of people, including the disabled. We 
have many, many----
    Mr. Hansen. Could you take Mr. Giles down the river?
    Mr. Keller. I would be happy to do it, and we can.
    Mr. Hansen. No, I mean could you. Can you physically take a 
gentleman in a wheelchair down the river?
    Mr. Keller. Yes, and we do. Our boats are large. They are 
37 feet long, 15 feet wide, motorized boats, and we have taken 
many disabled. In fact, we have even specifically chartered 
disabled trips for people to go in wheelchairs.
    I accompanied one this year. Three years ago in Grand 
Canyon we took a disabled group of people to Phantom Ranch. 
They were children at risk. We caught the trip for the kids, 
and they went out by mule or hiked out. We had blind people. We 
had some that were in wheelchairs, and then we brought adults 
down the last half of the trip, and they went out at Diamond 
Creek.
    But the point is we do cater to people in all walks of 
life, disabled or not. We have people in wheelchairs that come 
on occasion. We have people with heart problems. We have people 
that have problem walking, but the helicopter makes access 
available, and we are very much aware of the Disabilities Act 
of 1990, which the ADA, you know, makes equal access for people 
regardless of their physical disability.
    And so it is an interesting thing to know that we do not 
have any complaints from our guests.
    Mr. Hansen. Let me ask you quickly, and I know you all want 
to get out of here, and so do I, but when we did the 1987 bill, 
the last amendment I put in was to allow helicopters to go take 
people out for emergencies and to land to take people out at 
the end of trips. Some of our members of the Committee feel 
that should be taken out of the law.
    What would that do to your business?
    Mr. Keller. Well, obviously half the people we serve are 
over the age 50. It would create an impact on the lower canyon 
where the six to eight people now would have to transfer. We 
would have to take them all the way through the canyon. It 
would eliminate the opportunity for people who do our lower 3-
day canyon trip, of which we take over 2,000 a year, who do not 
want to spend more than 3 days in the canyon, and I know many 
people try to dictate what a good, true Grand Canyon trip ought 
to be, and many people say 3 days is not enough, but to many 
people 3 days is perfect and especially in the last 100 miles 
where they go.
    And so it would eliminate a good segment of that public who 
will not go back and do a 6-day trip because of the length of 
time and because of some other reason. So it would probably 
affect 38 percent of our business or 38 percent of our people 
who would choose to do a lower canyon trip now, who would not 
have that available to them, and who knows what other 
percentage it would be of the 6-day people who come because 
they have the opportunity to go out by helicopter, which is 
very quick? It is a total of a 10-minute ride out of the 
canyon, and they are only in the Grand Canyon park about one 
minute of that time.
    Mr. Hansen. Well, we will wind this hearing up.
    I think the thing that disturbed me the most, and you folks 
on the ground knew, was the idea that there was no criteria for 
the superintendent of the park to determine. That was not laid 
out in this, and that kind of bothers me a little bit. I think 
maybe we should lay that out.
    I think it is unfair to the superintendent, and I think it 
is unfair to the concessionaires, whether they are river 
runners or aircraft, without having some that we all know what 
we are dealing with rather than have a personality do this. We 
get in trouble that way.
    But I will not belabor that. I just want to thank this 
panel and the Commissioner and Mr. Keller for giving us this 
input. It has been very informative.
    We kind of pore over these things a lot and go over them, 
see where we are going. Probably the end of this will be, as 
this report pointed out, Congress is going to get in this act, 
and we will probably put together a rough draft in the spring 
or summer, and then we will hold that draft up to be shot at, 
so to speak, and then everyone can look at that and see what 
they do not like, and that is perfectly fair and honest, and we 
appreciate all of you doing that.
    So that is where we are headed. I hope we can do something 
that is good for America and protect our environment at the 
same time, which is always just a tad difficult to please 
everybody. We rarely try. We try to do what we think is right. 
So we will do our best in that regard.
    And thank you all for coming. It has been a very 
informative hearing, and this is adjourned.
    [Whereupon, at 1:10 p.m., the joint Subcommittee was 
adjourned, subject to the call of the chair.]
    [Additional material submitted for the record follows.]
 Statement of Barry L. Valentine, Acting Deputy Administrator, Federal 
                        Aviation Administration

    Chairman Hansen, Chairman Duncan and Members of the 
Subcommittee:
    It is a pleasure to appear before you today to discuss the 
Federal Aviation Administration's (FAA) commitment and 
continuing efforts to reduce the impact of aircraft overflights 
on our national parks.
    This Administration has committed significant time and 
effort to developing a specific plan that will restore natural 
quiet to the Grand Canyon National Park (GCNP) and to 
formulating a national policy and process to manage aircraft 
overflights over national parks across the country. Numerous 
groups are affected by rules concerning overflights. Many park 
visitors and those charged with preservation of park resources 
are concerned about air traffic over park lands. Those who 
provide access to park resources from the air, and have done so 
for years, believe that they have a legitimate stake in 
continuing their operations, while offering a unique and 
unparalleled way to view the parks. And, in the case of western 
parks especially, Native American cultural and historical 
properties are impacted by flights over or near park land.
    Our efforts to address park overflights date back to 1987 
when Congress enacted the National Parks Overflights Act. Since 
that time, the National Park Service (NPS) and the FAA have 
worked together to reduce the impact of overflights on park 
lands in parks as diverse as the Haleakala National Park in 
Hawaii and the Statue of Liberty National Monument in New York. 
The most challenging task to date, however, has been developing 
a strategy that will substantially restore the natural quiet in 
the Grand Canyon while preserving the current air tour 
industry. Because of the diverse and strongly held positions of 
the various parties with interests in the Grand Canyon, it has 
been difficult to achieve consensus on how to resolve the 
issues.
    In 1993, Secretary of the Interior Babbitt and then 
Secretary of Transportation Pena established an interagency 
working group to resolve the many difficult issues involved in 
the Grand Canyon. Based on the work of the interagency group, 
the FAA and the Park Service published a final rule and two 
proposed rules on December 31, 1996. We believe that these 
documents propose a strategy that will reduce the impact of 
aircraft noise on the park environment and assist the National 
Park Service (NPS) in achieving substantial restoration of 
natural quiet in the GCNP.
    Restoring natural quiet to the GCNP will take the 
commitment and cooperation of everyone concerned. In the near-
term, everyone must seek compromise, and the Administration's 
proposed strategy reflects that compromise. Our strategy 
includes both short- and long-term actions necessary to restore 
natural quiet while balancing the interests and concerns of 
those with vested interests in the park.
    In an effort to avoid any further increases in noise levels 
experienced in the Grand Canyon today, the Administration's 
strategy establishes a cap on the number of aircraft operating 
in the park. The cap is based on the number of aircraft 
operating in the park between July and December of 1996. We 
also established a curfew in the eastern part of the park in 
the Zuni and Dragon corridors, and we established a 5-year 
reporting requirement for air tour companies operating over the 
canyon. The curfew achieves immediate benefits in reducing 
noise levels in some of the most scenic and most sensitive 
parts of the park. The reporting requirement will assist the 
FAA and the Park Service in measuring and monitoring noise 
levels in the Grand Canyon and, if necessary, help us to refine 
our current noise standard.
    Other short-term actions in our strategy include increasing 
the flight-free zones in the GCNP and restructuring air tour 
routes. Although these short-term actions alone will not permit 
the Park Service to accomplish its legislative mandate of 
restoring natural quiet to the park, they are important first 
steps that will reduce noise levels experienced in the GCNP 
today, and they will lay the groundwork for future actions that 
will result in the restoration of natural quiet.
    One way to restore natural quiet and maintain a viable air 
tour industry is to conduct air tour operations using quieter 
aircraft. That is why the Administration has proposed the 
gradual phasing out of many of the current air tour aircraft 
and replacing them with more noise efficient designs that 
incorporate quiet aircraft technology. If adopted, the proposal 
would define air tour aircraft in terms of ``noise efficiency'' 
and rank aircraft accordingly--``category A'' aircraft being 
the noisiest and ``category C'' aircraft the quietest. Phase 
out of ``category A'' aircraft could begin in the year 2000 
with a gradual phasing out of both ``category A'' and 
``category B'' aircraft by 2008. The proposal also provides 
incentives for air tour operators to invest in quiet technology 
aircraft. For example, special air tour routes could be 
established where only quiet aircraft would be permitted to 
operate. We believe this part of the overall strategy--the 
phasing out of noisier aircraft with the proper economic 
incentives--is a viable solution that can both restore natural 
quiet and preserve air tour operations.
    Mr. Chairman, this brings us to our most recent initiatives 
to address air tour operations over park lands nationwide. 
Before discussing the actions of the National Parks Overflight 
Working Group, I would like to take moment to clarify the FAA's 
position concerning airspace jurisdiction.
    Federal law and Congressional policy mandate that the 
authority over our nation's airspace reside with one agency--
the FAA. The National Park Service supports this position. The 
FAA believes that it is essential that this position be 
maintained. In the past, the agency has consistently opposed 
any legislative proposal that has either directly or indirectly 
diluted the FAA's authority over the airspace. I can assure 
you, Mr. Chairman, the agency will continue to do so. The FAA's 
broad authority and responsibility over the airspace has been 
acknowledged and accepted by the National Parks Overflights 
Working Group from the beginning and the national rule will 
reflect this position.
    With that said, I would like briefly to bring you up-to-
date on our national efforts. Based on our experience in the 
GCNP, we learned the importance of bringing all of the 
interested parties to the table early. When Secretary Slater 
and Secretary Babbitt announced the creation of a National 
Parks Overflights Working Group, they made it clear that they 
wanted a plan that would balance the interests of everyone 
concerned--the national park system, air tour operators, 
visitors to our national parks, and those who live in or near 
the parks. Therefore, the national working group is composed of 
nine members representing air tour operators and other 
commercial aviation interests, general aviation, environmental 
groups, Native Americans, and the Federal Government.
    I am pleased to report that the national working group has 
reached a general consensus on most issues and has formulated 
recommendations. They will meet with the FAA's Aviation 
Rulemaking Advisory Committee (ARAC) and the NPS Advisory Board 
in the near future. The ARAC and NPS Advisory Board then will 
review the working group recommendations and will report to the 
FAA and NPS. The final report of the working group will be made 
available to the public and we plan to hold public meetings 
early in 1998.
    The partnership approach developed by Secretaries Slater 
and Babbitt is the most promising and rational approach for 
dealing with this issue. We believe that together the National 
Park Service and the Federal Aviation Administration are well 
on the way to achieving a national overflights rule that will 
continue to provide access by air while maintaining the beauty 
and unique experience that national parks afford. In doing so, 
we are relying upon the lessons learned and our shared 
experiences in formulating a proposed strategy for the GCNP. It 
remains our policy in managing the navigable airspace over 
these natural treasures to exercise leadership in achieving an 
appropriate balance between the nation's need for air 
transportation, environmental concerns, and technological 
practicability while maintaining the highest level of safety.
    This completes my prepared statement Mr. Chairman, and I 
would be pleased to respond to any questions you and members of 
the Subcommittee may have at this time.
                                ------                                


Statement of Jacqueline Lowey, Deputy Director, National Park Service, 
                       Department of the Interior

    Mr. Chairman and Committee members, thank you for the 
opportunity to appear before you at this oversight field 
hearing to comment on commercial air tours over national parks.
    For the last 125 years, since the creation of Yellowstone 
National Park in 1872, the Congress and the Executive Branch 
have worked as partners in setting aside and protecting this 
great nation's natural, cultural and historical resources. The 
National Park Service was given the mission and the honor of 
conserving these resources and of providing for their use by 
the public ``by such means as will leave them unimpaired for 
the enjoyment of future generations.''
    What foresight our nation's leaders had in setting aside 
these spectacular lands. As our population increases and urban 
centers and suburban areas continue to develop and grow, people 
will be able to experience the sights and sounds of these lands 
in perpetuity. It is a gift we have been given and one we will 
pass on to future generations.
    Let me say up front and clearly, the National Park Service 
recognizes the value of the air tour industry, its contribution 
to our economy, and the experience it offers to many of our 
visitors. We do not seek to ban air tours over all National 
Park System units, as some fear. The increasing number of air 
tours over national parks real challenge because on one hand, 
air tours clearly provide many park visitors a wonderful 
opportunity to enjoy the parks from the air. On the other hand, 
in some instances, these tours can have a substantial negative 
impact on the ability of other park visitors to enjoy their 
park experience and to have the opportunity to experience some 
of the unique resources and values of the parks. Additionally, 
overflights can interfere with wildlife (including threatened 
and endangered species), cultural resources, and ceremonies. 
Therefore, as we do with other uses of the park, we must seek 
an appropriate balance.
    Congress wisely recognized this when it passed the National 
Parks Overflights Act in 1987 and directed the National Park 
Service to achieve a ``substantial restoration of natural 
quiet'' at Grand Canyon National Park. Commercial sightseeing 
air tours began at the Grand Canyon as early as the 1920's. At 
low levels of operation they were not perceived of as a 
problem. The situation began to change after the construction 
of the Grand Canyon National Park Airport which facilitated the 
growth of the air tour industry. More recently, greater growth 
in sightseeing tours has come from companies based in Las 
Vegas.
    In 1987, Grand Canyon became the first national park where 
air tourism was regulated. Special Federal Aviation Regulation 
(SFAR 50-2), resulting from the requirements of Public Law 100-
91, was the first attempt by the FAA and the National Park 
Service to address jointly the safety and noise effects 
associated with commercial air tours. These regulations were 
effective in addressing safety issues, however, they did not 
anticipate or address the subsequent dramatic increase in the 
number of flights over the park; and, as we have come to 
understand more recently, they did not provide a satisfactory 
mechanism for involving all the effected parties in the 
decision-making process.
    Safety was also the reason that the FAA imposed a set of 
emergency regulations (SFAR-71) on high-volume commercial air 
tour operations in Hawaii. At Haleakala National Park in 
Hawaii, the National Park Service has been working with a group 
of air tour operators to see if a voluntary agreement can be 
developed which will meet the needs of all parties in the 
vicinity of the park.
    Air tour operations have provoked serious concerns around 
such parks as Great Smoky Mountains, Glacier, Canyonlands, 
Zion, Bryce Canyon and others. As I noted earlier, even the 
prospect of establishing air tour operations in Estes Park, 
Colorado, on the edge of Rocky Mountain National Park, was 
sufficient to galvanize citizens of Colorado to request the FAA 
to establish a ban on commercial air tours over that park.
    Both by law and by Presidential directive, the National 
Park Service is directed to preserve natural quiet in certain 
units of the National Park System. Natural quiet--the natural 
ambient sound conditions in parks, including the sounds of 
birds, rivers and nature, without the intrusion of mechanical 
noise--has been explicitly recognized as a resource and value 
the National Park Service should protect. The Federal Aviation 
Administration (FAA), which has the sole authority over the 
regulation of our nation's airspace, is a vital partner in 
carrying out that direction. The National Park Service has the 
authority and responsibility to assess the impact of 
overflights on park resources and the visitor experience, but 
the FAA must determine the efficacy and safety of all airspace 
management proposals.
    Both agencies must and do work diligently together to 
address the management of air tours over national parks, the 
quality of service provided to park visitors, and the impact 
these tours may have on park resources and other visitors. Mr. 
Chairman, as someone who has worked for both the Department of 
Transportation and the National Park Service--and one who has 
been on both sides of the table when we have worked to resolve 
differences in approaches--I can assure you that both agencies 
are committed to this effort.
    The 1994 National Park Service Report to Congress on 
overflights, required by Public Law 100-91 made a number of 
pertinent recommendations:

        <bullet> The FAA should develop an operational rule triggered 
        by the National Park Service to regulate air tour operations 
        where they have or may have adverse effects on national parks.
        <bullet> The FAA should implement a rule which would provide 
        for the protection of natural quiet in national parks, allowing 
        regulated air tour operations in most, but prohibiting them 
        where the size or configuration of the park or the sensitivity 
        of the park's resources require it.
        <bullet> All reasonable tools and methods--voluntary 
        agreements, use of quiet aircraft, spatial zoning, altitude 
        restrictions, operations specifications, concession agreements, 
        noise budgets, and limits on times of operations--should be 
        used in establishing appropriate airspace/noise management 
        controls for each park which has air tours.
    Even before the 1994 report was completed, Secretary of 
Transportation Federico Pena and Secretary of the Interior 
Bruce Babbitt agreed to form an Interagency Working Group (IWO) 
to explore ways to limit or reduce the impacts from overflights 
on the national park system. I was Secretary Pena's 
representative on that working group. Both Secretaries agreed 
that increased air tour operations at Grand Canyon and other 
national parks have significantly diminished the park visitor 
experience and that measures can and should be adopted to 
preserve a quality park experience, while providing access to 
the airspace over national parks.
    President Clinton, in his 1996 Parks for Tomorrow 
Initiative, directed the Secretary of Transportation to 
continue the ongoing development of rules that effectively 
address the national parks overflights issue. The President, 
like several members of Congress, recognized that we need a 
comprehensive national policy and process to address this issue 
broadly. In response to the President's directive, the two 
agencies established the National Parks Overflights Working 
Group (NPOWG). The nine-member group consists of air tour 
industry representatives, individuals representing 
environmental interests, and individuals representing the 
interests of Native Americans. The Working Group's tasks were 
to develop a recommended notice of proposed rulemaking (NPRM) 
which will define a process for reducing or preventing the 
adverse effects of commercial air tour operations over units of 
the National Park System. There were five specific parameters 
to guide the working group:

        <bullet> The recommended rule should be process-oriented and 
        applicable to any unit of the National Park System where 
        commercial sightseeing air tour operations are identified as 
        having or potentially having adverse effects on park resources 
        or the visitor experience.
        <bullet> The recommended rule should be designed to facilitate 
        problem prevention at parks where a problem does not yet exist.
        <bullet> The recommended rule should be designed to resolve 
        conflicts, or to mitigate adverse effects, at those park units 
        where commercial air tour operations are having adverse effects 
        on park resources and visitor experiences.
        <bullet> The recommended rule should provide for appropriate 
        tribal involvement in the process recommended in the NPRM when 
        tribal lands adjacent to or near national park service units 
        may be impacted by air tour regulations. The recommended rule 
        should provide for appropriate public input at the park level.
    Mr. Chairman, I am happy to report that from all accounts 
the working group process has proceeded exceptionally well and 
that its members have reached a consensus recommendation on how 
the agencies should proceed with a NPRM. Both agencies are 
excited by the prospect of this agreement.
    We anticipate that the Federal Aviation Regulation (FAR) 
developed by the FAA in consultation with the National Park 
Service will be based on recommendations from the working 
group. We expect to receive these recommendations at the end of 
this month, at which point the two agencies will turn these 
recommendations into rule language.
    This concludes my prepared remarks. I appreciate the 
opportunity to appear before you today and would be happy to 
answer any of your questions.
                                ------                                


  Statement of Jeri Ledbetter, Volunteer, Sierra Club Southwest Field 
                                 Office

    As a professional river guide as well as an aircraft owner 
and pilot, I have been actively involved with the issue of 
aircraft noise over our national parks for nearly 10 years. As 
past president of Grand Canyon River Guides I focused on our 
worst example, Grand Canyon National Park. I have never been 
compensated for this work, and I am here today at my own 
expense. I provide this testimony because I am profoundly 
concerned about a cherished resource--natural quiet--whose 
steady deterioration I have witnessed over the years.
    I have flown over the Canyon as well as spent a great deal 
of time within its walls. Although there is room for many types 
of visitation, we must strike a better balance. And we must see 
to it that what has happened in Grand Canyon is not allowed to 
occur in our other national parks. There should be places in 
the world where one may escape the ever increasing clamor of 
technology. When I was a child I visited Grand Canyon, and it 
was such a place--a quiet and serene sanctuary. It is no more.
    With the Overflights Act, Congress sent a clear and 
visionary message that Grand Canyon is a unique treasure worthy 
of protection, and that natural quiet is a resource to be 
valued. Yet with no limit to the number of flights and a lot of 
foot dragging by the FAR, the problem remains far from solved; 
in fact the noise has reached an unacceptable level.
    No one form of visitation should be allowed to become so 
pervasive that it impacts all others, as is the case with air 
tours in Grand Canyon. Granted, more than 800,000 people visit 
the Canyon by air each year, compared to a relative few on the 
backcountry trails or on the river. There's a reason there are 
so few, and it isn't lack of demand. The National Park Service 
strictly limits the number of visitors by foot, mule, or boat 
in spite of demand, in spite of potential profits. The goal is 
protection of both the resource and visitor experience.
    Permits for most backcountry trails must be obtained months 
in advance, commercial river trips a year or more. Rafters may 
wait 10 years to obtain a private permit to run the Colorado 
River. Such restrictions are necessary and consistent with the 
National Park Service's mandate to protect the resource. Why 
should air tours be the sole exception? Calling for limits on 
the number of air tours isn't elitist, nor is it unreasonable. 
Such action is consistent with the goals of the National Park 
Service as well as the Overflights Act.
    The FAA, however, has not received this message. They cast 
aside most of the National Park Service's recommendations, not 
on the basis of safety, but purely to protect the economic 
interests of the air tour industry. The rule, now delayed yet 
again, still falls far short of the goal.
    Every step of the way, air tour operators claim imposition 
of flight rules will drive them out of business. To the 
contrary, their businesses flourish, compounding the noise 
problem and necessitating a revision of flight rules.
    For those who argue that an air tour has no lasting impact, 
I ask at what point they are willing to cease all operations? 
Ten years? Twenty? They don't ever plan to stop, so how can 
they claim their impact isn't as permanent as a footprint?
    Some claim that air tours are the only way the disabled and 
elderly can see Grand Canyon. Yet no part of this rule would 
preclude anyone from taking an air tour. We respect the value 
of accessibility. However, the disabled tire of being told what 
they cannot do. They have faced the word ``can't'' all too 
often, for much too long. To their credit, many have tested 
their limits and discovered just how much they can do. I see 
the elderly and the disabled on the river in greater numbers 
every year, as well as on the trails, and I find that 
inspirational. It is not only inaccurate, but it is also 
illegal, to suggest the disabled may only visit our national 
parks by air.
    Change comes hard, but in our national parks different 
rules apply than those to which the air tour industry and the 
FAA are accustomed. Economic interests must take a back seat to 
resource protection. Operating within our national parks for 
profit is a privilege, not a right.
    These are difficult concepts for some, as evidenced by some 
tour operators' outright refusal to pay airspace fees mandated 
by Congress. Some operators significantly underreported the 
number of aircraft and flights, which caused glaring 
inaccuracies in the computer model and wasted a huge amount of 
time at taxpayer expense. This shows a contempt for Congress, 
for the National Park Service, and for the Grand Canyon over 
which they fly for profit. Yet the FAA accepts with a shrug the 
lies and the arrogance, proposing to increase the number of 
aircraft allowed to fly over the Canyon by almost double.
    We must develop a national policy to protect our national 
parks and wilderness areas from the intrusion of aircraft 
noise. The National Park Service, not the FAA, should have the 
authority to determine whether or not air tours are appropriate 
in individual park units, such as Rocky Mountain. This national 
policy should direct the FAA to focus purely on safety, leaving 
resource decisions to the National Park Service.
    I spend weeks at a time rowing boats through Grand Canyon. 
We actually spend very little time in rapids. Most of the time 
we float through quiet stretches of river or explore narrow, 
secluded side canyons. In these areas, natural ambient sounds 
are astonishingly low. The sounds of the river and Canyon are 
an important part of the experience. We quietly listen to the 
call of a canyon wren, the trickle of a small stream, a light 
breeze through a cottonwood, the murmur of the river, or the 
frustrated shriek of a falcon who just missed his lunch. These 
experiences are violated, and Grand Canyon cheapened by the 
increasing onslaught of mechanized sound from the air.
                                ------                                


    Statement of Alan Gardner, Commissioner, Washington County, Utah

    My name is Alan Gardner. I am a Commissioner from 
Washington County, Utah. I appreciate the opportunity to give 
my thoughts at this hearing on aerial flights over the national 
parks.
    My wife and I made our first visit to Bryce Canyon National 
Park this last September. We enjoyed the beauty of inspiration 
and Bryce points. I was completely unaware of a helicopter 
flying over until my wife pointed it out. While we were there, 
another helicopter and one airplane flew over. They moved 
quickly through the area with very little noise.
    As we looked off these points, we could see many trails 
through the canyon. There were several groups of hikers using 
the trails. My experience at Bryce Canyon was not disturbed any 
more by the air traffic than it was by the hikers.
    I have visited Zion National Park many times over the 
years, and I have hiked numerous trails and developed a deep 
appreciation for its beauty.
    This past spring I had my first experience in flying in a 
helicopter in the northeast area of the park while monitoring a 
forest fire.
    Looking at Zion from the from the ground up is beautiful, 
but looking into some of the canyons from the air was a 
fascinating new experience.
    There are many senior citizens, handicapped individuals, 
and those who do not enjoy hiking who visit our national parks. 
Are they to be denied these beauties? It is like going to see 
the works of a famous sculptor and being told you had to look 
from a distance and only from one angle.
    If we allow extremists to stop the flyovers, we will be 
back in time having hearings on closing all trails to hiking as 
well.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T6701.001
    
    [GRAPHIC] [TIFF OMITTED] T6701.002
    
    [GRAPHIC] [TIFF OMITTED] T6701.003
    
    [GRAPHIC] [TIFF OMITTED] T6701.004
    
    [GRAPHIC] [TIFF OMITTED] T6701.005
    
    [GRAPHIC] [TIFF OMITTED] T6701.006
    
    [GRAPHIC] [TIFF OMITTED] T6701.007
    
    [GRAPHIC] [TIFF OMITTED] T6701.008
    
    [GRAPHIC] [TIFF OMITTED] T6701.009
    
    [GRAPHIC] [TIFF OMITTED] T6701.010
    
    [GRAPHIC] [TIFF OMITTED] T6701.011
    
    [GRAPHIC] [TIFF OMITTED] T6701.012
    
    [GRAPHIC] [TIFF OMITTED] T6701.013
    
    [GRAPHIC] [TIFF OMITTED] T6701.014
    
    [GRAPHIC] [TIFF OMITTED] T6701.015
    
    [GRAPHIC] [TIFF OMITTED] T6701.016
    
    [GRAPHIC] [TIFF OMITTED] T6701.017
    
    [GRAPHIC] [TIFF OMITTED] T6701.018
    
    [GRAPHIC] [TIFF OMITTED] T6701.019
    
    [GRAPHIC] [TIFF OMITTED] T6701.020
    
    [GRAPHIC] [TIFF OMITTED] T6701.021
    
    [GRAPHIC] [TIFF OMITTED] T6701.022
    
    [GRAPHIC] [TIFF OMITTED] T6701.023
    
    [GRAPHIC] [TIFF OMITTED] T6701.024
    
    [GRAPHIC] [TIFF OMITTED] T6701.025
    
    [GRAPHIC] [TIFF OMITTED] T6701.026
    
    [GRAPHIC] [TIFF OMITTED] T6701.027
    
    [GRAPHIC] [TIFF OMITTED] T6701.028
    
    [GRAPHIC] [TIFF OMITTED] T6701.029
    
    [GRAPHIC] [TIFF OMITTED] T6701.030
    
    [GRAPHIC] [TIFF OMITTED] T6701.031
    
    [GRAPHIC] [TIFF OMITTED] T6701.032
    
    [GRAPHIC] [TIFF OMITTED] T6701.033
    
    [GRAPHIC] [TIFF OMITTED] T6701.034
    
    [GRAPHIC] [TIFF OMITTED] T6701.035
    
    [GRAPHIC] [TIFF OMITTED] T6701.036
    
    [GRAPHIC] [TIFF OMITTED] T6701.037
    
    [GRAPHIC] [TIFF OMITTED] T6701.038
    
    [GRAPHIC] [TIFF OMITTED] T6701.039
    
    [GRAPHIC] [TIFF OMITTED] T6701.040
    
    [GRAPHIC] [TIFF OMITTED] T6701.041
    
    [GRAPHIC] [TIFF OMITTED] T6701.042
    
    [GRAPHIC] [TIFF OMITTED] T6701.043
    
    [GRAPHIC] [TIFF OMITTED] T6701.044
    
    [GRAPHIC] [TIFF OMITTED] T6701.045
    
    [GRAPHIC] [TIFF OMITTED] T6701.046
    
    [GRAPHIC] [TIFF OMITTED] T6701.047
    
    [GRAPHIC] [TIFF OMITTED] T6701.048
    
    [GRAPHIC] [TIFF OMITTED] T6701.049
    
    [GRAPHIC] [TIFF OMITTED] T6701.050
    
    [GRAPHIC] [TIFF OMITTED] T6701.051
    
    [GRAPHIC] [TIFF OMITTED] T6701.052
    
    [GRAPHIC] [TIFF OMITTED] T6701.053
    
    [GRAPHIC] [TIFF OMITTED] T6701.054
    
    [GRAPHIC] [TIFF OMITTED] T6701.055
    
    [GRAPHIC] [TIFF OMITTED] T6701.056
    
    [GRAPHIC] [TIFF OMITTED] T6701.057
    
    [GRAPHIC] [TIFF OMITTED] T6701.058
    
    [GRAPHIC] [TIFF OMITTED] T6701.059
    
    [GRAPHIC] [TIFF OMITTED] T6701.060
    
    [GRAPHIC] [TIFF OMITTED] T6701.061
    
    [GRAPHIC] [TIFF OMITTED] T6701.062
    
    [GRAPHIC] [TIFF OMITTED] T6701.063
    
    [GRAPHIC] [TIFF OMITTED] T6701.064
    
    [GRAPHIC] [TIFF OMITTED] T6701.065
    
    [GRAPHIC] [TIFF OMITTED] T6701.066
    
    [GRAPHIC] [TIFF OMITTED] T6701.067
    
    [GRAPHIC] [TIFF OMITTED] T6701.068
    
    [GRAPHIC] [TIFF OMITTED] T6701.069
    
    [GRAPHIC] [TIFF OMITTED] T6701.070
    
    [GRAPHIC] [TIFF OMITTED] T6701.071
    
    [GRAPHIC] [TIFF OMITTED] T6701.072
    
    [GRAPHIC] [TIFF OMITTED] T6701.073
    
    [GRAPHIC] [TIFF OMITTED] T6701.074
    
    [GRAPHIC] [TIFF OMITTED] T6701.075
    
    [GRAPHIC] [TIFF OMITTED] T6701.076
    
    [GRAPHIC] [TIFF OMITTED] T6701.077
    
    [GRAPHIC] [TIFF OMITTED] T6701.078
    
    [GRAPHIC] [TIFF OMITTED] T6701.079
    
    [GRAPHIC] [TIFF OMITTED] T6701.080
    
    [GRAPHIC] [TIFF OMITTED] T6701.081
    
    [GRAPHIC] [TIFF OMITTED] T6701.082
    
    [GRAPHIC] [TIFF OMITTED] T6701.083
    
    [GRAPHIC] [TIFF OMITTED] T6701.084
    
    [GRAPHIC] [TIFF OMITTED] T6701.085
    
    [GRAPHIC] [TIFF OMITTED] T6701.086
    
    [GRAPHIC] [TIFF OMITTED] T6701.087
    
    [GRAPHIC] [TIFF OMITTED] T6701.088
    
    [GRAPHIC] [TIFF OMITTED] T6701.089
    
    [GRAPHIC] [TIFF OMITTED] T6701.090
    
    [GRAPHIC] [TIFF OMITTED] T6701.091
    
    [GRAPHIC] [TIFF OMITTED] T6701.092
    
    [GRAPHIC] [TIFF OMITTED] T6701.093
    
    [GRAPHIC] [TIFF OMITTED] T6701.094
    
    [GRAPHIC] [TIFF OMITTED] T6701.095
    
    [GRAPHIC] [TIFF OMITTED] T6701.096
    
    [GRAPHIC] [TIFF OMITTED] T6701.097
    
    [GRAPHIC] [TIFF OMITTED] T6701.098
    
    [GRAPHIC] [TIFF OMITTED] T6701.099
    
    [GRAPHIC] [TIFF OMITTED] T6701.100
    
    [GRAPHIC] [TIFF OMITTED] T6701.101
    
    [GRAPHIC] [TIFF OMITTED] T6701.102
    
    [GRAPHIC] [TIFF OMITTED] T6701.103
    
    [GRAPHIC] [TIFF OMITTED] T6701.104
    
    [GRAPHIC] [TIFF OMITTED] T6701.105
    
    [GRAPHIC] [TIFF OMITTED] T6701.106
    
    [GRAPHIC] [TIFF OMITTED] T6701.107
    
    [GRAPHIC] [TIFF OMITTED] T6701.108
    
    [GRAPHIC] [TIFF OMITTED] T6701.109
    
    [GRAPHIC] [TIFF OMITTED] T6701.110
    
    [GRAPHIC] [TIFF OMITTED] T6701.111
    
    [GRAPHIC] [TIFF OMITTED] T6701.112
    
    [GRAPHIC] [TIFF OMITTED] T6701.113
    

</pre></body></html>
